<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              


                         WEDNESDAY, MAY 4, 2011

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Tom Harkin (chairman) presiding.
    Present: Senators Harkin, Brown, Shelby, and Cochran.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. HILDA L. SOLIS, SECRETARY

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. The Subcommittee of Labor, Health and Human 
Services, and Education, and Related Agencies will now come to 
order.
    First of all, welcome back to the subcommittee, Madam 
Secretary. Your appearance today comes at a critical point for 
your Department and for our Nation's workforce.
    After a long and difficult recession, our economy is slowly 
recovering, but too many workers are unemployed or 
underemployed, and more needs to be done to ensure that all 
Americans benefit from economic growth, not just the few at the 
top. At the same time, Congress and the administration must 
work together to reduce our budget deficits and restore fiscal 
discipline.

                  FISCAL YEAR 2011 APPROPRIATIONS BILL

    A first step was taken last month when we completed action 
on the fiscal year 2011 appropriations bill. This bill made 
significant cuts to the Department of Labor, more than $800 
million, or 6 percent below the fiscal year 2010 level. And 
yet, we maintained important investments in employment and 
training programs, worker protections, and the fight against 
the worst forms of child labor. The cuts could have been more 
damaging. The House alternative, H.R. 1, targeted programs that 
serve the most vulnerable Americans, including drastically 
cutting job training for people who have lost their jobs as a 
result of layoffs. It's hard to see the wisdom of a cut like 
that when the real unemployment rate really is close to 16 
percent in this country. Thankfully, the fiscal year 2011 bill 
rejected that approach.

                            FISCAL YEAR 2012

    Now we turn to fiscal year 2012. Regrettably, we already 
know that programs that benefit American workers are once again 
being targeted for draconian cuts. The budget passed by the 
House last month takes the approach that the deficit should be 
addressed by enacting yet another tax cut bonanza for those at 
the top while ripping the social safety net for seniors, people 
with disabilities, and low income, and slashing funding for 
education and training. In fact, the House budget would cut 
education and training programs by 15 percent in fiscal year 
2012.
    I believe there's a better way, and history offers a guide. 
When President Clinton took office in 1993, he faced a similar 
situation in terms of the budget. He proposed a balanced 
approach that included spending cuts and necessary revenue 
increases while continuing to make crucial investments in 
education, infrastructure, and research, areas that are 
absolutely essential if we're going to create jobs and stay 
competitive in the global economy. The plan worked, and worked 
brilliantly. It created large budget surpluses, 22 million new 
jobs, and 116 consecutive months of economic expansion, the 
longest in American history. I believe we need that same 
balanced approach today.
    Madam Secretary, there is no question that the fiscal year 
2012 budget for the Department of Labor will remain tight. But, 
the President rightly puts a high priority on programs that are 
critical to our long-term fiscal health, especially in the 
areas of employment and training, as well as a new workforce 
innovation fund that Congress created in the fiscal year 2011 
bill.
    I'm also pleased to see that the budget request continues 
the Disability Employment Initiative that Congress started in 
fiscal year 2010. With almost 80 percent of Americans with 
disabilities not currently in the labor force, we need to do 
much better, and I believe this initiative will help.
    Your budget also proposes important investments that will 
help address mine safety and health, worker misclassification, 
and workplace safety and health activities. I was particularly 
pleased to see a proposed increase for Bureau of International 
Labor Affairs (ILAB), which leads our fight against the worst 
forms of child labor around the world. And I thank you for 
that, Madam Secretary.
    On a related note, I'd like to thank you for your efforts 
on the framework of action to support the implementation of the 
Harkin-Engle Protocol targeted at child labor in the cocoa 
sectors of Ghana and the Ivory Coast.
    Madam Secretary, I know you are well aware of the many 
important priorities competing for resources in our Labor-HHS 
appropriations bill. Your testimony in this hearing will help 
inform us as we do that work.
    And before we hear from you, Madam Secretary, I would yield 
to Senator Shelby for his opening statement.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman.
    Madam Secretary, I look forward to hearing your testimony 
today on the 2012 budget request. As the chairman has said, 
we're in difficult economic times. The unemployment rate is 8.8 
percent. When you consider the underemployed and those who have 
stopped looking for work, which the Department of Labor does 
not incorporate in the unemployment statistics, the real 
unemployment rate is actually much higher, at 16.2 percent.
    The Federal deficit is $1.65 trillion. In fiscal year 2012, 
I believe we need to make cuts to our discretionary budget. I 
don't think we have any choice. The Department of Labor's 
fiscal year 2012 budget request reduces Federal spending by 5 
percent, compared to fiscal year 2010 levels. And while the 
Department of Labor should be recognized for cutting spending, 
a feat not accomplished by every Department in the year 2012, I 
do not believe, myself, a 5-percent reduction within the 
Department of Labor goes far enough. In this difficult economic 
environment we need to cut spending today.

          DUPLICATION IN DEPARTMENT OF LABOR TRAINING PROGRAMS

    To get Federal spending under control in the long term, we 
must reduce spending in the short term. The first place to 
begin to reduce expenditure is by eliminating duplication among 
Department of Labor training programs. On March 1, the 
Government Accountability Office, GAO, released a report on 
duplication within Federal programs. I'm concerned that 44 of 
the 47 Federal employment and training programs that the GAO 
identified overlap with at least one other program. I would 
think we could all agree that providing the same services to 
the same population but through separate administrative 
structures does not make sense. Many Federal workforce programs 
meet important skill needs. But, the workforce system could be 
better aligned across agencies and streamlined to ease access 
for both workers and employers. And while I understand the 
implementation could be challenging, collocating services and 
consolidating administrative structures would increase 
efficiencies, and it would certainly reduce costs.

                GOVERNMENT ACCOUNTABILITY OFFICE REPORT

    To the greatest extent possible, we should not have 
duplication within the Federal Government, and certainly not 
within one Department. The GAO report makes a number of 
recommendations that would move the system in that direction. 
And I think our subcommittee needs to seriously consider them.
    Second, as the GAO report pointed out, we do not know the 
effectiveness of most of the Department of Labor programs. In 
last year's testimony before this subcommittee, Madam 
Secretary, you stated that you understand the importance of 
evaluating the Department of Labor workforce programs, and you 
have, quoting you, ``a new commitment to program evaluation.'' 
Those were your words. A year later, I see few results. Job 
Corps has not had a rigorous evaluation since 2003--8 years 
ago. The program's funding, under the Workforce Investment Act 
was supposed to be evaluated in 2005, and now we will not have 
results until 2013. How can this subcommittee make funding 
decisions without having thorough reviews of programs? I 
believe we should have clear metrics and a results-driven 
evaluation process to ensure that we fund only the most 
successful programs.
    Finally, over the past 10 years, the Federal Government's 
regulatory reach has greatly expanded. The administration 
continues to want to extend that reach, even though costly new 
regulations, I believe, are oppressing economic growth in the 
business community. According to the Center for the Study of 
American Business at Washington University, $1.3 trillion is 
lost each year in total U.S. economic activity due to Federal 
regulations throughout our Government. We need to work together 
to reduce excessive burdens on businesses and job creation 
while still maintaining workplace health, safety, and basic 
employment protections.
    I'm particularly concerned regarding draft rule proposals 
on welfare benefit plan disclosures and on the definition of a 
fiduciary. I will have questions for the record on both of 
these topics.
    Mr. Chairman, I thank you for holding this hearing. I look 
forward to continuing to work with you as we move toward the 
2012 appropriation process.
    Senator Harkin. Thank you very much, Senator Shelby.
    Senator Cochran. Mr. Chairman, may I ask unanimous consent 
to join you and Senator Shelby in welcoming the witness----
    Senator Harkin. Absolutely.
    Senator Cochran [continuing]. And having my statement be 
included at this point in the hearing record?
    Senator Harkin. Absolutely. Absolutely----
    Senator Cochran. Thank----
    Senator Harkin. [continuing]. Senator Cochran.
    Senator Cochran. Thank you. Welcome.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, thank you for calling this hearing to discuss 
funding for the Department of Labor for fiscal year 2012. I 
appreciate Secretary Solis attending today and look forward to 
her testimony.
    Madame Secretary, I want to thank you for your continued 
support of Job Corps and the YouthBuild program within the 
fiscal year 2012 budget. Workforce development programs 
targeted at youth are critical to developing occupational 
skills as they work toward their chosen career field. 
Mississippi has three Job Corps centers that serve over 1,400 
students each year and six YouthBuild programs throughout the 
State. These programs have given numerous out-of-school, out-
of-work Mississippi youth the opportunity to obtain their 
General Equivalency Diploma (GED) or high school diploma and 
gain critical vocational training. I look forward to continuing 
to work with you on these important programs.
    Thank you, Mr. Chairman.

    Senator Harkin. And any other Senators who are not here, or 
may come later, their written statements will be made a part of 
the record.
    Secretary Solis was confirmed as the 25th Secretary of 
Labor on February 24, 2009. First elected to public office in 
1985, as a member of the Rio Hondo Community College board of 
trustees, Secretary Solis also served in the California State 
Assembly from 1992 to 1994; in 1994, made history by becoming 
the first Latina elected to the California State Senate. As the 
chairwoman of the California Senate Industrial Relations 
Committee, she led the battle to increase the State's minimum 
wage. She also authored a record 17 State laws aimed at 
combating domestic violence. Secretary Solis also was a 
management analyst with the Office of Management and Budget 
(OMB) in the Civil Rights Division and, as we know, also served 
as a U.S. Representative from the 32d congressional district in 
California from 2001 to 2009. Secretary Solis graduated from 
the California State Polytechnic University, in Pomona, and 
earned her master's degree at the University of Southern 
California.
    So, Madam Secretary, you have a sterling background, and a 
background that fits in very well with your job and your 
leadership at the Department of Labor. And let me, again, just 
thank you for that great leadership that you've provided over 
the last couple of years. We have seen, I think, dramatic 
improvement in the morale. And we've see a lot of good things 
happening out there, especially in areas of worker safety and 
worker health protections. And I just want to compliment you 
for that and welcome you back to the subcommittee.
    Your statement will be made a part of the record in its 
entirety. And you can please proceed as you so desire.
    Thank you.

                SUMMARY STATEMENT OF HON. HILDA L. SOLIS

    Secretary Solis. Thank you so much, Chairman Harkin and 
Vice Chairman Shelby and, obviously, Senator Cochran, for being 
here. It's a pleasure to come back here before you, to the 
subcommittee, and provide my testimony to you.
    Since I came before you last year, there have been a lot of 
changes in our economy, as you well know, and throughout our 
country. But, what has not changed is the desire of the 
American public, and that is for us to work together to address 
the challenges facing working-class people and especially those 
people that are underemployed or unemployed. While there is 
broad agreement that the Government has to start living within 
its means, I hope we can also agree that we have to make those 
investments that will allow our future to prosper by out-
innovating out-competing, out-educating, and making sure that 
everyone here has a fighting chance to be successful. For the 
Department of Labor, that means preparing Americans for jobs of 
tomorrow as well as ensuring that those jobs are both safe and 
that they are fair.
    The President's 2012 budget reflects difficult choices but 
retains the critical investments needed to get America back to 
work and in safe jobs. It also does so in a way that shows our 
commitment to innovation. I want to thank you, Mr. Chairman, 
for supporting the Workforce Innovation Fund within this recent 
budget agreement. I look forward to working together with you 
to build on the initial investment in a way that will make the 
public workforce investment system more efficient, more 
streamlined, more targeted to best serve our Nation's workers. 
This is an example of where we did make a tough choice in the 
budget. Instead of adding funds on top of existing programs, we 
redirected funding from a slower spending statewide set-aside 
to create a competitive grant program. Some of the concerns 
that Senator Shelby has raised I believe will be addressed in 
this Innovation Fund.

                        WORKFORCE INVESTMENT ACT

    There was a similar choice that we had to make that you had 
to make, as well: recent cuts that were made in the Workforce 
Investment Act, overall. In crafting the future of WIA, the 
Workforce Investment, I hope that we can find a way to strike a 
good balance between local service dollars, statewide 
activities, and competitive grants that don't replicate or 
duplicate programs. I'm looking for ideas to provide new areas 
and innovative pursuits, as also--and looking, also, for a 
system that will help provide those reforms that we're talking 
about here today.
    I know that you've also faced tough choices in eliminating, 
in fiscal year 2011, funding for green job training programs. 
As the economy recovers, however, I strongly believe that green 
jobs still will remain a growing segment of this economy and 
will take us further, in the 21st century, to cut our 
dependence on foreign oil and as well as relying on those 
countries that may not be supportive of our goals, overall.
    Preparing workers for these jobs will be a vital component 
of winning the future, and restoring the investment will allow 
us to continue to work with industry to ensure that American 
workers have the opportunity to gain the skills and credentials 
to move into better and high-paying jobs. And hopefully those 
jobs will stay here on our shores.
    I also want to emphasize that our budget maintains our 
commitment to helping the most vulnerable populations, those 
that are veterans, women, and other people that serve us well, 
here in our country. We focus our resources and our Nation's--
on our Nation's veterans, including additional funds to help 
veterans in transition to civilian employment, and for homeless 
veterans, as well.
    One of my priorities in that program is targeting women 
veterans, many who are coming home have served us abroad and 
are finding it very, very difficult to find employment, but 
also, to help their families. We maintain the funding, in both 
ETA and ODEP, for the Disability Employment Initiative that 
you, Mr. Chairman, have championed. We recognize, also, that 
young people need skills to qualify for the jobs of the future, 
and request additional funds for the YouthBuild Program and the 
Job Corps operations.

                           WORKER PROTECTION

    At the Department of Labor, we take very seriously our 
obligation to both protect workers and to protect those 
businesses that play by the rules and provide their workers a 
safe and fair workplace. No worker should have to worry about 
whether they are going to come home safely at the end of a 
shift or get paid for the work that they do. And no employer 
should have to compete against companies that cut corners on 
safety or evade the law.
    The fiscal year 2012 budget builds on recent gains from our 
worker protection agencies. As an example, the Occupational 
Safety and Health Administration, OSHA, must ensure that all 
employers live up to their obligation to provide a safe 
workplace. Fiscal year 2012 budget provides the enforcement and 
regulatory staff and resources we believe are necessary to meet 
that challenge. It also maintains and expands on our commitment 
on compliance assistance programs, including the Voluntary 
Protection Program and the free Onsite Consultation Program 
that focuses on small businesses.
    Also within OSHA, we include additional funds to respond to 
the challenge of implementing a greatly expanded Whistleblower 
Protection Program that the Congress enacted.
    The Upper Big Branch mine disaster, as you recall, 1 year 
ago, resulted in the needless loss of 29 miners, and the worst 
mining disaster since the creation of the Mine Safety and 
Health Administration. In light of this tragedy, the budget 
request includes additional resources so necessary to ensure 
that the Department has the right tools needed to best protect 
our miners. The request includes funding to continue to reduce 
the backlog of contested citations at the Federal Mine Safety 
and Health Review Commission. And I thank you for your 
attention that you have paid to this problem in the recent 
budget agreement. We must also continue our efforts in this 
area to ensure that we're holding accountable mine operators 
who fail to meet their legal and moral obligation and 
responsibility to provide safe mines.
    I also wanted to highlight a few other priority areas at 
DOL. The budget request contains an increase for EBSA, the 
Employment Benefit Security Administration, that protects 
employee benefits for more than 149 million people by 
safeguarding the integrity of 718,000 pension plans and 2.6 
million health plans. Our recent request also includes 
resources in the Wage and Hour Division and other agency 
partners to prevent misclassification which is often misused by 
employers by classifying workers as independent contractors in 
order to avoid their legal obligation to pay taxes or follow 
employment laws.
    One of my goals as Secretary has been to build upon a 
balanced pattern of global trade. Unless workers' rights, 
wages, and working conditions are respected in countries abroad 
that we trade with, workers will be at a disadvantage in the 
global economy, particularly U.S. workers. The budget includes 
an increase of this work by our Bureau of International Labor 
Affairs while maintaining resources in ILAB's effort to combat 
child labor. Again, I want to thank the chairman for his 
tireless effort on our behalf and those many millions of 
children.
    Before closing, I want to emphasize our commitment to 
improving how we deliver services. We're constantly 
scrutinizing ourselves and looking for opportunities to improve 
and to do things much smarter. I'm particularly proud of our 
adoption of a rigorous self-evaluation program. We have a new 
chief evaluation officer who is helping us measure our impact 
of our programs to find out what works and what does not work. 
And I welcome the opportunity for her to have a discussion with 
each of you.
    And I also want to note that the budget includes a proposal 
to strengthen the integrity of unemployment insurance. And we 
look forward to working with Congress on that matter.
    Again, I want to thank you for the opportunity to present 
our budget. I look forward to working with all of you. And I 
hope that we'll continue to make headway in the coming year.
    Thank you for the opportunity to be here.
    [The statement follows:]

                  Prepared Statement of Hilda L. Solis

    Chairman Harkin, Ranking Member Shelby, and members of the 
Subcommittee, thank you for the invitation to testify today. I 
appreciate the opportunity to discuss the fiscal year 2012 budget 
request for the Department of Labor.
    There is broad agreement that the Federal Government has to start 
living within its means. Now that our economic recovery is gaining 
strength, we must come together, reduce our deficit, and get back on a 
path that will allow us to pay down our debt. But we must do it in a 
way that protects the recovery, protects the investments we need to 
grow, create jobs, and helps us win the future. Building on the 2012 
budget and borrowing from the recommendations of the bipartisan Fiscal 
Commission, the President recently proposed a balanced approach to 
achieve $4 trillion in deficit reduction over 12 years. Part of this 
plan is to keep annual domestic spending low by building on the savings 
reflected in our 2011 budget agreement. That step alone will save us 
about $750 billion over 12 years. The administration is committed to 
making the tough cuts necessary to achieve these savings--including to 
programs we care about--but will not sacrifice the core investments we 
need to grow and create jobs.
    The 2012 budget request for the Department of Labor includes a 
number of these difficult cuts, but it also includes key investments 
that would allow us to win the future by out-innovating, out-educating, 
and out-building our global competitors. Getting America back to work 
is a top administration priority as we seek to spur growth in the U.S. 
economy. It is important to promote the creation of ``good jobs,'' and 
the Department of Labor plays a vital role in this goal by helping 
workers find and prepare for new jobs, helping employers find skilled 
workers, and enforcing statutory obligations that keep workers safe and 
help them keep what they earn.

                        INVESTING IN THE FUTURE

    The Department of Labor fiscal year 2012 budget invests in the 
future by working toward my vision, Good Jobs for Everyone. The 
Department's budget focuses on this vision in a fiscally responsible 
manner by:
  --Getting America Back to Work;
  --Keeping Workers Safe; and
  --Helping Workers Provide for Their Families and Keep What They Earn.

                      GETTING AMERICA BACK TO WORK

    To get America back to work and win the future, the Department will 
prepare workers with the tools they need to succeed in the 21st century 
economy, help workers and firms find each other, and support innovative 
strategies to promote economic recovery. The budget documents have been 
provided to the Committee and are available on our website, but for 
now, I want to share the key investments with you:
  --Workforce Innovation Fund.--The public workforce investment system 
        is more important now than ever, but we need to make it more 
        efficient, streamlined, and targeted to serve our growing 
        customer base. To ensure that our investments in employment and 
        training are focused on reform, the Departments of Labor and 
        Education will invest in a Workforce Innovation Fund that will 
        drive innovation and reinvigorate America's workforce 
        development system. The Fund represents a small but crucial 
        investment in innovative, evidence-based, and cost-saving 
        workforce investment strategies that will significantly impact 
        formula-funded activities well into the future. We were pleased 
        that the final 2011 budget agreement included funding for the 
        Fund. Our commitment to innovation is also reflected in 
        requests for green jobs innovation activities and, of course, 
        for evaluation so that we can improve our knowledge of what 
        works.
  --YouthBuild.--Developing the skills of our Nation's youth is 
        critical to ensuring that our workforce is ready to succeed in 
        the future. The 2012 budget requests additional funds for the 
        YouthBuild program, which provides disadvantaged youth, 
        including youth with disabilities, with a pathway to employment 
        or post-secondary education. In fiscal year 2012, we will 
        continue to implement the YouthBuild random assignment 
        evaluation--the first rigorous impact evaluation ever conducted 
        of the program--to measure the program's impacts on 
        participants' post-program employment and earnings and to build 
        knowledge of what works.
  --Unemployment Insurance Solvency and Integrity.--This administration 
        is committed to protecting the financial integrity of the UI 
        system and helping unemployed workers return to work as swiftly 
        as possible. Two major legislative proposals would strengthen 
        the unemployment insurance safety net. One would help States 
        improve the solvency of their unemployment accounts in the 
        Unemployment Trust Fund (UTF), while providing temporary tax 
        relief for employers. The other would create incentives for 
        States to adopt Short-Time Compensation programs and expand 
        their use nationally through implementation grants and a 
        temporary Federal program in order to help avert layoffs. 
        Another legislative proposal would focus on reducing UI 
        improper payments by giving the States new tools and resources 
        that will strengthen the fiscal integrity of the UI system
  --Job Corps.--Our Job Corps program has a long history of preparing 
        disadvantaged youth for a successful transition into the 
        workforce. The 2012 budget would request additional funds for 
        the program, and continues an ambitious agenda to improve the 
        program's performance.
  --Veterans' Employment and Training Service.--We know returning 
        veterans can contribute greatly to our economy. The request for 
        the Department's Veterans' Employment and Training Service 
        includes additional funds for the Homeless Veterans 
        Reintegration Program to provide employment and training 
        assistance to almost 27,000 homeless veterans, including 
        continuing our outreach to homeless women veterans. In 
        addition, the budget request funds the Transition Assistance 
        Program for service members and their spouses, including 
        expansion of services to retiring Reserve and National Guard 
        members. Transition Assistance Program workshops play a key 
        role in helping service members transition swiftly and 
        successfully to civilian employment.
  --Disability Employment Initiative.--It is also important to continue 
        our efforts to ensure that our workforce system effectively 
        serves persons with disabilities. To accomplish this, the 
        Department's budget includes funding for the Employment and 
        Training Administration and the Office of Disability Employment 
        Policy to continue the Disability Employment Initiative begun 
        in fiscal year 2010. This initiative works to build the 
        capacity of the WIA One-Stop Career Center system to serve job 
        seekers with disabilities by improving coordination across 
        programs, leveraging resources, and prioritizing the provision 
        of service to job seekers with disabilities (adults and youth) 
        through the Social Security Administration's Ticket to Work 
        program.

                          KEEPING WORKERS SAFE

    Winning the future requires a successful competitive market where 
all firms are playing by the rules to keep workers safe. Workers should 
be safe in their jobs and we need to ensure that our worker protection 
efforts keep up with the changing economy. The fiscal year 2012 budget 
builds on recent gains for our Worker Protection agencies. Some of the 
highlights of our worker protection request include:
  --Occupational Safety and Health Administration.--The Occupational 
        Safety and Health Administration (OSHA) must ensure that all 
        employers are able to provide safe workplaces to their 
        employees. The request would expand OSHA's commitment to 
        preventing injuries, illnesses and fatalities by deterring 
        employers in the most hazardous workplaces who exhibit a 
        profound disregard for worker safety and health. The fiscal 
        year 2012 budget also includes funds to support OSHA's work 
        with the 21 whistleblower programs it administers in order to 
        reduce the backlog in whistleblower claims, expedite the 
        handling of received complaints, and prepare for a high volume 
        of complex cases resulting from recently passed laws.
  --Mine Safety.--The Upper Big Branch mine disaster just over 1 year 
        ago resulted in the needless loss of 29 miners' lives and was 
        the worst mining disaster in the last 40 years. To prevent 
        future such tragedies, the budget request includes additional 
        resources for the Mine Safety and Health Administration (MSHA) 
        to ensure that the Department has the tools we need to best 
        protect miners. The Budget also requests funding for the Office 
        of the Solicitor (SOL) to reduce the enforcement backlog of 
        contested citations at the Federal Mine Safety and Health 
        Review Commission (FMSHRC). Funds would also support 
        Administrative Law Judges processing Mine Safety and Health 
        citation cases at FMSHRC. We must continue our efforts in this 
        area to ensure that we are holding accountable mine operators 
        who fail to meet their legal and moral responsibility to 
        operate safe mines.

   HELPING WORKERS PROVIDE FOR THEIR FAMILIES AND KEEP WHAT THEY EARN

    Employee Benefits Security Administration.--The Department's 
Employee Benefits Security Administration (EBSA) protects the employee 
benefits for more than 149 million people by safeguarding the integrity 
of 718,000 pension plans, including 401(k) plans, 2.6 million health 
plans, and a similar number of other employee benefit plans. The 
additional requested resources will support the significant increase in 
congressional action aimed at strengthening benefit security for 
working Americans and their families. The Department's efforts will 
make plans more secure and help ensure that workers and their families 
receive the benefits to which they are entitled from their plan and 
under the law.
    Pension Benefit Guaranty Corporation.--The Budget proposes to 
strengthen the defined benefit pension system for the millions of 
Americans who rely on it by giving the PBGC Board the authority to 
adjust premiums and directing PBGC to take into account the risks that 
different sponsors pose to their retirees and to the pension insurance 
program. In order to ensure that these reforms are undertaken 
responsibly, the budget would require 2 years of study and public 
comment before any implementation and the gradual phasing-in of any 
increases.
    Employee Misclassification Prevention and Detection Initiative.--
The budget re-proposes a multi-agency Misclassification Initiative that 
would coordinate Federal and State efforts to remedy violations that 
may result from the misclassification of employees as ``independent 
contractors'' and mitigate future violations.
    Other priorities from the budget submitted by the President in 
February include additional funds for the Bureau of International Labor 
Affairs. The fiscal year 2012 budget includes funds to allow ILAB to 
collect additional information for its responsibilities for reporting 
on labor rights in countries that have free trade agreements and trade 
preference programs with the United States. The budget will also 
continue the Bureau's longstanding commitment to combating child labor 
internationally and to building international relationships that 
improve global working conditions and strengthen labor standards around 
the world.

                               CONCLUSION

    To summarize, the 2012 budget provides targeted investments to help 
workers and firms better find each other, prepare Americans with the 
skills needed for the jobs of today and the jobs of the future, and 
ensure that we have a fair and equitable labor market for firms and 
workers. Our efforts will help to get America back to work, foster safe 
workplaces that respect workers' rights, provide a level-playing field 
for all businesses, and help American workers provide for their 
families and keep the pay and benefits they earn. I am committed to 
achieving the goal of Good Jobs for Everyone while the administration 
focuses on our shared long-term goal of reducing the Federal deficit. I 
believe it is possible to do both and stand ready to work with you in 
the weeks and months ahead on a responsible way forward.
    Mr. Chairman, thank you for inviting me today. I am happy to 
respond to any questions that you may have.

    Senator Harkin. Thank you very much, Madam Secretary.
    We'll start a round of 5-minute questions.

                 EMPLOYMENT OF PEOPLE WITH DISABILITIES

    Madam Secretary, I know you share my deep concern about 
what happened in a situation in Iowa a couple of years ago. It 
was uncovered in April 2009. Again, for your benefit, and 
others, here's what happened. We found people with 
disabilities, 21 men, were working in a turkey processing 
plant. They had been employed by Henry's Turkey Service, out of 
Goldthwaite, Texas--shipped up to Iowa--and had been working in 
this turkey processing plant, some for as long as almost 20 
years. They were living in an old bunkhouse, an old 
schoolhouse--106-year-old schoolhouse--where the boilers didn't 
work. It was cold. Cockroaches were everywhere. And these men 
were bused from there to the workplace and back again. They 
were making 41 cents an hour--subminimum wage--41 cents an 
hour. And they were working right next to people making $12 an 
hour, doing the same job. I mean, it's not that they were 
picking up after them, they were doing the exact same work. And 
so, this was uncovered. It became quite a scandal.
    I have since visited--now, those men have been taken out of 
there. I've since visited with some of those employees in 
Waterloo, but some went back to Texas. Some are still in Iowa, 
and they're working. And they're working not at subminimum wage 
jobs, but at regular integrated employment. In fact, one even 
started his own business, which is a lawn care business in 
Waterloo.

                           WAGE HOUR DIVISION

    Now, why do I raise this issue? I raise it because, from 
2000 to 2008, the Wage and Hour Division lost 20 percent of its 
staff. John McKeon, Deputy Administrator of the Department of 
Labor's Wage and Hour Division, told me, before I held the 
hearing that we held on this subject in the HELP Committee, 
that there are many employers in the United States who pay less 
than the minimum wage and, ``have never seen a Wage and Hour 
investigator.'' And that's sort of what happened in Iowa.
    As I understand it, they were visited, years ago, and then, 
every year, all they have to do is just send in a piece of 
paper. They just send in a piece of paper saying that, ``We're 
complying,'' and that's the end of it. The turkey place was 
called Atalissa--Atalissa. And so, we refer to it as the 
Atalissa case, which raises, in my mind, if that happens in 
Iowa, how many more Atalissas are there out there? And as you 
know, I am taking the opportunity in the HELP Committee and 
with the Workforce Investment Act, to take a look at this area 
of subminimum wage, and how people with disabilities are 
funneled into subminimum wage jobs. They're never given any 
training, never any upgrading of skills, never tested to see, 
can they do something else? Obviously, if these men were doing 
the same job as nondisabled people, they should have been paid 
the same rates. There should have been integrated employment.
    So, I guess I just wanted to bring that to your mind and to 
your attention and just ask you, again, what actions your 
Department's taking to prevent this sort of situation from 
happening again, and to find out how many other places like 
this exist in our country?
    Secretary Solis. Mr. Chairman, I also am appalled by this 
particular case. And I know the last time that I came before 
this subcommittee, I think you brought it up at that time, as 
well. Since that time, I'm happy to report that our Wage and 
Hour Division, because of the support that we received, we're 
able to bring back the enforcement capability that we lost in 
the last 10 years.
    And what we have done, in this particular case, is to look 
at those individuals that are working with the 14(c) program, 
particularly identifying this population, and looking through a 
survey, a compliance survey, to see where we have gaps, where 
we have found problems. And I can tell you that I will make 
sure that you get the results of our survey that will be due to 
us in about 4 to 6 weeks.
    And with that, I would say that we have made sure--and this 
one particular case that you're talking about--at the time, 
they were not certified under the 14(c) program, but we did 
have our Wage and Hour personnel take action, as well as our 
solicitor. That particular situation is being litigated in 
courts right now. And we're finding that there were some major, 
major violations of the Fair Labor Standards Act. And these 
individuals, I believe----
    Senator Harkin. Yeah.
    Secretary Solis [continuing]. Will find justice.
    And I would tell that we're going to continue to look at 
these kinds of abuses, because we know that if it happened 
there, it could very well be happening somewhere else. And we 
want to get to the bottom of that.
    Senator Harkin. I thank you for that. And I also--I just 
might say, they got initial summary judgment for $1.76 million. 
But, then again, that doesn't--that helps, but that doesn't 
take care of the losses they've had in Social Security, for 
example, payments that they're going to need when they get 
older. And some are on the verge of retirement right now. So, 
thank you.
    Secretary Solis. I'd be happy to work with you on that----
    Senator Harkin. I appreciate it.
    Secretary Solis [continuing]. On strengthening----
    Senator Harkin. I appreciate it.
    Secretary Solis [continuing]. This program.
    Senator Harkin. This case just shocks the conscience. Just 
shocks the conscience. Thank you very much, Madam Secretary.
    Senator Shelby.

                      RECOVERY EFFORTS IN ALABAMA

    Senator Shelby. Thank you, Mr. Chairman.
    Madam Secretary, last week, tornados devastated my home 
State of Alabama. It was the worst that we've experienced in my 
lifetime, and probably in most people's lifetime in the whole 
South. I toured the damage, last Friday, with the President. 
And we've had a number of Cabinet Secretaries who were down 
there Saturday and Sunday. I'm going back down there next week 
with the HUD Secretary, who's already been there.
    Could you tell me what the Department of Labor is doing to 
assist the people of Alabama in their recovery efforts? I know 
you're doing some things. But, you know, we're facing dire 
circumstances.
    Secretary Solis. Right. Senator, also I want to convey my 
condolences to the families there, as well as to the other 
States that are affected, and tell you that this is a constant 
reminder of my role at the Department of Labor, because we have 
a special funding that is made available. Fortunately, we have 
some funds for them. In fact, this morning, before I came to 
this hearing, I signed off on what we call the National 
Emergency Grant, the NEG, that will be going to Alabama, to 
those, I believe, 67 counties that are eligible, under FEMA----
    Senator Shelby. That's fine.
    Secretary Solis [continuing]. To receive funding. The 
amount is for about $10 million to help provide temporary jobs 
for those individuals, whether they work for private or public 
sector, if they've lost their homes. They'll be hired. They can 
help provide with cleanup. They'll also be able to help provide 
with any repair, renovation, reconstruction for low-income 
housing, as well as provide assistance for weatherization. And 
particularly, people that are eligible for other types of 
Federal aid, they will be able to help those individual 
households repair.
    I know this is a small amount, given the catastrophe there. 
And I would imagine that the Governor and yourself will be 
working with my staff, my Assistant Secretary----
    Senator Shelby. Sure.
    Secretary Solis [continuing]. Jane Oates, who was contacted 
very early on, and had our staff out in the field. In this 
tornado, unfortunately, we lost some State staff from----
    Senator Shelby. We did.
    Secretary Solis [continuing]. Various WIA programs, that 
lost their homes and lost their lives, as well.
    So, we know this is tragic. And I am also prepared, once we 
have more notification from the other States that have not yet 
completed their applications, to make a visit out there myself, 
as I did a year ago, when we heard about the BP oilspill. We 
have a necessity to be on top of safety and protection for 
workers, as well.
    Thank you.

                     NATIONAL LABOR RELATIONS BOARD

    Senator Shelby. Well, thank you very much. And I know there 
are other States, including the State of Mississippi that 
Senator Cochran represents, that were affected here.
    I want to turn to another area. On April 20 of this year, 
the acting General Counsel of the National Labor Relations 
Board issued a complaint against the Boeing Company, alleging 
that it violated Federal law by deciding to transfer a second 
airplane production line from a union facility in the State of 
Washington to a nonunion facility in the State of South 
Carolina. The complaint said this was discrimination. It's 
interesting that the National Labor Relations Board used the 
word ``transfer,'' as its production line does not, and never 
did, exist in Washington State. I make this point because, if 
the production line never existed in Washington and was not 
planned or committed there, there were no jobs lost there.
    Madam Secretary, I understand that the National Labor 
Relations Board is an independent agency. But, I'd like to hear 
your thoughts on the underlying issue here, that private U.S. 
business cannot freely open new facilities in right-to-work 
States without fear of retaliation by the U.S. Government and 
this administration. Is that the policy of this administration?
    Secretary Solis. Senator, I would just say to you--and you 
just emphasized that--that this in an independent agency, the 
NLRB. And while they are currently going through their decision 
or--I can't really comment on what they are--on what the 
counsel there is----
    Senator Shelby. I know it's not directly under you. You 
have an opinion on it, or you'd just rather not----
    Secretary Solis. No. No, I don't have, other than to tell 
you that this administration strongly supports the efforts of 
those that want to associate with unions and collectively 
bargain.
    Senator Shelby. And what if they don't want to associate 
with them?
    Secretary Solis. They have those rights, as well.
    Senator Shelby. Do they support that, too?
    Secretary Solis. I believe so.
    Senator Shelby. I hope so.
    Secretary Solis. I believe so. Yes.

                           JOB CORPS PROGRAM

    Senator Shelby. I want to get into the Job Corps, if I 
could, in my limited time. Job Corps is the Nation's largest 
vocationally focused education and training program for 
disadvantaged youths. For the year 2012, the administration 
included $1.7 billion for Job Corps. I'm concerned about the 
lack of clear metrics within the Department for evaluating Job 
Corps. It's my understanding the Job Corps Program has not had 
a rigorous evaluation since the Mathematica administrative data 
study concluded in 2003, 8 years ago. And that study concluded 
that the program's cost exceed its benefits.
    Further, according to a study published in the American 
Economic Review in 2008 entitled, ``Does Job Corps Work?'', Job 
Corps participants were less likely to earn high school 
diplomas, according to this study, and earned an average of 
only 22 cents more an hour than nonparticipants. The study even 
showed that the program had no effect on college attendance or 
completion.
    These are disturbing statistics, given that the Federal 
Government spends an average of $27,000 per Job Corps 
participant over a 9-month period. As we all know, for $27,000, 
a person could earn their associate's degree or attend several 
years at a university somewhere in America.
    Madam Secretary, what are your thoughts on the 
justification for spending $1.7 billion on a workforce training 
program that has few, that I see, published results, and clear 
problems with management of taxpayer funds? What's your defense 
of that?
    Secretary Solis. Senator, first of all, I'd like to tell 
you that I am a strong believer of the Job Corps Program. And 
since I have been in charge of the program in the last 2 years, 
we have made, I think, some tremendous strides in trying to 
make sure that we do provide the metrics and evaluation. And I 
would tell you that, yes, that last review that you talk about 
that was done in 2001, it's unfortunate that, in the past 10 
years, or so, that there wasn't a closer look at what the 
metrics are.
    But, I would tell you that what we are doing now is 
instituting more evaluation from within our own program. And I 
would tell you that, in program year 2009 through June 2010, 
20,000 students attained high school diplomas in--and their 
general equivalency diploma (GED), 30,000 students completed 
career and technical training in 11 high-growth areas.
    Senator Shelby. What's the percentage of that? That's good, 
but----
    Secretary Solis. Seventy-six percent of--in 2009, were--
graduates were placed in employment, or some chose to go in the 
military.
    Senator Shelby. Okay.
    Secretary Solis. So, we are doing a better job. But, I 
realize that one of the goals that we have to look at here is, 
What career are these folks going into?--not just a job, not 
just a part time, or not just a minimum wage job, but also a 
career. So, we've instituted, I think, a whole platform to have 
them look at renewable energy--green jobs. We can transition 
from construction into a new hybrid technological area.
    And it's hard, because these students are the ones that--
our society, or maybe their families, have failed them. And I 
would tell you that, in many instances--and I know Senator 
Cochran might agree--that these students--young people--not all 
of them are young, some of them are 21, 24 years old--have 
stepped up, in many ways, when there's disasters. When Katrina 
happened, I know some of them were out there helping to rebuild 
homes----
    Senator Shelby. Yeah.
    Secretary Solis [continuing]. For even people who were less 
fortunate than themselves. And I look to these students as our 
future leaders, many who have transformed their lives, many who 
have served--even in my own office, have come and have shared 
their talent and skills with us. And I think that, in many 
cases, it's a well-kept secret. Yes, we could make improvement 
with Job Corps. But, we should not somehow push aside the 
enormous resource that we have with these young people. We only 
have 124 centers. And, at best, there hasn't been sufficient 
funding to help make them more effective and more, how could I 
say, directed toward those good careers that we all know that 
they can be a part of.
    Senator Shelby. Well, I want to--I'm not proposing we 
abolish Job Corps. I'm thinking, in trying to work with you and 
Senator Cochran and others, to improve it. Because, I know it 
does do some good. And I know, for a lot of people, it's their 
last hope. But, we can always improve it.
    Secretary Solis. Absolutely.
    Senator Shelby. I hope you're committed to that.
    Secretary Solis. I am. I am, sir. And I would love to be 
able to visit with you----
    Senator Shelby. Absolutely.
    Secretary Solis [continuing]. And one of our Jobs Corps 
centers----
    Senator Shelby. Thank you.
    Secretary Solis [continuing]. So that we can look at those 
things together.
    Senator Shelby. Thank you, Mr. Chairman.
    Secretary Solis. Thank you.
    Senator Harkin. Thanks, Senator Shelby.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    Madam Secretary, welcome to our subcommittee. We appreciate 
your being here to discuss the budget request for the programs 
under the jurisdiction of your Department.

                JOB CORPS CENTER, GULFPORT, MISSISSIPPI

    Mentioning the Job Corps center reminds me that, in 
Hurricane Katrina, we had a devastating hurricane, as you 
recall, and everybody does, that struck the gulf coast area of 
the country. And our Job Corps center in Gulfport, Mississippi, 
was totally destroyed. And so, we had a lot of displaced people 
who had been working there and living there. Progress has been 
made, but I wonder whether or not you can give us some idea 
about when the construction, or reconstruction, of that center 
might be completed. We had heard 2012. Now we're hearing it 
might be delayed well over into 2013 or 2014. What is the 
latest information you can provide the subcommittee with on 
that subject?
    Secretary Solis. Yes, thank you, Senator Cochran. I would 
just say that, at the Gulfport center, students, as you know, 
have already been enrolled. So, we have about one-half the 
number of students that we could handle there. That's about, I 
believe, 145 that are currently there and enrolled. We know 
that we have to continue to build out the rest of the facility, 
which is going to take us some time. We believe that we're 
making progress on the permanent construction. That's what 
you're talking about. And I can see--possibly by mid-August of 
this year, we should be able to see that permanent dormitory 
established there that I know you're concerned about. The rest 
of the center, the design will probably be complete in another 
2 years--2 to 3 years, unfortunately. But, it remains a focus 
of what our efforts are there. And believe me, I will keep you 
up to date, and my staff will. And I'm just excited that we're 
able to serve with those 145 students that are currently on 
campus.
    Senator Cochran. We appreciate your personal attention to 
that and the leadership that the Department is providing to get 
that back into operation as soon as possible. Thank you.

                           YOUTHBUILD PROGRAM

    There's another program, that I was curious about your 
assessment of it, called ``YouthBuild.'' And it's targeted to 
younger workers. It's a training program but a workforce 
development program all at the same time. It gives high-risk 
youth opportunities to develop occupational skills with 
vocational training as they work. Could you tell us what the 
program is achieving, if it's working? Do we continue to 
support it under your budget request?
    Secretary Solis. Thank you, Senator Cochran. I am delighted 
that, through the YouthBuild Program, and especially the 
funding that we received in the last two cycles, have been able 
to help us focus better on providing better certificates and 
measurements for student success. And one of the highlights, I 
think, of our effort has been to really infuse technology. So, 
whether it's healthcare, IT, or whether it's renewable energy, 
changing the focus, in some ways, from construction to 
renewable energies. And I've actually been able to see this on 
the ground, where young men and women--and I'm delighted to say 
``women''--are getting enrolled in these programs and really 
learning the crafts, the crafts that will help provide them 
with better training, better skills, and giving them a job. And 
most students that enroll in the program are tied in, typically 
with either an apprenticeship program, in some cases, and in 
some cases, with a business developer in construction, that 
will hire those individuals up as rapidly as they're trained.
    So, I would say to you that the program--actually, I would 
love to see it expanded, because I think it is well worth our 
investment there. And I know that many people, again, that come 
into that program sometimes are the hardest ones to serve, 
because they may not have completed their high school 
education. Some may not be as motivated as others. And once 
they find collegiality amongst their other peers, they then 
become competitive with themselves. And I've seen them develop 
leadership skills and actually work in new industries that are 
actually going to help to bring back our economy, especially 
when it comes to conservation and restructuring and 
retrofitting of some of our aged housing and commercial 
buildings. I see a lot of them that are very enthusiastic about 
the program.
    Senator Cochran. Thank you. I'm also advised there's other 
good news from my State. One program, in particular, the on-
the-job training provided under the Workforce Investment Act, 
has been particularly successful in Mississippi. And I wanted 
to pass that assessment from my staff on to you, and thank you 
for the leadership on that.

                 OFFICE OF DISABILITY EMPLOYMENT POLICY

    And Disability Employment Service is another area where I 
think the Department is making important contributions. That's 
a well coordinated effort, I'm told, providing those with 
disabilities rehabilitation services, encouraging them, 
monitoring their progress. Some of the highest rates of 
rehabilitation in the country, at over 70 percent, are being 
observed under that program. It's the Disability Employment 
Initiative.
    Secretary Solis. Yes.
    Senator Cochran. And I thank you for your leadership in 
that area, as well. Are you familiar with those reports?
    Secretary Solis. Yes, I am. Yes, I am. And I want to thank 
the chairman and this subcommittee for supporting the funding 
for that program. And it continues, I think, to be something 
that really is refreshing, because it helps to shine a light on 
the fact that the disabled community has been underrated. In 
fact, what we're finding, from our own assessments, is that 
they tend to perform better in the workplace. And we are losing 
out, as a country, if we don't utilize the skills and talents 
that they have.
    So, we know that good models exist in Iowa and other 
States, and we want to continue to build that out. Under the 
leadership of my Director for ODEP, Kathy Martinez, she has 
been tremendous. You know, she is--I call her one my Charlie's 
Angels, who's been out there, really helping to fight, and 
really parlay the importance of providing the disabled 
community with the tools that they need. They're not asking for 
a handout. They're asking for a hand up, an ability to be able 
to work in different employment situations. And when we find 
employers that are willing to do that, they are going to make 
those businesses shine. And we've seen it already evidence. And 
I'm very delighted that, through the leadership of this 
chairman, that we're looking at expanding this effort, also, to 
include our one stops. So, there are one-stop centers. We have 
3,000 of them. We'll also start looking at how we can better 
serve that population and address their issues, up front.
    Senator Cochran. Thank you.
    Thanks, Mr. Chairman.
    Senator Harkin. Thanks.
    Senator Brown.
    Senator Brown. Yeah. Thanks, Mr. Chairman.
    Welcome, Madam Secretary.

                     AFRICAN-AMERICAN UNEMPLOYMENT

    Talk to me about African-American unemployment. African-
American unemployment is 16 percent--official unemployment. We 
know it's higher than that, almost twice the white unemployment 
rate of 8.7 percent. What is DOL doing specifically to address 
the endemic, long-term very serious problem of black 
unemployment?
    Secretary Solis. It's a very serious problem, Senator. And 
I know it's one that we care a lot about.
    I recently visited Ohio and several States there, and met 
with several faith-based leaders to talk about how we can 
begin, in a better way, to target our funding and our 
proposals. One thing I will tell you is that we, under the ARRA 
Program, were able to target about $150 million in career 
pathways out of poverty, targeting communities that have 
unemployment rates above, say, 50 percent. Those went into 
particular communities of color. We continue to also provide 
reintegration programs for ex-offenders. It's something very 
important. And with our YouthBuild Program and our Job Corps 
Program, I think it's safe to say that about 40 percent to 60 
percent are African-American.
    We need to do more, obviously. And we do need to have 
assistance, in terms of providing them with the job training 
opportunities that will put them into good careers that won't 
just lead to a paycheck, but a career. And I think that's what 
we're trying to do in some of our new rollout of programs.
    We just announced, for example, in the H1B Program, through 
fees that we received, $240 million in grants that will go out 
to help dislocated workers, but also working with industry to 
help provide new technical training to their current incumbent 
workers, hopefully open up that slot to allow for a dislocated 
worker. Hopefully, it will be those in those communities most 
distressed. So, that is going to be our focus for that 
particular program.
    But, we continue to work with our community colleges, our 
workforce investment boards, and with the faith-based community 
to see how we can better improve the status of African-
Americans.
    But, again, one of the things I have to tell you--and you 
know this better than I--is that one of the things we have to 
do is aspire for higher education. That's why the President has 
talked a lot about providing opportunities for Pell grants, for 
assistance, for financial aid, so that individuals can receive 
a community college degree and hopefully get better training, 
because it is a more competitive workforce.

                 2012 BUDGET RESOLUTION PASSED BY HOUSE

    Senator Brown. Thank you. You mentioned Federal job 
training programs, WIA, and other things. The--I'm concerned, 
with the 2012 budget resolution that passed the House, the 
consolidation of multiple programs serving a range of 
populations--minorities, veterans, individuals with 
disabilities, dislocated workers, at-risk youth--into a single, 
one-size-fits-all voucher program, and squeezing those programs 
to the point of tens of billions of dollars, over the next 10 
years. Does the administration share the view approved by the 
House, that now is the time to significantly reduce investments 
in workforce training? Is that something that you oppose? Would 
you talk to us about, you know, sort of a critique of that, and 
what direction you think we should go in, if you disagree?
    Secretary Solis. Well, Senator, as you know, the President 
and the debate right now is about working within our means. And 
that obviously is something that we do take serious. And we did 
take that step in this budget.
    And I would say to you that we have attempted to keep the 
integrity of our programs in place. As the President said, we 
don't want to hurt the innovation, the ability to not be able 
to compete, and the fact that we have to keep our vulnerable 
communities front and center.
    So, I would say to you that my personal commitment is to 
try to keep the integrity of these programs in place. I 
realize, as a former member, like yourself, that we don't have 
the luxury of being able to cut back on these very vital 
programs that help provide people the ability to get back to 
work. There are so many people that are, how could I say, 
feeling let down, that they don't have an opportunity to get a 
job right away. And those are the very folks that we have to 
keep in place. Those are the very folks that we have to make 
sure that they receive training, that they go to our one-stop 
centers and they keep engaged. Because, the farther they are 
away from that ability, an employer, chances are, will not want 
to hire them up. And we've seen that evidenced already in the 
workplace, where actually employers are saying, if someone's 
been out of work more than 6 months or 1 year, they may not be 
the first person that they're going to look at, in terms of 
their resume. So, I'm very concerned about this.
    Senator Brown. My last--thank you--my last question, Mr. 
Chair.

                EXPANSION OF TRADE ADJUSTMENT ASSISTANCE

    Madam Secretary, the administration did something very 
important, many things very important, in the Recovery Act. 
Specifically what I want to talk about, just for a moment, is 
the expansion of trade adjustment assistance to expand it, not 
just to the service industry, but to--I mean, not just to 
manufacturing, but service and those job layoffs and retraining 
in--where not only--not exclusively with countries with whom we 
had a free trade agreement. That--you know, we were able--it 
was in effect til the end of December of this past year; we 
were able to get a 6-week extension with--you know, the--late 
in December, as you know. And you helped us with that. But, 
this--the expanded TAA eligibility lapse for service workers 
and workers who lost their jobs in--as a result of----
    Secretary Solis. Right.
    Senator Brown [continuing]. Of job loss in countries with 
whom we didn't have a free trade agreement, that--so, what's 
the Department doing? Is the Department, now that that's 
lapsed--I--number one, I'd like the administration to take a 
stronger position on TAA. You know, some people have called TAA 
``funeral expenses'' for these trade agreements, frankly. But, 
at least TAA is something. And now we don't even have TAA for 
these workers that have lost their jobs because of trade 
agreements that were wrong-headed. I remember your work in the 
House against some of them--CAFTA and some others. What--is the 
administration going to speak more forcibly--forcefully on the 
extending of TAA and extending of the health credit--the HCTC, 
health care tax credit? And what are you doing, in terms of 
processing these applications, when the program--the expansion 
of the program is expired on TAA?
    Secretary Solis. Well, Senator, we are very concerned that 
there was not a decision to extend the TAA Program. And it is 
of great concern. And it is affecting many dislocated workers 
at this time. And I do believe that the program is worthy of 
being reinstituted, because I know it does make a difference, 
especially for people from the Midwest, in your case, your 
State, and other places where we've seen industries leave our 
country and go to other places, where it has made a difference 
to help provide as a safety net for people to transition into 
new jobs. I saw it happening, time and time again, these last 2 
years, especially in the automobile industry. We saw a lot of 
dislocated workers that received this assistance and were able 
to make the transition quickly to get higher skills or 
healthcare coverage and be able to make that transition.
    And as you know, that story, I think, is a good story, 
especially with the automobile recovery, where we've seen that 
now GM, Chrysler, and those folks have been able to put back 
some lines of assembly and also put people back, and they've 
paid back their loans.
    But, TAA is very important. That discussion has to go on. I 
understand there are individuals that still have questions 
about it and are trying to tie that in with other trade 
agreements. I would hope that the--that this body would do the 
right thing and extend it on its own, if possible. But again, 
that is not something that I can determine.
    Senator Brown. Well, but we----
    Secretary Solis. But, I wholeheartedly support it.
    Senator Brown. Thank you. But, we need the administration 
to speak much more forcefully than they have on the importance 
of TAA. You weren't absent, as an administration--and I know 
your personal feelings on this--you weren't absent, last 
December, on this, but you weren't nearly as vocal as an 
administration that stands for workers and stands for 
retraining and stands for an industrial moving forward that we 
have not done so well, in the last few years, on. So, that's a 
plea to you.
    Thank you, Madam Secretary.
    Senator Harkin. Thank you very much, Senator Brown.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I have a couple of questions, 
and then I have a number for the record. If I can ask the rest 
of them, after I ask these two, for the record, I'd appreciate 
it very much.

                               GAO REPORT

    Madam Secretary, I want to go back into some of the GAO 
reports. In January, the GAO released a report on multiple 
employment and training programs, and the report stated, and 
I'll quote, ``Little is known about the effectiveness of the 
employment and training programs we identified because only 
five reported demonstrating whether outcomes can be attributed 
to the program through an impact study, and about one-half of 
all the programs have not had a performance review since 
2004.'' That was the GAO.
    Despite unemployment being at 8.8 percent, officially, the 
Department of Labor, it's my understanding, has not taken 
action to address its ineffective programs. In fact, based on 
the GAO survey of Department of Labor officials, only 5 of 47 
programs have studies that assess whether the program is 
improving employment outcomes.
    Madam Secretary, how do you respond to these troubling 
issues identified in the GAO report? And, if you want to, you 
can answer that for the record.
    Secretary Solis. Thank you, Senator. I would just say to 
you, as I mentioned earlier, that the report that was--that 
you're citing was done in the previous administration, was 
supposed to be completed, I believe, at that time. That's why I 
signed a contract so that we could continue to do our own 
evaluation and have that done, which began in 2009.
    [The information follows:]

               Department of Labor's Performance Measures

    Nearly all of the Department of Labor's two dozen 
employment and training programs include strong accountability 
features and performance metrics on employment, retention and 
earnings measures. We are strengthening our accountability 
further, as demonstrated by the Departmental 2011-2016 
strategic plan, which places an increased focus on performance-
based management. Performance measures are being reassessed for 
consistency across programs throughout the workforce system to 
promote better outcomes for individuals of all skill and need 
levels, particularly those who are not yet ready and able to 
move quickly into a good job. We believe that workers and 
employers should have ease of access to information about past 
participants' outcomes, to make informed decisions about which 
programs are most likely to meet their needs.
    In addition to the annual employment and training 
performance reviews conducted at the Federal, State, local and 
training provider levels, the Department has been working 
diligently over the past 2 years to restore the rigor of our 
evaluation studies. Specifically, I established the Chief 
Evaluation Office (CEO), which was staffed in May 2010. The 
purpose of this office is to coordinate the Department's 
research and evaluation agenda in order to increase its 
capacity to conduct high quality, rigorous evaluations.
    Further, the GAO has noted in a recent March 2011 report 
the marked improvement in the dissemination of research reports 
by the Employment and Training Administration under my 
leadership at the Department of Labor. The GAO noted that, 
``The 34 research reports published by ETA in 2008 took, on 
average, 804 days from the time the report was submitted to ETA 
until the time it was posted to ETA's research database. By 
contrast, from 2009 through the first quarter of 2010, the 
average time between submission and public release was 76 days, 
which represents a more than 90 percent improvement in 
dissemination time compared with 2008.'' \1\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office, ``Employment and 
Training Administration: More Actions Needed to Improve Transparency 
and Accountability of Its Research Program,'' March 2011, p. 26.
---------------------------------------------------------------------------
    Also, since 2009, approximately half the evaluations the 
Employment and Training Administration (ETA) has funded have 
been rigorous, random assignment impact evaluations. These 
include the Workforce Investment Act (WIA) Gold Standard 
Evaluation of the Adult and Dislocated Worker Programs (WGSE), 
the YouthBuild Impact Evaluation, the Reintegrating of Ex-
Offenders Random Assignment Evaluation, the Impact Evaluation 
of Green Jobs, Health Care and High Growth Training Grants and 
the Transitional Jobs Impact Evaluation, all of which will 
examine net impacts on employment, retention and earnings, and 
include benefit-cost analyses. ETA was able to fund these 
evaluations through an increase in fiscal year 2010 
appropriations and the large one-time infusion of funds made 
available to the Department through the American Recovery and 
Reinvestment Act of 2009.
    While rigorous random assignment impact studies, such as 
the WGSE, provide the most credible information on program 
effectiveness, these are also highly resource intensive and 
take a range of 3 to 7 years to implement and complete. Mindful 
of the statutory responsibility for evaluation, and to address 
the knowledge gap until the WGSE results are available, in 2009 
the ETA released the results of a quasi-experimental net impact 
evaluation of the WIA Adult and Dislocated Worker programs.\2\ 
This study uses the next-best methodology when random 
assignment is not available. This evaluation found positive 
long-term earnings impact for both programs, though the impacts 
were more substantial for the Adult program than for Dislocated 
Workers. ETA plans to publish interim findings of the WGSE in 
2013, and the final report will be available in 2016, although 
this schedule is dependent upon continued appropriations for 
the evaluation of WIA programs.
---------------------------------------------------------------------------
    \2\ The Workforce Investment Act Non-Experimental Net Impact 
Evaluation: Final Report may be found at ETA's Research Publication 
Database Web site.

    Secretary Solis. The results of that study----
    Senator Shelby. Is this ongoing?
    Secretary Solis. Yes. And that will become available in 
2013. It does take time, because----
    Senator Shelby. It does.
    Secretary Solis [continuing]. You're looking at different 
factors. But, nevertheless, since I've been here, we have begun 
this evaluation.
    Senator Shelby. Have you seen some of the preliminary work?
    Secretary Solis. Not necessarily----
    Senator Shelby. Not yet?
    Secretary Solis. No. But, as I said earlier, that some of 
the results that we have seen from our own evaluation, our in-
house, shows that during the program year June 2009 to June 
2010, 76 percent of our workers exiting the WIA dislocated 
program, and 69 percent of the workers exiting the adult worker 
training, found a job within 3 months. And after that--and 
that--and I think those are good statistics----
    Senator Shelby. That's good.
    Secretary Solis [continuing]. Considering a bad economy, 
when you're finding four----
    Senator Shelby. It's tough.
    Secretary Solis [continuing]. To five people are competing 
for one----
    Senator Shelby. It's tough out there with skills, right 
now.
    Secretary Solis. Yes.
    Senator Shelby. We understand that. But, my interest is 
probably--coincides with yours, that we want these programs to 
work. And we have to measure them. And if they don't work, we 
figure out something that will work. Because, the end game is 
to get people back to in the employment. Is that right?
    Secretary Solis. Yes. And, Senator, I would say that one of 
the things that we need to focus on is reauthorizing WIA, 
because that's really going to help us. What I've heard, time 
and time again, is that this is an old system that has to be 
restructured. It has to look at new segments, regional issues, 
and really look from the bottom up, not from the top down.
    Senator Shelby. I think we know somebody that deals with 
authorization close to us today.

                     TRANSITION ASSISTANCE PROGRAM

    If I could, I'd like to get into another program, the 
Transition Assistance Program. The unemployment rate for 
veterans of the wars in Iraq and Afghanistan rose to 15.2 
percent in January 2011 which is well above the official 
national rate of 8.8 percent. This is the highest rate recorded 
since the Bureau of Labor Statistics began tracking this data 
in 2006. And these are our veterans, recent veterans.
    Madam Secretary, are we doing all we can to assist our 
veterans, particularly as they attend the Transition Assistance 
Program classes prior to discharge from the military service? 
It's my understanding that the Transition Assistance Program, 
which the Labor Department administers for the Department of 
Defense, was recently revised; its first substantive revision 
since the first gulf war. Is there data or any information yet 
on whether the revised program is actually helping veterans 
find jobs, particularly 21st century jobs that will sustain 
them--in information technology, health-related professions, 
and the energy industry--jobs that are meaningful?
    I believe we owe our veterans a lot. And I'm sure you'd 
share this.
    Secretary Solis. I couldn't agree with you more, Senator. 
And, as a former House member, this was one area--while I 
didn't sit on that committee--I was very concerned with the 
training and the TAP program. That's why I asked my Assistant 
Secretary, Ray Jefferson, who runs that division, to take a 
keen look at what was going on there. And what we found was 
that, yes, there hadn't been evaluations. There weren't any 
metrics to really identify the people that went through the 
process, if they really found employment.
    We're doing a better job. We're investing money. We have a 
whole evaluation and a request for proposal to look at how we 
can improve the program. We have new partners. And I'm happy to 
report that we even have engaged outside entities like the U.S. 
Chamber of Commerce, who has agreed to help us identify 
opportunities for employment, something that should have 
happened 10 years ago. This program was neglected for the last 
8 years. I admit that. I wasn't here----
    Senator Shelby. I know you weren't.
    Secretary Solis [continuing]. For all that time. But, I can 
tell you that one of the concerns that this administration has 
is making sure that we don't just help that soldier, male or 
female, but we also help the family. Because, the family can 
also help provide assistance----
    Senator Shelby. Absolutely.
    Secretary Solis [continuing]. If they're given the right 
tools and information. Training, especially for wounded 
warriors--very important. I've seen some tremendous programs 
that have come out of efforts, that identify good careers. For 
example, helmets to hardhats, where actually an individual can 
go in through a training and apprenticeship program, and then, 
after they leave and are discharged, can actually continue in 
that program in their State, and then be hired up almost 
immediately, making a six-figure salary. And that, to me, is 
something that we ought to be expanding and looking more at.
    I'm looking forward to working with the Department of 
Defense (DOD)--and we have, with the Veterans Administration 
(VA)--to improve upon these services. This couldn't be one of 
the most, if not one of the most important areas that I often 
look at.

                               WOMEN VETS

    And I'm particularly concerned about returning women vets. 
We've had a number of women, young women who've gone in, who 
are also faced with a lot of challenges, one that isn't easily 
identified when they come back home. Many have been through 
different posttraumatic stress and also need our help. Many are 
not apt to identify, in many cases, that they are veterans, as 
well. Because, when you find them, in some cases, homeless or 
in a shelter, they won't say that they were a vet, because they 
feel ashamed. And we have to remedy that. And we have to let 
everyone know that----
    Senator Shelby. They should be proud.
    Secretary Solis [continuing]. They're needed, that they're 
needed.
    Senator Shelby. They should be proud of what they've done. 
And you're absolutely right that if we can get them back in the 
workforce, it will help them readjust to civilian life, because 
they've gone through a heck of a lot.
    Secretary Solis. Absolutely.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Harkin. Thank you, Senator Shelby.

                          JOB CORPS EVALUATION

    Madam Secretary, I don't have any other questions, just, 
again, a follow up on what Senator Cochran talked about 
earlier. You had an exchange with him on the Job Corps, I 
believe. And I think Senator Shelby asked a question about the 
efficiency and effectiveness of Job Corps. Yes, it does cost 
$27,000 per person. But, let me give you one example of a young 
woman that I know that was in our Job Corps center in Dennison, 
Iowa.
    Our Job Corps center in Dennison, Iowa, was the first in 
the Nation, by the way--oh, this has been 20-some years ago--
that actually added a facility whereby young single mothers 
could come and bring one or two children with them, and be 
housed there in a safe environment. They have a Head Start 
program right there for these kids, plus the healthcare 
benefits and things like that, that accrue to them.
    You take a young single mother who dropped out of high 
school when she was about a sophomore, had some unfortunate 
things happen to her, is now 18, 19 years old, two children and 
no hope, no family, no structure, and headed toward a life of 
drugs and crime. She gets sent to the Job Corps center. Her 
kids have a great place to stay. They're in a Head Start 
program and she's in a program where she's going to get her 
GED, and then she's being trained for a career. She sees a 
future ahead of her now. She has all the hope and all of the 
kind of internal support mechanisms she needs to go out there 
and do something.
    Does that cost $27,000 a year? You bet it does. But, the 
cost to society of not doing that, I submit to you, will be 10, 
20, 30 times that much--the cost to society--if we don't do 
that.

                          RETURN ON INVESTMENT

    So, I know Job Corps. You look at it and you wonder about 
the rate of return on investment, as they say, and things like 
that. But, I don't mind an indepth look. I think we should have 
it evaluated. I agree with you on that. If there's places that 
can be tightened up, it should be done. But, in certain cases, 
this is just going to be--it's not a quick fix. Some of these 
young people are just not a quick fix. And it takes some time.
    But, it's been my experience, with the Job Corps centers 
over the last 30 years, as a Congressman before this, that 
sure, there are obviously those that don't make it. There are 
those that drop out, and don't make it. But, I would say, the 
success rate that I have been able to see has been tremendous. 
And what they do in the local community and the local 
businesses and the synergism, the inner workings with these 
kids and young people in the Job Corps centers with the local 
business community, and how they work things out, it's just 
been for a rural area, it's been quite a thing to see.
    So, I just--again, count me as a great supporter of Job 
Corps. I don't want to turn a blind eye to things that need to 
be done to make it more effective. And I hope we can work 
together, and work in a bipartisan----
    Senator Shelby. Absolutely.
    Senator Harkin [continuing]. Fashion to do that.
    Senator Shelby. We want the end result, don't we?
    Senator Harkin. And we want the end result. Exactly right. 
Exactly right.
    So, Madam Chairman, thank--or, Madam Secretary, thank you.
    Secretary Solis. Thank you both. Thank you. I thank the 
subcommittee.
    And I do want to work with you on evaluation. I think that, 
yes, we are in hard budget times. We realize that. But, I 
think, again, if we can preserve the quality of the intent of 
these services, and help those people that really deserve the 
help, I think----
    Senator Harkin. Yeah.
    Secretary Solis [continuing]. We're on the same page.
    Senator Harkin. I'll just add one other thing to my good 
friend--and he is a great friend of mine--Senator Shelby--is 
that we are working on WIA. We've been working on it for a long 
time, even before I was chairman. And hopefully, we're going to 
have a bill this year.
    Secretary Solis. Good.
    Senator Shelby. If I could, Mr. Chairman, I just want to 
reemphasize that we all--Senator Harkin was relating some 
examples of where Job Corps really works with people and 
everything--that's what we all want. We want to help these 
people, because if we don't help them, as he's pointed out, 
they will be--a lot of them will be in trouble. They will be on 
welfare for most of their life, if not in prison. I won't say 
everybody, but so many of them. And this is a chance to help 
them. We just want to make sure that the programs are working. 
Let's pump them up. If they're not working, let's find out why 
they're not working.
    Secretary Solis. Right.
    Senator Shelby. Because, the need for people--and the help 
is going to be there--we just want the program to work.
    Senator Harkin. Absolutely.
    Secretary Solis. Thank you.
    Senator Shelby. Okay.
    Senator Harkin. Amen.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary Solis. Thank you both. Thank you. It's a 
pleasure. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted by Senator Tom Harkin

               EMPLOYEE BENEFITS SECURITY ADMINISTRATION

    Question. Since fiscal year 2009, the Employee Benefits Security 
Administration has created efficiencies in its programs, eliminated 
lower-priority spending and realized other cost savings. What 
additional steps will EBSA complete in fiscal year 2011? What is 
proposed in the fiscal year 2012 budget request?
    Answer. Our new paperless participant complaint intake system is 
scheduled to become fully operational by the end of fiscal year 2011. 
Currently 92 percent of inquiries and complaints handled by our Benefit 
Advisors (BAs) are received by phone. We will encourage the use of our 
new electronic intake process which will be more efficient for the BAs 
and will be more user friendly for the public. When the paperless 
system is operational, all participant inquiries/complaints regardless 
of how they are received will be managed electronically. Currently, 
participants can submit inquiries electronically; however, the 
submission does not auto-populate the inquiry database and make 
assignments to the appropriate office for handling. The new system will 
more efficiently direct electronic inquires to a Benefit Advisor in the 
appropriate office and transmit the response for electronic approval 
and clearance. The system will provide basic contact information for 
the participant and the subject of the inquiry/complaint that will 
auto-populate our tracking system. The new paperless system will 
include standard language paragraphs to be used in correspondence when 
responding to all types of participant inquiries and will include an e-
mail wizard that will allow us to more efficiently contact the 
participants and plan sponsors to resolve complaints. This will 
substantially improve the efficiency of the overall Participant 
Assistance Program.
    By the end of fiscal year 2011, EBSA will have implemented a new 
call management system and web-based reporting tool throughout its 
regional offices. This system helps EBSA to achieve performance measure 
targets through more efficient workload management. Also, it allows 
EBSA to handle more live calls, reduces hold times and dropped calls, 
and provides managers with real time performance data in order to 
adjust duty roster schedules. Answering calls live ensures contact with 
the participant and is more efficient by eliminating call-backs, voice 
mail messages, and customer service complaints to Congressional 
offices, DOL managers and other officials.
    The EBSA reporting compliance program is continuing to adapt to the 
new EFAST2, wholly electronic, Form 5500 processing system which became 
operational in fiscal year 2010. The new EFAST2 makes Form 5500 data 
available faster--within 24 hours of a filing being made. Consequently, 
EBSA is able to analyze and review data on a ``real time'' basis and 
then apply a customized approach in targeting filings with significant 
errors.
    Question. What will the Employee Benefits Security Administration 
achieve in terms of workload and performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification was based on an 
annualized continuing resolution at fiscal year 2010 enacted 
appropriations. While the final fiscal year 2011 appropriation 
approximated these funding levels, the delay in appropriations creates 
challenges in achieving workload and performance goals. At this point, 
we expect the performance for the Employee Benefits Security 
Administration (EBSA) to differ from the fiscal year 2011 information 
in the fiscal year 2012 congressional budget justification as follows:

----------------------------------------------------------------------------------------------------------------
                                                                     Original
                                                                    fiscal year
                        Workload measure                           2011 workload    Fiscal year     Difference
                                                                  in fiscal year   2011 revised
                                                                     2012 CBJ
----------------------------------------------------------------------------------------------------------------
Civil Investigations Processed..................................           3,282           2,900            -382
Criminal Cases Processed........................................             247             200             -47
Participant Inquiries (Field)...................................         246,000         233,000         -13,000
Participant Inquiries (NO)......................................          10,000          12,000          +2,000
Indictments.....................................................              84              82              -2
Compliance Seminars.............................................              10               6              -4
Regulatory Projects.............................................             237             250             +13
Individual Exemptions...........................................             122             130              +8
Section 502(I) Waivers..........................................              15               6              -9
Exemption Processing Time.......................................             301             430            +129
----------------------------------------------------------------------------------------------------------------

    All remaining fiscal year 2011 workload estimates remain as 
presented in the fiscal year 2012 CBJ.
    Question. The Department has proposed a new regulation defining 
``fiduciary'' under the Employee Retirement Income Security Act of 
1974. What benefits would the proposed regulation have for employers--
especially small employers--that sponsor retirement plans?
    Answer. Investment advisers have assumed an increasingly important 
role in helping employers, especially small employers, choose an 
appropriate menu of investments choices for 401(k) plans and in 
advising employees and IRA holders on how to allocate their individual 
account balances. Although ERISA specifically provides that investment 
advisers may be fiduciaries, and employers and employees often rely 
heavily on their advice, advisers often have no accountability for 
their recommendations because the Department's current regulation 
stipulates a five-part test which makes it easy for these advisers to 
avoid fiduciary status.
    The Department's proposal would address this problem by providing 
that those who purport to give impartial investment advice for a fee 
will be held to ERISA's fiduciary standards of prudence and loyalty, 
and preventing them from using compensation arrangements that conflict 
with these duties. Small business owners, in particular, are often not 
equipped to make plan investment decisions on their own. In selecting 
appropriate plan investments and investment options for their 
employees, small businesses depend on impartial expert advice. The 
Department's proposed regulation will give these employers recourse 
against advisers who fail to uphold the standards of a plan fiduciary.

                      WAGE AND HOUR DIVISION (WHD)

    Question. The fiscal year 2012 budget identifies savings related to 
the operation of a toll-free employer compliance assistance call 
center. Please describe how this proposal will achieve the identified 
savings with at least the same level of services currently provided.
    What steps will WHD complete in fiscal year 2011 that create 
efficiencies and realize other cost savings?
    Answer. In order to improve the ability to provide timely and 
accurate customer service at each of the more than 200 offices 
nationwide, the Wage and Hour Division (WHD) is in the process of 
implementing a telephone system with automated call distribution and 
integrated voice response technology. Once all new hardware and 
software are fully deployed in fiscal year 2011, WHD will be better 
able to route calls for more efficient transfers and referrals, manage 
staffing needs to be more responsive to callers, record and monitor 
calls for quality and training purposes, and collect and analyze 
telephone usage statistics.
    With the full implementation of the new computer telephony system, 
WHD will be able to provide better and timelier service to the public, 
and at lower cost than it did with the call center.
    Question. What additional cost savings are proposed in the fiscal 
year 2012 budget request?
    Answer. The fiscal year 2012 budget request indicates program 
decreases for Employment Compliance Assistance and the Call Center of 
$2,290,000 and 12 FTE. Over the last 2 years WHD has hired additional 
in-house technicians who can answer calls more effectively and 
accurately and as noted above, WHD is already in the process of 
upgrading its own telephone infrastructure in order to improve the 
ability to provide timely and accurate customer service at each of the 
more than 200 offices nationwide.
    Question. What will the WHD achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification was based on an 
annualized continuing resolution at fiscal year 2010 enacted 
appropriations. At this point, we expect the performance for the Wage 
and Hour Division (WHD) to be consistent with the fiscal year 2011 
information in the fiscal year 2012 congressional budget justification.
    With the additional investigative resources added to the agency 
over the past 2 years, the WHD expects an increase in the number of 
compliance actions that it is able to complete in a fiscal year. For 
example, WHD estimated a 20 percent increase in the number of concluded 
compliance actions for fiscal year 2011, or approximately 5,400 
additional cases above the 26,500 completed in fiscal year 2010. The 
newly hired investigators have now completed much of their basic 
training requirements, and as a result, are contributing to the 
agency's investigation production numbers.
    WHD also expects to see an increase in the number of directed 
investigations that it completes in fiscal year 2011--particularly in 
high risk industries, i.e., those industries with high minimum wage and 
overtime violations and among vulnerable worker populations where 
complaints are not common. WHD's fiscal year 2011 directed 
investigations are being concentrated in the agricultural, 
construction, and hotel/motel industries and in specific program areas. 
The program areas include the FLSA Section 14(c) program in which 
employers are certified to employ disabled workers at wages below the 
Federal minimum wage and the Davis-Bacon and related Acts and Service 
Contract Act government contract programs. WHD offices are also 
conducting directed investigations in industries in which young workers 
are employed and at risk of injury. In fiscal year 2011, WHD will 
complete a pilot study related to H-2B compliance in the resort segment 
of the hotel/motel industry. The agency will also examine compliance in 
the residential construction sector.
    Finally, WHD has revised its Davis-Bacon wage survey processes to 
improve the quality and timeliness of wage determinations published by 
the agency. WHD, for example, is now utilizing State prevailing wage 
determinations as the basis for issuing more current highway wage 
rates. This change, coupled with improvements to the survey process, 
has positioned the agency to complete during fiscal year 2011 all 26 
surveys that were initiated in 2010.
    Question. According to the preliminary results from the WHD's 2010 
review of the authority established under 14(c) of the Fair Labor 
Standards Act, 23 percent of Section 14(c) certificate holders were 
found in compliance with only 57 percent of consumers paid in 
compliance with this section of the law. What specific steps will WHD 
take in fiscal year 2011 and under the fiscal year 2012 budget request 
to improve these unacceptably low compliance rates?
    Answer. We agree that the 2010 evaluation of employer compliance 
with Section 14(c) of the Fair Labor Standards Act produced 
disappointing results. In response to the evaluation findings, WHD 
conducted investigation-based evaluations of a randomly selected sample 
of 154 community rehabilitation programs (CRPs) that were certified to 
employ individuals with disabilities at less than the minimum wage. The 
agency conducted full investigations of randomly selected CRPs from 
three employer groups: all certified CRPs, CRPs with prior violations, 
and CRPs that had conducted a self audit as part of the certification 
process.
    In the baseline evaluation, 65 percent of the cases, which 
represent approximately 3 percent of the nationwide population of 
community rehabilitation programs (CRP), were randomly selected for 
investigation. Twenty-three percent of the investigated CRP's were in 
compliance with all laws enforced by Wage and Hour for both Section 
14(c) workers and other staff workers. Seventy-two percent had monetary 
violations.
    With respect to the evaluation of prior violators, 42 cases 
representing 49 percent of the nationwide population of CRP's with 
prior investigations were selected. Nineteen percent of the 
investigated CRP's were in compliance with all laws enforced by WHD for 
both Section 14(c) workers and other staff workers, and 69 percent had 
monetary violations.
    For CRPs that conducted a self-audit as part of the certification 
process, 47 cases, representing 24 percent of the CRP's with prior 
self-audits, were randomly selected for investigation. Fifteen percent 
of the investigated CRP's were in compliance with all laws enforced by 
WHD for both Section 14(c) workers and other staff workers, and 83 
percent had monetary violations.
    Despite the low compliance rates found in all three evaluations, 
the data appear to be more nuanced than the rates suggest. The majority 
of the violations resulted from incorrect or untimely prevailing wage 
and commensurate wage determinations. Other violations were caused by 
confusion about the appropriate minimum wage, owing to the fact that 
between 2007 and 2010, the Federal minimum wage increased three times 
followed by further minimum wage increases at the State level. Keeping 
pace with these minimum wage adjustments produced many of the 
violations during the survey period.
    WHD has identified a number of internal and external strategies to 
address these types of violations, including changes to the 
certification process. Given the high turnover among CRP staff who 
conduct these wage determinations, WHD is considering additional 
training requirements for CRPs. WHD is also analyzing the certification 
process as a potential means for routinely and broadly disseminating 
information on making wage determinations and other compliance issues 
to certification applicants. Given the geographic distribution of CRPs, 
along with their staffing and resource constraints, Web-based training 
could reach a wider audience with less investment for both WHD and 
CRPs. Exploring the use of technology in training and maintaining the 
emphasis on improving wage determinations may address many of the 
violations found.

             OFFICE OF FEDERAL CONTRACT COMPLIANCE PROGRAMS

    Question. OFCCP recently secured a contract to conduct a program 
level organizational assessment. What were the findings and related 
costs savings implemented or planned to be implemented? What additional 
steps will OFCCP complete in fiscal year 2011 that create efficiencies 
and realize other cost savings? What additional actions are proposed in 
the fiscal year 2012 budget request?
    Answer. To ensure that it is appropriately staffed and resourced to 
implement its enhanced enforcement, compliance, regulatory and outreach 
efforts, OFCCP undertook an independent management and organizational 
assessment. The goal of the organizational assessment was to evaluate 
the agency's current structure, staff capabilities, resource 
allocation, and business process efficiency. The assessment was broken 
into two distinct parts; the former focusing on the National Office and 
the latter focusing on the regions. In response to the findings of the 
first part of the assessment, OFCCP reorganized its National Office and 
created a Governance Board to address systemic issues and break down 
organizational barriers. OFCCP is still in the process of evaluating 
the findings of the regional assessment.
    The reorganization involved making the following changes to the 
structure of the National Office, which were aimed at improving 
organizational effectiveness and efficiency: (1) create a 
Communications Team within the Office of the Director; (2) make the 
Division of Statistical Analysis a unit reporting to the Division of 
Program Operations; (3) create a separate Testing Unit within the 
Division of Program Operations; (4) create a separate Data Integrity 
Team within the Division of Program Operations; and divide the Branch 
of Budget, Finance and Administrative Services into three specialized 
parts (the Branch of Budget and Finance, the Branch of Human Resources 
Liaison and Information Management, and the Administrative Services 
Unit).
    The purpose of the OFCCP Governance Board is to transform the way 
the agency addresses select operational issues. The independent 
organizational assessment found that too often, identification and 
development of solutions to operational issues occurs among functional 
groups on an ad-hoc basis. This approach is not systematic; nor does it 
provide a consistent mechanism for divisions and regions to work across 
organizational boundaries. It encourages stove piping and thus limits 
the agency's ability to achieve desired outcomes. Additionally, it was 
suggested that many projects would benefit from broader input from the 
various segments of the OFCCP workforce.
    The OFCCP Governance Board will provide a transparent and 
sustainable means to address appropriate operational issues across 
organizational boundaries. Once fully implemented, the OFCCP Governance 
Board will improve vertical and horizontal communication within OFCCP, 
strengthen the workforce, create a healthier work environment, and 
provide better ways to identify issues and solve problems, as well as 
enable the agency to more effectively achieve output targets, outcome 
goals as described in the Department's Strategic Plan, as well as other 
organizational goals. In addition, the OFCCP Governance Board will 
improve employee morale by sending a message to staff that we are 
committed to including them in the decisionmaking process.
    The Governance Board is designed to augment existing approaches. To 
ensure success, the process will be developed carefully, beginning with 
a few high priority projects and expanded over time.
    In addition to improvements made as a result of the organizational 
assessment, OFCCP expects to realize significant savings from its new 
IT system, the Federal Contractor Compliance System (FCCS), a modern 
cloud-computing based integrated case and content management 
information technology solution, which is slated to replace the 
agency's 20 year old case tracking system, the OFCCP Information System 
(OFIS), in fiscal year 2012. In fiscal year 2011, OFCCP devoted $3.815 
million to the development of system requirements for FCCS. The agency 
plans to allocate an additional $2 million to the project in fiscal 
year 2012.
    At present, the compliance review process is completely manual. The 
FCCS will significantly increase the agency's productivity by fully 
automating this process. Concurrently, FCCS will eliminate 
inconsistencies across OFCCP's regions by imbedding business rules in 
the automated environment, thereby preventing deviations from standard 
operating procedures. Stand alone functionalities such as word 
processing, spread sheets, statistical software, and e-mail will be 
integrated into the FCCS, eliminating the need to exit one system to 
invoke the other. This will create additional efficiencies in 
completing and tracking cases. For example, compliance officers must 
enter case related status updates manually into OFIS. This leads to 
delays and input errors, and is extremely inefficient. By eliminating 
the need to manually enter status updates and providing the capability 
to capture, store, search, retrieve and reference case file 
documentation, the FCCS will save time spent in reconciling 
information.
    The FCCS will also improve information security. Currently, OFCCP 
case files are in hard copy and lack advanced safeguards to protect the 
personally identifiable information and commercial data provided to 
OFCCP by Federal contractors. The FCCS will enable the agency to 
create, analyze, generate, schedule, and track cases in a secure 
electronic environment.
    We estimate the FCCS will cost about $23 million over a 10 year 
period, in contrast to a benefit of about $39 million for that same 
period. The system is designed to allow the agency to add enhancements 
and improvements over time. Under OFIS, the agency would not be able to 
add value in the upcoming years. On the contrary, OFIS would become 
more obsolete every year, and more expensive to maintain over the same 
time period. In fact, the overall cost to operate the OFIS system for 
the next 10 years is estimated to be greater than for FCCS, even when 
the FCCS acquisition and planning cost, front loaded in the first 2\1/
2\ years, is factored in. For years 3 to 10, we estimate it would cost 
twice as much for OFIS to operate as it would for FCCS. Thus, 
implementing the FCCS will enable OFCCP to realize significant savings 
over time in addition to large gains in productivity.
    Question. What will the OFCCP achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. In fiscal year 2011, OFCCP is implementing the following 
strategic goals to achieve the Secretary's vision of good jobs for 
everyone: (1) prepare workers for good jobs and ensure fair 
compensation by increasing workers' incomes and narrowing wage and 
income inequality, and assisting low wage and the unemployed with 
gaining access into the labor market and the middle income bracket; and 
(2) assure fair and high quality work-life environments by eliminating 
barriers to a fair and diverse workforce. OFCCP has also developed new 
outcome measures that are being baselined in fiscal year 2011. These 
measures will be used to target OFCCP's performance in fiscal year 2012 
and beyond. The measures are: Compliance rate for Federal contractors; 
discrimination rate for Federal contractors; and impact of an OFCCP 
evaluation on future contractor compliance.
    To measure and assess workload enforcement efforts, OFCCP has 
several workload measures that are assessed quarterly. These include 
completion of 3,500 compliance evaluations in fiscal year 2011, which 
includes a target of 3,225 supply and service reviews and 275 
construction reviews. The agency exceeded its compliance review goals 
by 18 percent through the first and second quarters of fiscal year 
2011. OFCCP also has workload measures for its outreach and compliance 
assistance work, and has also implemented a new quality control measure 
that will look at the quality of cases worked on by compliance 
officers.
    To further enhance the effectiveness of the compliance review 
process, OFCCP focuses its investigative efforts on enforcement 
priorities once desk audits are completed. The objective is to modify 
how and where case investigation decisions are determined to ensure 
efficient use of resources. Specifically, the agency identifies cases 
for priority review based on the potential and type indicators of 
discrimination and uses a new concept called Triaging of Cases, to 
identify similar issues and patterns among corporate-wide 
establishments and within industries. The agency's focus centers on 
compensation cases, hiring investigations, veterans and disability 
investigations, and other investigations including promotions, 
terminations, and good faith efforts. This concept allows the agency to 
focus enforcement efforts toward complex investigations, which renders 
more in-depth, detailed and thorough investigations, including 
additional onsite verifications.
    In addition, OFCCP is using performance accountability measures 
that assist the agency's enforcement efforts, as well as provide the 
agency with the ability to make proactive adjustments that will ensure 
the agency reaches its goal. The performance accountability efforts 
include: (1) ongoing monitoring and reporting of field enforcement 
operations by national and regional office activities; (2) quality 
assurance and quality Investigations of contractors that assist the 
agency in achieving its goal to conduct more comprehensive audits; (3) 
improving the identification of adverse impact indicators in the audit 
process; (4) identifying compensation disparities; and (5) bringing 
more Federal contractors into compliance. The agency will also enhance 
the training of its Compliance Officers with an objective to expand and 
increase the effectiveness of the agency's enforcement. The training 
will provide staff with introductory, intermediate, and advanced level 
training in line with national priorities.
    Question. Secretary Solis, as you know, I am supportive of your 
efforts to strengthen the affirmative action requirements of 41 CFR 
part 60-741, the regulations implementing Section 503 of the 
Rehabilitation Act of 1973, as amended (Section 503). You issued an 
Advance Notice of Proposed Rulemaking (ANPRM) last July with a 
September deadline for comments. Can you please provide an update on 
where things stand with that proposed rule, and when we can expect to 
see a final rule? I strongly believe that Federal contractors can play 
a big role in helping to improve employment outcomes for qualified 
workers with disabilities, and I am eager to see the Section 503 
regulations strengthened as part of a broader effort to increase the 
number of people with disabilities participating in the U.S. labor 
force.
    Answer. I share your belief that strengthening the Section 503 
regulations is an important part of the broader effort to increase the 
number of people with disabilities in the U.S. labor force. The ANPRM 
we published last year resulted in 127 comments from disability and 
veteran advocacy organizations, trade and professional associations, 
employers, and other interested groups and individuals. All comments we 
received were considered as we drafted a Notice of Proposed Rulemaking 
(NPRM), which was submitted to OMB for interagency review under 
Executive Orders 12866 and 13563 on May 24.

              OFFICE OF LABOR-MANAGEMENT STANDARDS (OLMS)

    Question. In fiscal year 2011, OLMS will eliminate a unit dedicated 
to audits of international unions. OLMS has determined that these 
expenses will be better used in core mission work. Please provide 
supporting data for this conclusion, including how OLMS will enforce 
relevant laws with respect to international unions.
    What additional steps will OLMS complete in fiscal year 2011 that 
create efficiencies and realize other cost savings?
    Answer. In fiscal year 2011, OLMS plans to eliminate the 
International Compliance Audit Program (I-CAP), which on average, 
resulted in seven or eight audits per year. Savings will be applied to 
maintaining FTE levels in OLMS' core mission, compliance assistance and 
enforcement of employer/consultant reporting. It is important to note 
that OLMS is continuing to conduct criminal investigations involving 
international unions based on information of financial improprieties. 
Criminal investigations are part of OLMS' core mission work and OLMS 
projects to have sufficient resources to conduct approximately 300 
criminal investigations in fiscal year 2011. OLMS is also continuing to 
conduct union officer election investigations (over 130 cases 
projected) including investigations of international union officer 
elections. OLMS will also continue to conduct audits of intermediate 
body and local unions under the compliance audit program (CAP). OLMS 
will create efficiencies in the CAP program by improving its audit 
targeting methods to more effectively identify fraud and embezzlement 
while conducting fewer audits. Despite fewer audits, OLMS' enforcement 
program will remain viable and effective. OLMS will also realize 
efficiencies and cost savings in the election program by working to 
reduce the number of days it takes to resolve union officer election 
complaints and, in the reports and disclosure program, by increasing 
the number of LMRDA reports filed electronically.
    Question. What additional actions are proposed in the fiscal year 
2012 budget request?
    Answer. OLMS proposed the following initiatives in the fiscal year 
2012 budget request:
  --Increase effectiveness of audits by focusing resources on labor 
        unions most likely to be in violation of the law.
  --Improve timeliness in resolving union member election complaints.
  --Improve the Internet public disclosure service and public access to 
        information reported by unions, union officers, union 
        employees, employers, labor consultants and surety companies 
        under the Act.
  --Increase provision of compliance assistance to national and 
        international labor organizations to increase their affiliates' 
        LMRDA compliance by developing, implementing, and extending the 
        number of voluntary compliance agreements (VCA) to establish 
        goals, baselines, and measures for improving recordkeeping, 
        reporting, and internal controls.
  --Improve compliance with minimum bonding requirements of local and 
        intermediate union affiliates by working closely with their 
        parent national and international unions, including those who 
        are not party to a VCA.
  --Increase the number of national and international unions whose 
        affiliates conduct audits of their own financial records in 
        accordance with a partnership that develops, delivers, and 
        evaluates a customized local union audit training curriculum 
        for each parent union.
  --Increase the number of reports filed by employer-consultant 
        persuaders.
  --Reduce delinquency rate of filers of Labor Organization Annual 
        Financial Reports.
  --Reduce delinquency rate of chronically delinquent filers of Labor 
        Organization Annual Financial Reports.
    Question. What will the OLMS achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The fiscal year 2011 workload and performance data provided 
in the fiscal year 2012 congressional budget justification was based on 
an annualized continuing resolution at the fiscal year 2010 enacted 
level. At this point, however, we expect the performance for the Office 
of Labor-Management Standards to differ from the fiscal year 2011 
information in the fiscal year 2012 congressional budget justification 
as follows:
    OLMS expects that the number of election cases will exceed the 
projected total of 130. Election cases are predicated on member 
complaints and during fiscal year 2011, OLMS has received an inordinate 
number of these cases.
    OLMS projects fewer supervised elections (projected 35). The number 
of supervised elections is a demand-driven measure in that OLMS cannot 
predict changes in annual numbers, and historically the number of 
supervised elections has fluctuated greatly (based upon the number of 
election investigations, ability to reach voluntary agreements, etc.)
    OLMS expects to exceed the predicted number of 200 compliance 
audits and complete at least 350 during fiscal year 2011.
    As noted above (SSEC10), OLMS expects to continue to seek increased 
program efficiencies for the remainder of fiscal year 2011 and into 
fiscal year 2012.

            OFFICE OF WORKERS' COMPENSATION PROGRAMS (OWCP)

    Question. Since fiscal year 2009, the OWCP has created efficiencies 
in its programs, eliminated lower-priority spending and realized other 
cost savings. What additional steps will OWCP complete in fiscal year 
2011?
    Answer. OWCP continues to modernize its technology systems to 
automate claims processing and provide greater accessibility and 
services to customers. Expanded use of teleconferencing has reduced 
travel costs to conduct informal hearings and conferences and training 
costs. Technology tools also enable centralization of functions and 
increases flexibility in workforce assignments and workload 
organization and management. In fiscal year 2011, OWCP will:
    Consolidate Division of Federal Employees' Compensation (DFEC) 
claims intake and case creation activities from 12 District Office 
locations to two central sites. Consolidation will improve consistency 
in the quality of case creation as well as provide operational 
efficiencies such as reduced contract staff and equipment requirements.
    Deploy the Employees' Compensation Operations and Management Portal 
(ECOMP) to allow electronic filing of Federal Employees' Compensation 
Act (FECA) claim forms, submission of other documents, and the 
uploading of documents directly through a secure web-based application.
    Deploy DFEC's new interactive voice response (IVR) system that will 
offer self-help features to callers, greatly improve call routing, and 
provide greater access to information and assistance services.
    DEEOIC continues to actively look for ways to improve customer 
service and speed benefit delivery. In response to a customer service 
satisfaction survey conducted last year, new pamphlets and brochures 
are being developed to be posted online and given out at the Resource 
Centers. These informational pamphlets will provide clear guidance to 
the claimant population concerning key benefit and program issues.
    Continue, on a monthly basis, the Black Lung program assessment of 
each district office's workload and the rebalancing of caseloads so as 
to prioritize the adjudication of new claims filed under the Patient 
Protection and Affordable Care Act (PPACA).
    Question. What is proposed in the fiscal year 2012 budget request?
    Answer. Requests for additional resources in fiscal year 2012, 
through which OWCP will continue to create efficiencies in its 
programs, eliminate lower-priority spending, and realize other cost 
savings include:
  --$1,200,000 in Special Benefits (FECA) to provide for policy review 
        and conversion of the iFECS Case Management System to the new 
        HIPPA International Classification of Diseases standard, ICD-10 
        mandated by the Department of Health and Human Services. The 
        ICD coding scheme is used by OWCP to identify medical 
        conditions accepted in workers' compensation claims and by the 
        healthcare industry for delivery of services to our claimants.
  --$3,200,000 and 9 FTE in Longshore Salaries & Expenses for resources 
        to address the numbers and complexity of Defense Base Act (DBA) 
        claims and reduce processing timeframes. DBA injury and death 
        cases in connection with the wars in Iraq and Afghanistan have 
        increased dramatically, rising from 347 cases in fiscal year 
        2002 to nearly 15,000 cases in fiscal year 2010, while 
        Longshore resources have remained static.
    In addition, OWCP continues to pursue legislative reform of the 
Federal Employees' Compensation Act (FECA). We estimate that our reform 
proposal will save the Government (conservatively) between $400 and 
$500 million in its first 10 years. In addition, the proposal contains 
several provisions that will improve administration of FECA operations. 
These include creating a lower benefit level, or ``conversion'' 
benefit, once an injured employee reaches Social Security Retirement 
age or after 1 year of FECA compensation (whichever is later); 
establishing a uniform compensation rate of 70 percent for all 
claimants, including schedule awards, and removing benefit augmentation 
for dependents; moving the 3-day waiting period for benefits from after 
the 45-day continuation of pay period to the first 3 days following the 
filing of a traumatic claim; and authority to match Social Security 
records with FECA claims records without prior claimant approval to 
ensure continued FECA benefit eligibility.
    Fiscal year 2012 funding will enable OWCP to introduce additional 
customer service improvements and business process and organizational 
design enhancements, as well as workload management innovations such as 
Telework and Flexiplace expansion.
    Question. The congressional budget justification indicates that the 
Division of Federal Employees' Compensation will take a series of steps 
related to the recruitment, placement, and accommodations of workers 
with disabilities. Please provide more specifics on current and 
proposed actions under existing law.
    Answer. Subsequent to last year's kick-off of the new Federal 
workplace safety and return-to-work (RTW) initiative--``Protecting Our 
Workers and Ensuring Reemployment'' (POWER)--DFEC met with the 14 
larger agencies to discuss their current performance levels and actions 
they will take to meet their POWER targets. The meetings also included 
discussions about those agencies' organizational and other RTW 
challenges, opportunities for DFEC to provide assistance, and the 
agencies' potential for improvement.
    Extending those latter topics, DFEC and DOL's Office of Disability 
Employment Policy (ODEP) are developing a research project to be 
completed by the end of fiscal year 2012 to document the obstacles that 
exist in Federal agencies relating to return to work, job 
accommodations, and placement and the best practices used by agencies 
to reduce or eliminate these obstacles and increase opportunities for 
success. This research project also supports the objectives of 
Executive Order 13548, Increasing Federal Employment of Individuals 
with Disabilities, which specifically directs the Secretary of Labor to 
take steps that will foster improved return-to-work outcomes. DFEC and 
ODEP will utilize the results to offer tailored technical assistance to 
Federal agencies regarding the adoption and implementation of 
successful return-to-work practices and related disability employment 
practices.
    To provide an incentive to Federal employers to reemploy injured 
Federal workers with permanent disabilities, DFEC has begun a program 
to identify and certify FECA claimants for job placement using Office 
of Personnel Management (OPM) Schedule A hiring authority. 
Qualification for Schedule A authority, found at 5 CFR 
Sec. 213.3102(u), provides an avenue to enhance and expedite hiring of 
individuals with disabilities (as well as other categories of 
individuals) for Federal service by removing barriers and increasing 
employment opportunities. Participation in the program is voluntary on 
the part of the claimant; however, if they volunteer they must self-
identify the nature of their disability. With Schedule A, qualified 
candidates who meet the OPM guidelines can be hired non-competitively: 
without the typical recruitment headaches; without posting and 
publicizing the position; and without going through the certificate 
process.
    Question. What will the OWCP achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. Following enactment of the fiscal year 2011 appropriation, 
OWCP reprioritized workload and activities to support the targets and 
goals addressed in the fiscal year 2011 congressional budget 
justification. It is expected that the Federal Employees' Compensation 
Division, the Coal Mine Workers' Compensation Division, and the Energy 
Employees Occupational Illness Compensation Division achievements will 
be close to the established targets. The possible exception is the 
Longshore and Harbor Workers' Compensation Division which is currently 
not achieving the GPRA goal of 58 percent of First Payment of 
Compensation Issued Within 30 days for Defense Base Act cases. The 
performance for the DBA First Payment measure through the second 
quarter is 54 percent. The performance targets were based on requested 
additional funding for nine additional FTE and information technology 
investments that was not enacted. Longshore's resources have been 
severely taxed by both the numbers and the complexity of Defense Base 
Act claims arising from increased activity by civilian contractors 
supporting the military overseas.

          OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION (OSHA)

    Question. What steps will OSHA complete in fiscal year 2011 and 
does it propose in fiscal year 2012 to create efficiencies and realize 
other cost savings in pursuing the agency's mission?
    Answer. OSHA has been carefully controlling its Full-Time 
Equivalent (FTE) ceiling and hiring in fiscal year 2011 to ensure that 
priority, mission-critical positions are filled. The agency has also 
been granted Voluntary Early Retirement Authority (VERA) by the Office 
of Personnel Management for the remainder of fiscal year 2011, which 
extends to agency operations outside of Washington, DC for the first 
time in well over a decade. In addition, the agency has reduced funding 
for discretionary purchases, including travel, contracts and printing. 
As an example, the agency is starting to utilize video conferencing 
technology for training, meetings and screening of egregious cases to 
reduce travel expenses. OSHA is also pursuing technology efficiencies, 
including the elimination of outdated and redundant equipment, to 
realize cost savings.
    Question. How will the modest increase available to OSHA be 
targeted to carrying out the highest priority activities in fiscal year 
2011 and achieving the core mission of the agency?
    Answer. OSHA did not receive an increase to its budget in fiscal 
year 2011. The continuing resolution provided the Department with the 
authority to move funds from the Departmental Management appropriation 
to other accounts for the purposes of program evaluation, initiatives 
related to the identification and prevention of worker 
misclassification, and other worker protection activities. With this 
authority, funding was restored to OSHA in the amount of the 0.2 
percent rescission for standards development, State program enforcement 
efforts, and training on identifying worker misclassification.
    Question. What will the OSHA achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification was based on an 
annualized continuing resolution at fiscal year 2010 enacted 
appropriations. At this point, we expect the performance for OSHA to 
not differ significantly from the information in the fiscal year 2012 
congressional budget justification.

              MINE SAFETY AND HEALTH ADMINISTRATION (MSHA)

    Question. What steps will MSHA complete in fiscal year 2011 to 
create efficiencies and realize other cost savings in pursuing the 
agency's mission?
    The fiscal year 2012 budget identifies savings related to the 
elimination of the small mines office and the SAVE proposal related to 
the use of postcards reminders for certain information requests.
    Answer. With respect to the Small Mines Office, MSHA is not going 
to close or eliminate it, but will transfer and integrate the function 
into the Metal and Nonmetal program. MSHA intended to replace the 
narrative in the justification during the drafting phase to reflect 
this, but unfortunately that did not occur.
    MSHA will begin mailing the first post card reminders in lieu of 
the multi-part 7000-2 forms for the CY 2011 second quarter reporting 
period (April-June). This transition will reflect the beginning of the 
savings outlined in the SAVE proposal.
    Question. Please describe how this proposal will achieve the 
identified savings with at least the same level of services currently 
provided.
    Answer. Implementing the SAVE proposals to move to the mailing of 
post cards will significantly reduce MSHA's printing and postage costs. 
MSHA will continue to mail the multi-part form when requested; however, 
MSHA is encouraging stakeholders to take advantage of the on-line 
filing capability.
    MSHA believes the transfer of the Small Mines Office function will 
increase the effectiveness of the program by allowing the managers to 
focus on areas where their expertise is needed. This will provide more 
meaningful compliance assistance, leading to lower overall fatality and 
accident rates at all mines.
    Question. What additional cost savings are proposed in the fiscal 
year 2012 budget request?
    Answer. The fiscal year 2012 request includes two reductions 
totaling $3,250,000 reflecting the elimination of a project previously 
funded through an earmark.
    Question. How will the modest increase available to MSHA be 
targeted to carrying out the highest priority activities in fiscal year 
2011, including those previously addressed in MSHA reports to the 
Committee on Appropriations and Office of Accountability reports, and 
achieving the core mission of the agency?
    Answer. In the Department of Defense and Full-Year Continuing 
Appropriations Act, 2011, Congress appropriated to MSHA an additional 
$7.27 million (post rescission) above the revised fiscal year 2010 
continuing resolution (CR) level. MSHA allocated this funding to 
address critical projects and needs within its core programs and comply 
with known congressional interest. Below is a summary of the 
allocations:
Federal Mine Safety and Health Review Commission (FMSHRC) Backlog 
        Reduction (SOL): $2,000,000
    Transfer of funds necessary to continue the backlog reduction 
project for the last 2 months of the fiscal year.
Federal Mine Safety and Health Review Commission (FMSHRC) Backlog 
        Reduction (MSHA): $750,000
    Funds necessary to continue the backlog reduction project for the 
last 2 months of the fiscal year.
Metal and Non/Metal Inspections: $1,300,000
    Funds for overtime and travel to ensure the Metal and Nonmetal 
enforcement program have the necessary resources to complete its 
mandated inspections.
Upper Big Branch Investigation Costs: $550,000
    Funds to offset costs associated with MSHA's investigations into 
the Upper Big Branch mine disaster above those that were supported 
through the 2010 supplemental appropriation.
Coal District 4 Split: $250,000
    In response to concern about the sheer size and responsibility of 
the District 4 office, whose area of jurisdiction in southwest West 
Virginia encompassed nearly 400 mines and mine facilities or roughly 20 
percent of the Nation's coal mines, MSHA is splitting the District into 
two more manageable organizations, creating a new District office, D12. 
This action will better serve MSHA and the mining industry. The 
creation of two districts to cover southern West Virginia will provide 
for more effective enforcement oversight and improved management of 
this significant portion of MSHA's workload. The allocation reflects 
funding to support the infrastructure of a temporary space while GSA 
secures a permanent location for the new District 12 office. All items 
purchased or leased will convey to the permanent location.
Brookwood-Sago Grants Increase: $500,000
    Increase the Miner Act-established Brookwood-Sago Grants program by 
$500,000. The program provides funding for the development of 
educational and training programs and training materials for mine 
emergency preparedness by providing funding for education and training 
programs to help identify, avoid, and prevent unsafe working conditions 
in and around underground mines, and focuses on training materials and 
training programs for mine rescue and mine emergency preparedness in 
underground coal mines.
Enforcement Programs Computer IT support: $1,100,000
    Funding to provide replacement laptop and desktop computer 
equipment for enforcement staff. Current laptops and desktops are 3-4 
years old and only have one-half GB of memory which causes all programs 
to run very slowly. Some machines are taking as long as 8 minutes to 
start up. This substantially and negatively impacts productivity by 
reducing mine site time for the inspectors. These machines will not be 
able to support Office 2010 if and when DOL/MSHA upgrades to this 
version. Additionally, Windows 7 would not be able to be supported as 
the operating system due to inadequate hardware and memory on current 
machines. MSHA and DOL have already begun migrating to Windows 7 where 
the hardware is able to support the move.
Health Samples Reengineering: $900,000
    Funding to replace MSHA's current obsolete 31-year old COBOL system 
and provide an application that is fully integrated with MSHA's 
enterprise database. The new system will significantly reduce 
maintenance costs and improve processing speed. Reengineering the 
system will allow for:
  --Consistent management of samples data.
  --Establish consistent integration of samples monitoring with 
        enforcement activities.
  --Provide consistent reporting mechanisms.
  --Maintain the ability to perform unique validations based on sample 
        type.
  --Provide a consistent mechanism for tracking sample history.
  --Provide the capability to create a consistent advisory mechanism 
        for reporting violations to MSHA enforcement personnel.
Mine Emergency Equipment: $750,000
    Provides funding for the purchase of Mine Emergency Operations 
(MEO) response equipment. MSHA will purchase:
  --Communications vehicle, wireless mesh points and supporting 
        equipment.
  --Satellite dish for improved communications.
  --Engineering vehicle, trailer and equipment.
Base Funding Reallocations: -$1,080,000
    MSHA will re-direct lapsed compensation funding to offset increases 
in the Metal and NonMetal enforcement, which will allow MSHA to ensure 
that Metal and Nonmetal completes 100 percent of its mandated 
inspections. Additionally, MSHA is reallocating resources to increase 
the Brookwood-Sago Mine Safety Grants programs, transfer management of 
the Mount Hope Lab from Technical Support to the Coal activity, and 
support MSHA's expanded regulatory program.
    Question. What will MSHA achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. We expect MSHA to continue its enhanced enforcement 
efforts, i.e. impact inspections, maintain 100 percent of the mandated 
inspections, and conduct other inspections/investigations. Although the 
delay in fiscal year 2011 appropriations created some challenges in 
achieving workload and performance goals, MSHA expects its workload and 
performance levels to coincide very closely with the fiscal year 2011 
information in the fiscal year 2012 congressional budget justification. 
The fiscal year 2011 information and data provided in the fiscal year 
2012 congressional budget justification was based on an annualized 
continuing resolution at the fiscal year 2010 enacted appropriation 
level.

                    BUREAU OF LABOR STATISTICS (BLS)

    Question. BLS has taken steps in recent years to reduce travel 
costs by expanding the use of videoconferencing and web-based services. 
What additional steps will BLS complete in fiscal year 2011 to create 
efficiencies and realize other cost savings in pursuing the agency's 
mission?
    Answer. The Bureau of Labor Statistics (BLS) has continued to 
increase the use of its videoconferencing system, web-based services, 
and telephone and Internet data collection to mitigate travel costs. 
The videoconferencing system provides high-quality audio and video for 
meetings between the BLS national office and its regional locations. In 
addition, the BLS uses videoconferencing to meet with organizations 
located outside the United States, where international travel would 
have been required previously. The BLS has increased its use of WebEx, 
a web-based service that combines real-time desktop sharing with phone 
conferencing to conduct some work activities with State and regional 
staff, rather than traveling to conduct business on site. The BLS has 
also increased its use of telephone and Internet data collection, 
thereby reducing the travel costs associated with collecting data. In 
addition to reducing travel costs, the BLS has been working to identify 
and, where possible, reallocate unused/unneeded IT equipment 
(computers, servers, printers, and cellphones) using the Asset 
Management Application (AMA). The AMA enables the BLS to transfer 
surplus IT equipment that is still serviceable to offices where it will 
be used. These strategies have proven to be an effective means to avoid 
rising costs. The BLS is committed to continuing such practices.
    Question. In addition to the elongating of the fielding schedules 
for National Longitudinal Surveys and the elimination of the 
International Labor Comparisons program, what additional cost savings 
and efficiencies are proposed in the fiscal year 2012 budget request?
    Answer. In 2012, the BLS will continue efforts to implement online 
forms within the Producer Prices and Price Indexes (PPI) program, a 
survey that currently collects monthly price data by mail and fax. In 
fiscal year 2011, PPI began work with the centralized Internet Data 
Collection Facility within the BLS to offer online data collection to 
select respondents. By the end of fiscal year 2012, the BLS will 
realize cost savings of approximately $10,000. Offering modern, 
electronic options to respondents, including use of online data 
collection, will improve the accuracy, timeliness, and efficiency of 
data collection for both respondents and the BLS and be more 
environmentally friendly.
    Question. BLS also has taken steps to change the relationship with 
State labor market information agencies, most recently with the 
centralization of the current employment statistics (CES) program. The 
Nation requires current, accurate, detailed labor statistics for 
Federal and non-Federal data users. Please comment on the accuracy of 
the data being produced through the centralized CES program.
    How are DOL agencies and State labor market information agencies 
interacting with each other and with other Federal and non-Federal 
entities to address the goals of relevant Federal legislation and the 
Federal-State cooperative statistics system?
    Answer. In March 2011, the BLS assumed responsibility for producing 
CES State and metropolitan area estimates. The transition went smoothly 
and, as of early June, the BLS has produced 2 months of estimates under 
the new protocol. State agencies have cooperated fully with the BLS 
during the transition. States continue to relay information to the BLS 
about any local events not captured by the CES sample, and provide 
analysis and dissemination of the estimates to local data users. Data 
accuracy remains high as the sample size remains unchanged and is 
supplemented by local information provided by States. In addition, the 
centralization will permit the BLS to implement program enhancements in 
the CES program to improve survey response rates, thereby reducing the 
statistical error on the estimates. Centralizing operations at the BLS 
also improves the consistency and transparency of the estimation 
process, which are important dimensions of quality.
    In terms of the overall Federal-State cooperative system for 
producing Labor Market Information (LMI), the BLS and States continue 
to work together through the annual cooperative agreement process to 
produce, analyze, and disseminate data from the CES, Local Area 
Unemployment Statistics, Occupational Employment Statistics, Mass 
Layoff Statistics, and Quarterly Census of Employment and Wages 
programs. Consistent with Section 309 of the Workforce Investment Act 
of 1998, BLS senior management and 10 State LMI Directors elected by 
their peers continue to hold regular formal consultations. 
Representatives of other Federal agencies involved in producing labor 
market information regularly participate in these consultations as 
well.
    Question. Last, the National Research Council held a workshop last 
year on facilitating innovation in the Federal statistical system. 
Please comment on DOL agencies' innovation activities and plans.
    Answer. To foster innovation at the agency and program level, the 
BLS has included a number of budget initiatives in the President's 
budget in recent years. For example, in 2010, the BLS received 
resources to provide new series on ``green'' jobs, addressing the need 
for detailed data on these rapidly evolving industries and occupations. 
As another example, in 2012, the BLS is requesting resources to 
modernize its Consumer Expenditure (CE) survey. The CE survey is a 
critical input for the Consumer Price Index. This initiative will allow 
for continuous research to incorporate multiple data collection modes 
to take advantage of new technologies, use new sample and statistical 
modeling methods to increase cost effectiveness, and assess the 
feasibility of implementing further improvements.
    The BLS also continuously improves its current data products to the 
extent possible within existing resource levels. For example, in 2010, 
the BLS released official all-employee hours and earnings data, which 
provide more comprehensive information for the Bureau of Economic 
Analysis' National Income Accounts and for analyzing economic trends. 
Also in 2010, the BLS began publishing, for the first time, national 
estimates of workplace injuries and illnesses incurred by State and 
local government workers.
    In addition, the National Research Council report highlighted the 
importance of interagency work in fostering innovation within the 
Federal statistical system. One current example is the Joint Program in 
Survey Methodology, which is intended to address the critical and 
growing need of Federal agencies for highly trained personnel in 
mathematical statistics and survey methodology.
    Question. What will the BLS achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The BLS does not expect the workload and performance goals 
to differ from the fiscal year 2011 information in the fiscal year 2012 
congressional budget justification.

                     OFFICE OF THE SOLICITOR (SOL)

    Question. What steps will the Office of the Solicitor (SOL) 
complete in fiscal year 2011 to create efficiencies and realize other 
cost savings in pursuing the agency's mission?
    Answer. In fiscal year 2011, SOL continues to develop critically 
needed Legal Technology infrastructure improvements. This initiative 
began with an evaluation in fiscal year 2009. In fiscal year 2011, we 
are projected to complete the first of three phases of development. 
SOL's IT modernization initiative addresses important improvements in 
SOL's IT/Litigation Support infrastructure, including: replacing SOL's 
failing case management and time reporting systems (SOLAR/TD), as well 
as developing capacities in the critical areas of legal document 
management, document review tools, transcript and evidence management, 
trial presentation and case analysis. In addition, in fiscal year 2011, 
SOL continues to build its FTE-related program support capacity, 
including its professional development and training necessary to ensure 
that SOL's legal skills are competitive with those of its adversaries 
and other stakeholders that influence the working conditions and 
security of America's working women and men.
    Question. The fiscal year 2012 budget identifies savings related to 
the elimination of resources for compliance assistance and outreach, 
longshore litigation, and review of Uniformed Services Employment and 
Reemployment Rights Act case referrals to the Department of Justice. 
Please describe how these proposals will achieve the identified savings 
without compromising SOL's core mission.
    Answer. SOL's budget request for fiscal year 2012 was constructed 
in close coordination with the budget priorities for its DOL client 
agencies, enabling SOL to forcefully and decisively support the 
Secretary's vision of ``good jobs for everyone.'' The fiscal year 2012 
budget includes three program reductions as follows.
    Eliminate SOL's Compliance Assistance and Public Outreach 
Activities.--SOL proposes to cease performing the wide variety of 
compliance assistance and public outreach activities in which it 
currently engages, including speeches, presentations, responding to 
inquiries from and providing training to the public, and supporting the 
clients' compliance assistance activities.
    Eliminate SOL review of the Veterans Employment and Training 
Service's (VETS) USERRA case referrals to DOJ.--The Department of 
Justice bears the primary authority for litigating cases in this 
program and engages in a de novo review of the merits of each case. 
This proposal eliminates SOL's review of the recommendations to DOJ 
from VETS.
    Eliminate Non-participation memos.--DOL should discontinue its 
practice of drafting legal memos to support its decision not to 
participate in cases under the Longshore and Harbor Workers 
Compensation Act and Mine Act in the courts of appeals, and should 
communicate those recommendations orally to OWCP and MSHA.
    Question. What additional cost savings are proposed in the fiscal 
year 2012 budget request?
    Answer. As described in the response to SSEC24, SOL is in the midst 
of an IT Modernization initiative that began in fiscal year 2009 and 
the fiscal year 2012 budget request includes funding to continue this 
project in fiscal year 2012.
    Question. What will the SOL achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification (CBJ) were based on 
an assumed annualized funding level based on the continuing resolution 
at fiscal year 2010 enacted appropriations. While the final fiscal year 
2011 full year continuing resolution approximated these funding levels, 
the delay in appropriations has created challenges in achieving 
workload and performance goals. Consistent with the performance and 
workload information in SOL's fiscal year 2012 CBJ, SOL expects its 
fiscal year 2011 workload and performance projections to be consistent 
with fiscal year 2011 information in the fiscal year 2012 CBJ, with the 
increased production from the temporary and term FTE funded by the 
fiscal year 2010 supplemental appropriation (and the $2 million 
transfer from MSHA's fiscal year 2011 appropriations to SOL) to reduce 
the backlog of mine safety and health cases pending before the Federal 
Mine Safety and Health Review Commission. At this point, we expect the 
performance for SOL to differ from the fiscal year 2011 information in 
the fiscal year 2012 CBJ as follows:
    Historically, including in the fiscal year 2012 CBJ, SOL aggregated 
its Pre-Litigation Matters and Litigation Matters together as 
``Litigation Matters'' when reporting. Now that SOL has revised its 
production measures to separate out Pre-Litigation Matters from 
Litigation Matters, we have revised targets and results for Litigation 
Matters Opened (formerly referred to as Litigation Matters Received) 
and Litigation Matters Concluded to exclude Pre-Litigation Matters from 
the tabulations, and we have included separate figures for Pre-
Litigation.
    The projected number of Mine Safety and Health litigation backlog 
matters to be concluded in fiscal year 2011 projection for Litigation 
Matters Concluded, as reflected in SOL's workload projects, has been 
revised. The original target was based on a projection from the MSH 
litigation matters concluded in the first quarter of the backlog 
project, but based on current trending, that rate is not sustainable as 
a constant rate over the full project. While we expect this SOL 
workload measure to trend downward, the MSH litigation backlog project 
remains on track to exceed our expectations for disposition of cases 
and citations. It is important to note that the SOL workload 
projections are not directly comparable to data and projections 
reported in the Quarterly Reports to Congress for the Targeted Caseload 
Backlog Reduction Project. This is because SOL's projections are based 
on SOLAR, which tracks only Litigation Matters Concluded by SOL, and 
the reports to Congress are based on data provided by the Federal Mine 
Safety and Health Review Commission, including matters handled by 
MSHA's CLRs (and not SOL) as well. In addition, these two data sets are 
based on different time periods.

                 BUREAU OF INTERNATIONAL AFFAIRS (ILAB)

    Question. What actions will the Bureau of International Affairs 
take in fiscal year 2011 to create efficiencies and realize other cost 
savings in pursuing the agency's mission?
    Answer. The President's fiscal year 2011 budget request included 
additional resources for ILAB to improve its monitoring and enforcement 
of trade agreements and expand its worker rights technical assistance 
program. The United States has trade agreements with 13 developing 
countries and provides trade preferences to approximately 140 other 
developing countries. These agreements and programs include labor 
rights obligations. Without the additional requested resources, ILAB 
has shifted staff from lower priority activities, such as participation 
in inter-agency processes, to higher priority activities such as labor 
monitoring and the enforcement. However, we anticipate that monitoring 
activities will increase as the U.S. negotiates additional trade 
agreements and ILAB continues to strive for the robust enforcement of 
trade agreements.
    ILAB will continue to coordinate its efforts to address the root 
causes of child labor and forced labor with those of the International 
Labor Organization (ILO). ILAB will also continue to search for ways to 
improve the effectiveness of its programs to advance its goal of 
improving the livelihoods of exploited laborers and at-risk youth.
    ILAB is using research and technology to improve the efficiency of 
ILAB's operations. Systematic research and analysis on the status of 
labor rights in trade partner countries allows ILAB to coherently 
target policy engagement--including trade enforcement actions and 
technical cooperation activities--to specific countries and issues 
where the maximum impact may be achieved. ILAB has made substantial 
progress on developing a system for tracking and sharing information 
internally and with other agencies. This helps utilize scarce resources 
as efficiently as possible.
    Question. What additional steps are proposed in the fiscal year 
2012 budget?
    Answer. The ILAB budget proposal for fiscal year 2012 included 
expanded resources (1) for additional staff in the area of monitoring 
and enforcement of the labor provisions of trade agreements and (2) for 
expanded worker rights grants. The budget proposal did not call for 
specific additional steps to create efficiencies and realize other cost 
savings in pursuing the agency's mission beyond those proposed in the 
fiscal year 2010 budget and cost savings realized to comply with the 
constraints of the continuing resolutions covering fiscal year 2011.
    However ILAB intends to continue to pursue efficiencies and cost 
savings from measures that have been put in place during the current 
fiscal year, including prioritization of activities, targeted 
engagement with those governments that offer greatest promise of 
progress, limitations on staff travel and cautious hiring and 
replacement policies.
    In addition, in fiscal year 2012 ILAB intends to undertake more 
assignment of staff across its offices in order to accomplish all high 
priority and mandated work without addition staff resources, in case 
the fiscal year 2012 budget does not allow additional hiring. ILAB will 
also identify and eliminate additional lower priority activities, 
beyond those curtailed in fiscal year 2011, as needed to accomplish its 
mission with constrained resources. ILAB has started to identify such 
lower priority activities for possible elimination in fiscal year 2012. 
These measures will mean that ILAB is not able to sustain the current 
level of effort on all programs.
    Question. Please describe the impact of not receiving the increase 
proposed in the fiscal year 2011 budget, particularly on activities 
related monitoring and enforcement of labor provisions of trade 
agreements.
    Answer. Not receiving the increase proposed in the fiscal year 2011 
budget has significantly reduced ILAB's intended impact on improving 
worker rights around the world. Without the fiscal year 2011 request 
for resources to monitor and enforce labor provisions of trade 
agreements, ILAB will be unable to increase its monitoring efforts. In 
fiscal year 2011, ILAB has been monitoring less than half the number of 
trade partner countries it would have monitored under the requested 
level of funding. It has also been impossible to establish and expand 
high priority trade related worker rights technical assistance, 
especially Better Work programs. A lower level of resources will lead 
to a reduction in ILAB's planned activities, particularly monitoring 
and enforcement, in the following specific ways:
    Monitoring.--ILAB will not have the resources to systematically 
review, analyze and track labor problems in all FTA countries. ILAB has 
developed a set of standards and a systematized method for tracking 
progress on labor issues, but has only been able to apply this in-
depth, systematic monitoring to six FTA countries. For the other 11 FTA 
partners, ILAB has been conducting ad hoc monitoring as problems arise. 
ILAB's responsibilities related to the labor provisions of FTAs are 
expected to rise significantly in the next year. The recently 
negotiated Colombia Action Plan Related to Labor Rights will require 
significant ILAB resources to monitor in the near future. In addition, 
the United States is currently negotiating the Trans-Pacific 
Partnership FTA (TPP) with seven countries. ILAB has not been able to 
invest the staff resources to engage the developing countries that are 
party to the TPP negotiations on labor issues to the extent we consider 
desirable. Negotiating new FTAs offers the best leverage for the 
necessary changes in labor regimes and institutions. Without the 
additional resources, ILAB's capacity to bring current and detailed 
knowledge to the negotiating process will be seriously constrained. TPP 
countries include Vietnam, Malaysia, and Brunei Darussalam, which have 
significant labor challenges.
    Enforcement.--ILAB will not have the resources to expand 
enforcement beyond 2010 levels of the labor obligations of countries 
that benefit from U.S. trade agreements and preference programs. ILAB 
monitors and engages countries on labor rights law and practice if a 
labor petition is filed under GSP, free trade agreements, or as part of 
the annual review process of AGOA. ILAB had planned to expand its 
engagement to additional countries of concern to address areas where 
there were concerns they had not met their obligations. While ILAB has 
identified potential labor rights issues in trade partner countries, it 
has been unable to proactively initiate new labor consultations or 
reviews under trade agreements and preference programs because of the 
significant staff resources they would entail.
    ILAB must divert resources from other functions. ILAB has already 
been compelled to re-assign staff from technical assistance and 
research functions to mandated monitoring and enforcement of FTA labor 
provisions. If monitoring activities increase, we will have to draw 
resources from other priorities.
    ILAB also has not received requested resources to expand its worker 
rights technical assistance programs. These programs aim to create a 
level playing field for U.S. workers in the global economy and improve 
worker rights in U.S. trade partner countries. As part of this 
initiative, ILAB has established Better Work programs in Haiti, Lesotho 
and Nicaragua, and provided initial funding in fiscal year 2010 to 
establish a program in Bangladesh and support modest expansions in 
Vietnam and Cambodia. In fiscal year 2011, we plan to initiate a 
program in Egypt modeled on Better Work. However, without additional 
resources, these programs will not be able to be fully scaled up.
    Question. What will the ILAB achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification was based on an 
annualized continuing resolution at fiscal year 2010 enacted 
appropriations. While the final fiscal year 2011 appropriation 
approximated these funding levels, the delay in appropriations creates 
challenges in achieving workload and performance goals. At this point, 
we do not expect the performance for ILAB to differ from the fiscal 
year 2011 information in the fiscal year 2012 congressional budget 
justification.

                          WOMEN'S BUREAU (WB)

    Question. What actions will the Women's Bureau take in fiscal year 
2011 to create efficiencies and realize other cost savings in pursuing 
the agency's mission, beyond replacing staff with lower-paid employees?
    Answer. The Women's Bureau works diligently to make the most 
effective use of its resources. Over 85 percent of the Bureau's budget 
is spent on salaries and benefits, rent and working capital fund, 
leaving very little discretionary funding. However, the Bureau 
continues to look for ways to create efficiencies in the way it does 
business. One way is by utilizing the Federal Strategic Sourcing 
Initiative to lower cost for supplies. Both the national and regional 
offices use this initiative to purchase supplies whenever possible.
    In addition, the Bureau is attempting to reduce copying and 
printing costs and find ``greener'' alternatives when disseminating 
outreach and technical assistance materials. As part of our strategic 
outreach activities, the Bureau provides attendees with research 
papers, guides, manuals, and other materials. At meetings or events 
that require such extensive resource material, the Bureau has moved 
away from printing the documents to providing them on flash drives. The 
use of flash drives also allows the Bureau to include additional 
Departmental and governmental information and resources to the attendee 
at no additional cost. These flash drives also serve as a 
communications tool, as they are imprinted with Bureau's name and 
website.
    Question. What additional steps are proposed in the fiscal year 
2012 budget?
    Answer. The Bureau will continue to look for efficiencies including 
use of technology to reduce travel costs. The Bureau is working with 
the Department for cost effective ways to implement video conferencing 
with our regional offices, which will reduce travel costs over the near 
future. Additionally we are looking to use social media tools to 
promote our message, products and programs and increase the turnout and 
impact of our initiatives.
    Question. The budget proposes appropriations language to enable the 
Women's Bureau to make grants. How much funding and what purposes would 
this authority be used to support?
    Answer. The Bureau anticipates that approximately $500,000 to 
$750,000 of funds currently spent on contracts will be spent on grants. 
The Bureau typically works closely with nonprofits, community and 
faith-based organizations, and educational institutions to meet its 
mission of helping women achieve economic security, providing them with 
the necessary tools to ensure their advancement in the labor force, and 
promoting fair and high-quality work-life environments. These informal 
partnerships have been productive, but grants and cooperative 
agreements would give the Bureau the tools to better achieve its public 
policy and programmatic goals and objectives. This authorization would 
allow the Bureau to fund research, publications, and educational 
efforts that will directly contribute to the Bureau's mission.
    Question. What will the Women's Bureau achieve in terms of workload 
and performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification was based on an 
annualized continuing resolution at fiscal year 2010 enacted 
appropriations. While the final fiscal year 2011 appropriation 
approximated these funding levels, the delay in appropriations creates 
challenges in achieving workload and performance goals. At this point, 
we expect the performance for the Women's Bureau to differ only 
slightly from the fiscal year 2011 information in the fiscal year 2012 
congressional budget.

             OFFICE OF DISABILITY EMPLOYMENT POLICY (ODEP)

    Question. What actions will the Office of Disability Employment 
Policy (ODEP) take in fiscal year 2011 to create efficiencies and 
realize other cost savings in pursuing the agency's mission? What 
additional steps are proposed in the fiscal year 2012 budget?
    Answer. In fiscal year 2011 ODEP will create efficiencies and 
realize costs savings by focusing on the priority activities that we 
believe will yield the greatest impact on low labor force participation 
and high unemployment rates. This will allow ODEP to shift resources to 
key problem areas and, in some cases, increase resources to conduct 
policy development and expand technical assistance and dissemination 
efforts. For example, we plan to transition some programs and 
initiatives to other Federal agencies who are better positioned to 
administer them. For example, ODEP efforts related to two initiatives--
United We Ride and America's Heroes at Work--will be reduced as other 
agencies assume greater responsibility for these.
    ODEP is proposing additional steps in fiscal year 2012 to 
concentrate its efforts on those key factors most likely to yield 
significant results. By utilizing proven strategies focused on our 
priority areas, ODEP will direct and redirect its resources to maximize 
impact. Also, in fiscal year 2012, ODEP intends to increase its 
reliance on the National Employer Technical Assistance Center (NETAC) 
which has knowledge of ODEP's policy products and utilizes a consortium 
approach to leverage access of national organizations to employers and 
stakeholders. By relying on NETAC and its partners, ODEP can extend its 
reach and ability to rapidly disseminate information and provide 
technical assistance. ODEP expects to realize operational efficiency 
and cost savings by tapping into NETAC's existing knowledge, 
infrastructure and capacity to reach more than 4,000 employers 
(including the Federal Government and its contractors), service 
providers, and other stakeholders likely to adopt and implement 
effective practices.

                    DOL'S CIVIL RIGHTS CENTER (CRC)

    Question. Please provide information on the findings from the new 
review process of State Methods of Administration and the assistance 
that will be provided to help States and the One Stop System meet the 
needs of all customers or potential customers, including individuals 
with disabilities.
    Answer. The WIA nondiscrimination regulations require each Governor 
(or his/her designee) to prepare and submit to DOL's Civil Rights 
Center (CRC) a document known as a Methods of Administration (MOA) plan 
for ensuring that all WIA Title I financially assisted State programs 
comply with the civil rights laws enforced by CRC, including the laws 
protecting individuals with disabilities. Additionally, every 2 years, 
the Governor is required to review the MOA to determine whether it 
needs to be updated in order for the State to be in full compliance. If 
updates are necessary, the Governor must make and submit them; if no 
updates are necessary, the Governor must certify in writing that the 
previous MOA remains in effect.
    Until recently, review of the MOA documents was CRC's primary 
method of assessing whether each Governor was satisfying his/her 
oversight responsibilities. Within the past 2 years, CRC has shifted 
the emphasis of its reviews to determining whether the actions 
described in the plans are actually being implemented.
    CRC offers recipients a number of different types of technical 
assistance and training. The agency's website, which underwent a major 
reorganization in fiscal year 2010, contains compliance assistance 
tools and training courses on a number of nondiscrimination-related 
topics, including disability issues. CRC staff members provide 
individualized compliance assistance and information, upon request, to 
congressional staff, State- and local-level Equal Opportunity Officers, 
Disability Program Navigators, Job Corps administrators and staff, 
other DOL managers and employees, representatives from other Federal 
departments and agencies, members of the public seeking information 
about civil rights laws, and a host of other persons from CRC's 
internal and external customer base. This assistance and information is 
generally provided by phone or e-mail, and occasionally in person. 
(Note: The majority of technical assistance requests CRC receives are 
with regard to disability issues, such as the lawfulness of disability-
related inquiries.)
    With regard to training, CRC continues its policy of delivering 
training courses and workshops at State- or Local Area-sponsored 
training events, tailored to the specific issues of concern to the 
audience. In recent months, the agency has leveraged limited resources 
by providing these courses and workshops remotely, via webinar and 
audio conference; live delivery will take place as budgets permit. In 
addition, CRC will offer its 22nd Annual National Equal Opportunity 
Training Symposium from August 30 through September 2 in Crystal City, 
Virginia. The 2010 event drew approximately 350 State- and local-level 
EO Officers and staff, as well as administrators and staff of the One-
Stop workforce development system; Job Corps staff and contractors; and 
other stakeholders.
    Question. What will the ODEP achieve in terms of workload and 
performance in fiscal year 2011?
    Answer. The fiscal year 2011 information and data provided in the 
fiscal year 2012 congressional budget justification was based on an 
annualized continuing resolution at fiscal year 2010 enacted 
appropriations. Since the final fiscal year 2011 appropriation closely 
approximated these funding levels, the delay in appropriations is not 
expected to create any significant challenges in achieving workload and 
performance goals. At this point, we do not expect the performance for 
the Office of Disability Employment Policy (ODEP) to differ 
significantly from the fiscal year 2011 information in the fiscal year 
2012 congressional budget justification.

            EMERGING INDUSTRIES AND HIGH GROWTH OCCUPATIONS

    Question. The prediction of emerging industries and high growth 
occupations is essential to effective workforce development. What are 
the current ways that ETA is using labor market information to improve 
workforce services such as job search, career counseling and training?
    Answer. We agree that labor market information (LMI) including 
information about emerging industries and high growth occupations is 
necessary to ensure that job seekers, career changers, and strategic 
planners have the labor market intelligence they need to make sound 
training, education, and economic development investments. This past 
year, ETA launched two new creative and useful electronic tools: 
mynextmove.org which is a career exploration site for individuals 
entering the labor market and myskillsmyfuture.org which quickly shows 
unemployed workers what other jobs need their skill sets.
    ETA takes several actions to assure that State and local workforce 
investment boards, One-Stop Career Centers, partner agencies, job 
seekers, and businesses have a wide variety of reliable and comparable 
labor market data and information. ETA provides annual funding from the 
Workforce Information-National E-Tools and Capacity Building budget 
line to the States and territories and consortia of States to support 
the collection and dissemination of state and local labor market 
information, including:
  --Production at the State and local levels of 2- and 10-year industry 
        and occupational employment projections;
  --Population of the Workforce Information Database that facilitates 
        the sharing among the States of comparable data sets on wages, 
        licenses, credentials, military to civilian occupational cross 
        walks, employer location and contact information, etc.;
  --Maintenance and expansion of the occupational information network 
        (O*NET) that documents occupational skills, competencies, and 
        detailed work activities including new, emerging, or evolving 
        occupations such as green jobs; and
  --Universal access to the LMI data described above and a variety of 
        other data through state LMI web sites and via national 
        electronic tools including the Career One Stop portal at 
        www.CareerOneStop.org and ONET Online at http://
        www.onetonline.org/. These websites and portals receive more 
        than 38,000,000 customer visits per year.
    In addition, in 2009, ETA provided nearly $50,000,000 in ARRA 
competitive grants for State LMI Improvement grants to 24 States and 
six consortia. While most projects continue to operate, to date the 
States have:
  --Conducted numerous State- and local-level surveys to measure green 
        jobs and the impact green jobs are having on their States' 
        economies, and to identify education and training programs that 
        support skills acquisition for emerging industries and 
        occupations;
  --Researched the use of ``Real Time'' LMI (job openings data 
        collected daily and aggregated from the Internet job banks and 
        corporate websites) to enhance 2-year and 10-year projections 
        and to make more job opportunity data available to job seekers;
  --Conducted research on green jobs skills with the goal of aiding 
        dislocated workers' transition from declining to transforming 
        and emerging industries; and
  --Developed new tools and improved access to workforce and LMI data 
        in the labor exchange operations within the One-Stop Career 
        Centers.
    Question. How is the Department working to improve the use or 
availability of this information to make quality and timely 
predictions?
    Answer. One of the State LMI Improvement grants, noted in the 
response to SSEC 37, was awarded to the Projections Managing 
Partnership consortia of States to re-write and enhance the State and 
local industry and occupational short-term (2 years) and long-term (10 
years) software suite that States use to inform training, education, 
and economic development investment decisionmaking. This is now 
available to all States to produce the occupational projections. In 
addition, the consortia made enhancements to add the skills that will 
be in demand by combining the projected occupational growth and O*NET-
defined skills.
    In September 2010, the Department released a new skill 
transferability tool specifically designed for direct use by dislocated 
workers who have skills and work experience but need to change jobs to 
adapt to the changes in their local economy. Called 
myskillsmyfuture.org, this site uses simplified navigation, language, 
and integrated information resources to provide a seamless experience 
for dislocated workers. Similarly, for individuals who are exploring 
careers, the Department released a site in February 2011 with 
simplified language, and an online 60-question interest assessment tool 
that makes the O*NET occupational profiles easier to access and use, 
while ultimately still linking to the additional detail available 
through O*NET OnLine. This tool is found at mynextmove.org.

                ADULT EMPLOYMENT AND TRAINING ACTIVITIES

    Question. The fiscal year 2012 budget request indicates that the 
Department will increase the rate of industry-recognized credential 
attainment among customers receiving training. What is the strategy for 
increasing credential attainment and how will the Department measure 
its progress on this goal?
    Answer. The Secretary of Labor has set a high priority performance 
goal of increasing by 10 percent the number of workforce program 
participants who attain industry-recognized credentials. To support 
this goal, the Employment and Training Administration has issued 
guidance to the system (Training and Employment Guidance Letter 15-10), 
provided technical assistance through webinars and other means, and 
invested in promising program models. A summary of this activity 
follows:
    ETA, with its partner agencies in Education and Health and Human 
Services, supports the increase of credential attainment through the 
development of career pathway systems. Through strong alignment of 
education, training and employment services among public agencies and 
with employers, career pathway approaches better enable low-skilled 
adults and other hard-to-serve populations, students, and workers, to 
succeed in postsecondary education and earn in-demand, industry-
recognized credentials that place them on a career ladder. Through 
discretionary grants and technical assistance efforts, ETA is working 
with community colleges, State workforce systems and others to develop 
career pathway models that link education and training to advancement 
along a specific track. For example, one career pathway includes bridge 
programs to assist Certified Nursing Assistants to become Licensed 
Practical Nurses.
    ETA also focuses on strengthening programs like Job Corps and 
YouthBuild that help young people earn valuable occupational 
credentials while completing high school and Registered Apprenticeship 
programs that provide participants a valuable credential while earning 
wages on the job.
    Through the Trade Adjustment Assistance Community College and 
Career Training Initiative, the Department of Labor will make a large 
investment in building the capacity of community colleges and other 
eligible higher education institutions to design programs that meet the 
needs of trade-impacted workers. These programs will be designed to 
meet the needs of non-traditional, eligible students for flexible 
scheduling, easy entry and exit from programs, accelerated remediation 
through contextualization, integrated academic and occupational 
training, on-line courses, and more. They will reflect evidence-based 
strategies that have proven effective, or test strategies that have 
promise.

          DISLOCATED WORKER EMPLOYMENT AND TRAINING ACTIVITIES

    Question. Dislocated Worker National Emergency Grants (NEGs) are 
sometimes used to create employment opportunities for dislocated 
workers to assist with clean up from natural disasters. What portion of 
fiscal year 2010 NEGs was used for these purposes and how many 
dislocated workers received employment opportunities through these 
grants?
    Has the use of NEGs for this function increased over time?
    Answer. As fiscal year 2010 appropriations fund Program Year (PY) 
2010 activity for National Emergency Grants (NEGs), we are providing 
responses based on disaster NEG activity thus far in PY 2010 (PY 2010 
began July 1, 2010 and ends June 30, 2011).
    Within the National Reserve, the fiscal year 2010 appropriation 
provided $190,919,666 for NEGs. As the table below shows, the 
Department has awarded 18 disaster NEGs and funded two increments for 
prior year disaster NEGs, for a total $79,893,327. Of the amount 
awarded, $69,041,816 was funded, which is about 36 percent of the 
almost $191 million available for NEGs in PY 2010 and 55 percent of the 
$126,544,605 awarded to date. An estimated 6,180 individuals will 
receive temporary employment opportunities and reemployment services 
through these NEGs. A number of these NEGs are too recent to have 
completed their final planning/hiring, so we have presented their 
participant estimates in italics.
    Disaster NEG funds provide funding to create temporary jobs to 
support clean-up and recovery efforts. These efforts can fluctuate 
widely depending on the number, severity, and type of natural disasters 
that occur in any given year. Activity in PY 2010 is slightly above 
average. However, it doesn't compare to Hurricane Katrina/Rita efforts, 
where Louisiana alone spent $43,599,160 to provide 7,502 disaster 
affected workers temporary employment and reemployment services.
    As indicated, we are still within the program year, and it is 
customary for State applications to come in late in the program year as 
formula funds are depleted. As a result of this practice, together with 
recent weather emergencies, the Department currently has applications 
that exceed the remaining funds for NEGs and we expect the entire 
appropriation to be awarded.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                              Amount
State                        Project                         New or incremental        Approval date       approved (up    Amount funded   Participants
                                                                   funding                                   to award)
--------------------------------------------------------------------------------------------------------------------------------------------------------
   KYKY-Severe Storms, Tornadoes, and Flooding           New...................  6/6/2011.............      $4,276,514      $4,276,514             317
   OKOklahoma Severe Storms and Tornadoes                New...................  6/1/2011.............        $471,150        $471,150              26
   MOMO Severe Storms, Tornadoes and Flooding 2011       New...................  5/27/2011............      $5,822,352      $5,822,352             404
   ARSevere Storms, Tornadoes and Associated Flooding    New...................  5/26/2011............      $3,758,327      $3,758,327             249
   TNTN-Disaster-Storms, Tornadoes, Flooding             New...................  5/23/2011............      $3,589,704      $3,589,704             480
   CACalifornia Tsunami Waves                            New...................  5/11/2011............      $6,498,100      $6,498,100             271
   GAGeorgia Tornado and Storm Disaster                  New...................  5/11/2011............      $5,000,000      $5,000,000             300
   MSMS-Disaster-Severe Storms, Tornadoes, Straight-     New...................  5/9/2011.............      $7,000,000      $7,000,000             525
      line Winds, and Associated Flooding
   ALSevere Storms, Tornadoes, Winds, & Flooding         New...................  5/4/2011.............     $10,000,000     $10,000,000             800
      Disaster
   OROregon Tsunami Wave Surge 2011                      New...................  4/15/2011............        $284,023         $94,674              15
   ORSTORMS 2011                                         New...................  3/18/2011............        $176,904        $176,904              10
   CA2010 California Severe Storms                       New...................  2/23/2011............     $11,267,940      $3,755,980             252
   ARStorms October 2009                                 Increment.............  12/10/2010...........  ..............          $8,494             119
   PRTropical Storm Otto                                 New...................  11/23/2010...........      $4,000,000      $4,000,000             607
   MNSouthern MN 2010 Flood                              New...................  11/8/2010............      $1,160,391        $580,195              29
   IASevere Storms/Flooding/Tornadoes 2010               New...................  9/22/2010............      $5,800,000      $2,000,000             126
   TNSevere Storms and Flooding                          Increment.............  9/14/2010............  ..............      $2,921,500             670
   TXHurricane Alex Flooding                             New...................  9/14/2010............      $5,849,481      $5,849,481             416
   KYEastern Kentucky Severe Storms, Flooding and        New...................  8/27/2010............        $938,441        $938,441              57
      Mudslides
   PRSevere Storms and Flooding                          New...................  7/22/2010............      $4,000,000      $2,300,000             507
                                                        ------------------------------------------------------------------------------------------------
           Totals                                        ......................  .....................     $79,893,327     $69,041,816           6,180
--------------------------------------------------------------------------------------------------------------------------------------------------------

                               YOUTHBUILD

    Question. As you know, as a result of the significant funding 
constraints on the fiscal year 2011 continuing resolution, the 2011 
funding level for YouthBuild represents a significant reduction to the 
program. Specifically, the program was funded at $80 million--a $23 
million or 22 percent reduction. On May 17, 2011, the Department 
announced 74 grantees that will receive funding under the fiscal year 
2011 appropriation for YouthBuild. How many existing YouthBuild 
grantees have lost funding as a result of the reduction and how many of 
the 74 awards are going to new grantees not previously funded by the 
Department?
    Answer. With fiscal year 2009 and American Recovery and 
Reinvestment Act Funds (ARRA), a total of 183 grants were funded by the 
Department of Labor (DOL). In fiscal year 2011, a total of 74 grants 
were awarded, of which two went to organizations not previously awarded 
grants by DOL. This means that 72 previously funded grantees were 
refunded through the 2011 competition. Therefore, 111 grantees were not 
refunded in the most recent competition.
    Question. In the past the Department has tended to fund YouthBuild 
grants on a 2-year basis. Has that approach changed as a result of the 
lower funding level in fiscal year 2011?
    Answer. With fiscal year 2011 funds, the Department of Labor (DOL) 
awarded 74 YouthBuild grants that are for 2 full years of program 
services. These grants were provided the full amount from the fiscal 
year 2011 funds. This plan was outlined in Solicitation for Grant 
Application announced in October, 2010 and was not a result of the 
lower funding level.

                               JOB CORPS

    Question. The fiscal year 2011 continuing resolution included a $75 
million rescission to Job Corps construction and renovation funds. How 
will Job Corps implement that rescission?
    What projects will it impact and will Job Corps go forward with the 
planned construction of centers in Wyoming and New Hampshire?
    Answer. Job Corps had preliminarily identified $75 million from 
previously budgeted, but not obligated, projects. These projects have 
now been placed on hold, subject to available resources, and may be 
designated to receive funding in future Program Years. These projects 
are in one of three categories: (1) projects in which the budgeted 
amount includes the construction phase of the project, (2) projects in 
which the budgeted amount includes the design phase of the project, and 
(3) projects in which the budgeted amount was only partially rescinded.
    The new centers in Wyoming and New Hampshire are still under 
consideration in light of the available funding. Final decisions will 
be made after the Department thoroughly assesses the impact of the 
rescission and concludes a re-evaluation of Job Corps' inventory of 
construction projects.

                       WORKFORCE INNOVATION FUND

    Question. The fiscal year 2011 continuing resolution included $125 
million for a new Workforce Innovation Fund to support innovative new 
strategies or expand evidence-based strategies that align programs and 
strengthen the workforce development system to improve the education 
and employment outcomes for job seekers and workers, youth, and 
employers. What are the Department's plans for these awards in terms of 
the timing of the solicitation and awards and the likely number of 
awards?
    What benefits do you see these grants having for the workforce 
investment system and how would these initial grants tie to the 
President's fiscal year 2012 request for Workforce Innovation Funds?
    Answer. While the precise timeline is still being discussed, ETA is 
pursuing an aggressive timeline to prepare for publication of the first 
Workforce Innovation Fund (WIF) Solicitation for Grant Applications. To 
ensure that our final product draws fully on the experience and 
knowledge of stakeholders and is capturing the most innovative and 
promising approaches, the Department has commenced an intensive 
stakeholder engagement strategy which includes outreach to Federal 
partners, including the Departments of Education and Health and Human 
Services and the Office of Management and Budget; State and local 
workforce organizations; intergovernmental organizations and 
associations; Senate and House Committees (Authorizing and 
Appropriations); and foundations and the research community. ETA is 
using a mix of face-to-face discussions and webinars to encourage broad 
participation; it has established a general e-mail account 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="681f071a030e071a0b0d46010606071e091c010706280c0704460f071e">[email&#160;protected]</a>) where stakeholders can post ideas and 
feedback. ETA will determine the size and scope of grants after 
analyzing information from the consultations.
    The WIF offers a unique opportunity to test innovative workforce 
strategies that lead to system change. While the fiscal year 2011 
budget provides only a brief description of the WIF, the fiscal year 
2012 budget request provides additional information and outlines the 
intent and purpose. Specifically, the administration intends that the 
Fund:
  --invest in projects that deliver services more efficiently and 
        achieve better outcomes, particularly for vulnerable 
        populations and dislocated workers;
  --support both structural reforms and the delivery of services;
  --emphasize building knowledge about effective practices through 
        evaluation;
  --translate into improved labor market outcomes and increased cost 
        efficiency and other measures in the regular formula programs; 
        and
  --facilitate the use of waivers where necessary to achieve better 
        outcomes and facilitate cooperation across programs and funding 
        streams.
    In fiscal year 2011, the Department is the sole contributor to the 
fiscal year 2011 Workforce Innovation Fund. Therefore, the first year 
of funding on innovation strategies will directly benefit Title I and 
III (Workforce Investment System and Wagner-Peyser Employment Service) 
programs, although proposals to improve coordination with Title II and 
IV, and other Federal programs would be in line with goals for system 
reform. If joint funding with the Department of Education is achieved 
in fiscal year 2012, the Department will have a solid framework from 
which to expand to the other WIA title programs.

        COMMUNITY SERVICE EMPLOYMENT FOR OLDER AMERICANS (CSEOA)

    Question. The President's fiscal year 2012 budget proposes the 
transfer of CSEOA to the Department of Health and Human Services' 
Administration on Aging. What has been the reaction to this proposal of 
the national nonprofit agencies who administer the majority of these 
grant funds?
    Have you received a lot of comments from those entities, what are 
their concerns and how are you addressing their concerns in your 
transition planning?
    Answer. The Department has received very few direct comments from 
grantees. However, we have arranged two conference calls for the 
Assistant Secretaries of the Department of Health and Human Services 
(HHS) Administration on Aging (AoA) and the Department of Labor 
Employment and Training Administration to speak with the national 
grantee directors and with all grantees to address any concerns. 
Questions in advance of and during the calls largely centered on how 
the program would work if it went to AoA, and what kind of changes AoA 
anticipated making in how the program is structured and funds are 
allocated. Both Assistant Secretaries assured grantees that the 
Departments would work collaboratively to ensure that the proposed 
transfer would be as seamless as possible, with collaboration and 
consultation at the staff level already underway. This would include 
coordination on the statutorily required national grantee competition 
planned for late 2011, with operations under these new grants effective 
in 2012.
    Question. Also, as the budget notes, the majority of State CSEOA 
programs are housed within offices on aging, senior services or health 
and human services departments. What will the transfer of this program 
mean for the 17 States where that is not the case, where CSEOA programs 
are housed in labor departments and how will DOL and HHS ensure a 
smooth transition for those grantees?
    Answer. Under the Older Americans Act, Governors have complete 
discretion on where within the State bureaucracy the CSEOA program is 
housed. Program services, performance goals, program structure, 
coordination requirements, etc., are not dependent on whether the 
program is administered at the State level by either a Labor or HHS 
State agency. Because CSEOA has a dual focus on job training and 
community service, it can be effectively run by either the Labor or HHS 
State agency.
                                 ______
                                 
            Questions Submitted by Chairman Daniel K. Inouye

        WORKFORCE INVESTMENT ACT (WIA) WORKFORCE INNOVATION FUND

    Question. Are the innovation grants proposed in the fiscal year 
2012 budget intended to inform the Employment and Training 
Administration's (ETA's) reauthorization efforts or are they a 
component of ETA's ongoing efforts to improve program functioning?
    Answer. This Fund represents a small but crucial investment in 
innovative, evidence-based and cost-saving workforce strategies to 
strengthen outcomes for both workers and employers. This Fund will 
benefit future WIA formula-funded activities by moving the public 
workforce system toward better results and more cost effective delivery 
that can be replicated broadly across the workforce system. In 
addition, while evidence developed over the next few years may not be 
available in time to inform an imminent WIA reauthorization, it would 
inform future WIA reauthorizations and administrative guidance issued 
by the Department.
    Question. Are the proposed innovation grants multi-year grants and 
would they require funding in subsequent years? If these proposed 
innovation grants are intended as multi-year grants, what are the 
proposed periods (e.g., 3 years, 5 years)?
    Answer. Grant funds are available for Federal obligation through 
September 30, 2012; the appropriation remains available for recording, 
adjusting, and liquidating obligations properly chargeable to the WIF 
account until September 30, 2017. Assuming a 1 year close out period, 
grants could be provided for a period of up to 5 years. Senators Harkin 
and Murray have recommended a 2-3 year period of performance. While 
this aligns with our typical grant award period, and will adequately 
accommodate front-line service delivery reforms, such a time period may 
not be sufficient for a State or regional partnership to make 
structural or systemic changes at the State or local level and observe 
how those changes increase efficiency or quality in service delivery. 
Currently, the Department is engaged in intensive stakeholder 
consultations for the WIF which will provide more information around a 
practical timeframe of grant availability.
    Question. Will the proposed reduction in the Governors Reserve from 
15 percent to 7.5 percent of State formula grant allocations affect the 
ability of Governors to carry out required statewide activities within 
the WIA system?
    Answer. It is possible that the reduction in the Governor's Reserve 
will cause States to scale back on some statewide activities, including 
performance incentives to local areas. The fiscal year 2011 Full-Year 
Continuing Appropriations Act reduced the Governor's Reserve from 15 
percent to 5 percent, which will provide a test case to determine how 
States prioritize their statewide activities with fewer available 
resources. For the fiscal year 2011 funds, the Department has advised 
States to consider investments in statewide activities central to State 
management such as reporting or those that provide direct services to 
participants ahead of other required activities. States that are unable 
to carry out all required activities due to a lack of funds may apply 
for a waiver to allow for a temporary exemption from the requirement to 
carry out some of the required statewide activities, such as 
performance incentives and evaluations.

                     UNEMPLOYMENT COMPENSATION (UC)

    Question. What has DOL done to discourage States from reducing the 
number of weeks that unemployed workers can receive regular 
unemployment compensation (UC) benefits?
    Answer. The Federal-State UC program is a cooperative arrangement 
between the Federal Government and the States providing income support 
to individuals who meet the eligibility requirements of State law. 
Federal UC law establishes broad requirements that State laws must 
meet. Otherwise, States are free to establish the requirements of their 
own UC laws. Federal law has never included any requirements concerning 
weeks of benefits payable. Thus, DOL has no official role in mandating 
the number of weeks of benefits that States provide; we implement laws 
passed by Congress. Additionally, we note that until the American 
Recovery and Reinvestment Act, Federal law had never included any 
requirements concerning weekly benefit amounts. Currently States that 
have agreed to operate the Emergency Unemployment Compensation (EUC) 
program on behalf of the Federal Government (and all States currently 
do) are prohibited from reducing their weekly benefit amounts. The EUC 
program is currently set to expire December 31, 2011, with phase out 
completed by June 9, 2012.
    There are potential consequences if States reduce the number of 
weeks of benefits available. Specifically, the benefit amounts 
available under the permanent extended benefits (EB) program and the 
temporary emergency unemployment compensation (EUC) program are reduced 
if individuals received fewer than 26 weeks of regular UC. DOL has 
informed States considering such benefit reductions of the impact on 
EUC and EB benefit amounts that would be available to eligible 
individuals in their States.
    Question. Will the administration support the reauthorization of 
the Emergency Unemployment Compensation (EUC08) program before it 
expires in January 2012? Would the administration support an extension 
of 100 percent Federal financing for Extended Benefits (EB) beyond 
January 4, 2012?
    Answer. When people lose their jobs our Unemployment Insurance 
system provides crucial support for both the recipients and their 
communities. We've seen in every recession how important these benefits 
are not just in helping to keep food on the table and roofs over 
peoples' heads, but they provide an automatic stabilizer for our 
economy. Each dollar paid out in UI benefits generates $2 in economic 
activity, which means that helping the jobless prevents joblessness.
    The extension of Emergency Unemployment Compensation (EUC) and 100 
percent Federal financing of Extended Benefits--that we pushed for and 
passed as part of the broadly supported tax agreement in December--have 
been very important for our economy. They are helping 7 million 
Americans support themselves while looking for work who would otherwise 
have seen their benefits expire and supporting the businesses in their 
community. The Council of Economic Advisers estimates that these 
extensions of Federal support for unemployment insurance will create 
600,000 jobs this year.
    As we continue to work every day to put Americans back to work, we 
are looking at a wide variety of options. The extension of Unemployment 
Insurance benefits is also one of the ideas that should be analyzed 
economically and discussed with all Members of Congress as we go 
forward.
    Question. Does the administration favor adding another Tier of 
emergency UC benefits to the Emergency Unemployment Compensation 
program (EUC08)?
    Answer. Whether Unemployment Insurance benefits should be expanded 
is worth both analyzing economically and discussing with all members of 
Congress as we go forward.

                            DAVIS-BACON ACT

    Question. What are Department of Labor's plans to improve 
implementation of the Davis-Bacon Act?
    Answer. In fiscal year 2010, the Wage and Hour Division (WHD) re-
engineered its Davis-Bacon wage survey processes to improve the quality 
and timeliness of wage determinations published by the agency. For 
example, we are now utilizing State prevailing wage determinations as 
the basis for issuing more current highway wage rates. This change, 
coupled with improvements to the survey process, has positioned the 
agency to complete during fiscal year 2011 all surveys that are 
currently in the pipeline.
    WHD continues to improve the IT system used for Davis-Bacon wage 
determinations and to re-engineer its wage determinations processes in 
order to improve the timeliness and accuracy of wage determinations. We 
are also building upon previous efforts to revamp and enhance 
performance measures and goals, as well as increase our numbers of 
trained and experienced survey staff. We believe all these efforts will 
produce more responsive and representative survey results that will 
lead to more accurate and timely wage determinations.
    Question. What resources would DOL need to ensure that Davis-Bacon 
wage determinations are accurate and up-to-date?
    Answer. The Department's budget does not include a request for 
additional resources for Davis-Bacon wage determinations. Process 
changes in conducting wage surveys are currently being implemented. 
These changes should enable the Wage and Hour Division to update and to 
keep current wage determinations nationwide.
    Question. How will the administration's proposed cut to the 
Community Service Employment for Older Americans program affect 
services to older, low-income Americans?
    Answer. The fiscal year 2011 budget allocation has already reduced 
program funding to the level proposed in the fiscal year 2012 budget. 
It will mean an approximate 25 percent reduction in funding and 
services to unemployed, low-income seniors starting in PY 2011, as 
compared to PY 2010 regular funding. However, grantees are already 
implementing management strategies to help ensure that the impact of 
the severe funding reductions on current CSEOA participants is 
minimized in so far as possible. Grantee strategies include eliminating 
new enrollments, cutting back on hours of paid community service 
training for individual participants, and restricting any time 
extensions for current participants beyond the new statutory 48 month 
participation limit that starts on July 1, 2011.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                      EVALUATIONS AND PERFORMANCE

    Question. Duplicity and ineffectiveness are two claims that have 
been levied against Federal job training programs recently, mostly in 
response to the release of a GAO report earlier this year. However, 
most of the inquiries I've heard into these claims never got to the 
heart of the matter. I believe that accountability and performance are 
too important not to address the issue fully.
    I'd like to ask about the evaluation required under Sec. 172 of the 
law. To your knowledge, why, under the Bush administration, didn't the 
Department complete the multisite control group evaluation of WIA 
formula programs by fiscal year 2005 as required by statute?
    Has the Obama administration made such an evaluation a priority?
    Answer. While rigorous random assignment impact studies provide the 
most credible information on program effectiveness, these also are 
highly resource intensive and take a minimum of 5 years to implement 
and complete. The Bush administration had several policy proposals to 
change WIA, and while we cannot answer with certainty why decisions 
were made, it is our understanding that the Bush administration viewed 
the WIA program as a program undergoing a transition. It generally is 
advisable not to conduct an evaluation of a program undergoing 
transition, as it could result in incorrect conclusions.
    While it is unfortunate that we do not have evaluation results from 
that period in time, in 2008, the Department commissioned the rigorous 
WIA Gold Standard Evaluation of the Adult and Dislocated Worker 
Programs (WGSE). This study will use a control group to measure the 
impact of the WIA adult and dislocated worker formula programs at 
nearly 30 randomly selected sites. The study's results will be 
available in 2016, although this schedule is dependent upon continued 
appropriations for the evaluation of WIA programs.
    Question. I'd like to ask about the other evaluations that the 
Department has undertaken under the authority of Sec. 172. Another 
recently released GAO report noted that ETA released 34 reports to the 
public in 2008, 20 of which had waited between 2 and 5 years to be 
approved for public release. GAO goes on to note that several of those 
reports would have been useful for the workforce system.
    To your knowledge, why didn't the Bush administration release those 
findings and reports earlier?
    How has the Obama administration worked to address the criticisms 
leveled by GAO concerning it research and evaluation activities for WIA 
programs?
    Answer. As I understand it, the Bush administration argued that 
those studies were flawed. What I can tell you is that the GAO's March 
2011 report discussed the marked improvement in the dissemination of 
research reports by the Employment and Training Administration under my 
leadership at the Department of Labor. The GAO noted that, ``The 34 
research reports published by ETA in 2008 took, on average, 804 days 
from the time the report was submitted to ETA until the time it was 
posted to ETA's research database. By, contrast, from 2009 through the 
first quarter of 2010, the average time between submission and public 
release was 76 days, which represents a more than 90 percent 
improvement in dissemination time compared with 2008.''
    The Department has also worked diligently over the past 2 years to 
increase the rigor of its evaluation studies. For example, I created 
the Chief Evaluation Office (CEO), which was staffed in May 2010. The 
purpose of this office is to coordinate the Department's research and 
evaluation agenda in order to increase its capacity to conduct high 
quality, rigorous evaluations.
    In addition, since 2009, about half the evaluations the Employment 
and Training Administration (ETA) has funded have been rigorous, random 
assignment impact evaluations. These include: (a) the Workforce 
Investment Act (WIA) Gold Standard Evaluation of the Adult and 
Dislocated Worker Programs (WGSE); (b) the YouthBuild Impact 
Evaluation; (c) the Reintegrating of Ex-Offenders Random Assignment 
Evaluation; (d) the Impact Evaluation of Green Jobs, Health Care and 
High Growth Training Grants; and (e) the Transitional Jobs Impact 
Evaluation. Each of these evaluations will examine net impacts on 
employment, retention and earnings, and include benefit-cost analyses. 
ETA was able to fund these evaluations through an increase in fiscal 
year 2010 appropriations and the large one-time infusion of funds made 
available to the Department through the American Recovery and 
Reinvestment Act of 2009.
    While rigorous random assignment impact studies, such as the WGSE, 
provide the most credible information on program effectiveness, they 
also are highly resource intensive. Mindful of the statutory 
responsibility and to address the knowledge gap until the WGSE results 
are available, in 2009 the ETA released the results of a quasi-
experimental net impact evaluation of the WIA Adult and Dislocated 
Worker programs.\1\ This study uses the next-best methodology when 
random assignment is not available. This evaluation found positive 
long-term earnings impact for both programs. ETA plans to publish 
interim findings of the WGSE in 2013, and the final report will be 
available in 2016.
---------------------------------------------------------------------------
    \1\ The Workforce Investment Act Non-Experimental Net Impact 
Evaluation: Final Report may be found at ETA's Research Publication 
Database Web site.
---------------------------------------------------------------------------
    In addition, random assignment evaluations may not always be 
possible when the law requires that people receive services as is the 
case in many entitlement programs such as the Unemployment Insurance 
(UI) program. In November 2010, ETA released a study which used 
nationally representative tax and benefit data in a prominent 
macroeconomic model, which provided new evidence reaffirming the value 
of UI as an automatic economic stabilizer during the latest 
recession.\2\
---------------------------------------------------------------------------
    \2\ The Role of Unemployment Insurance As an Automatic Stabilizer 
During a Recession may be found at ETA's Research Publication Database 
Web site.
---------------------------------------------------------------------------
    Question. I'd like to address the lack of performance information 
argument. Does the Department collect performance data on WIA formula 
programs? If so, how long has such data been collected and what does it 
reveal about the value of WIA programs?
    Answer. The Department has collected performance information on WIA 
formula programs since its inception. The principal data set, known as 
the Workforce Investment Act Standardized Record Data (WIASRD), records 
a wide range of information about individual program participants, 
including program outcomes for participants after they have exited from 
the program. The outcomes recorded include employment, job retention, 
and earnings, as well as attainment of education, credentials, and 
skills.
    Other information collected includes individual demographic 
information and data about participation in and services or other 
assistance received through WIA or partner programs. The full list of 
data elements collected by WIASRD is posted on-line at http://
www.doleta.gov/performance/guidance/WIA/Appendix-A-WIASRD-
Specifications-Expires-02282009.xls.
    Since WIA's inception, the Department has used this information to 
produce and disseminate quarterly and annual performance reports. These 
reports provide aggregate summary information on program exiters and 
their outcomes with respect to the given time periods. These reports 
are available to the public on-line at http://www.doleta.gov/
performance/results/Reports.cfm?#etaqr.
    While this information is highly useful for monitoring program 
performance, it cannot directly provide information regarding the value 
of the programs. However, this information is the primary source of 
data on which program evaluations, cost-benefit analyses and/or impact 
studies are based. On the whole, these studies have provided evidence 
that WIA programs enhance both the employment prospects and future 
earnings of WIA participants.
    As with any performance accountability system, WIA data systems and 
performance metrics could always be improved or expanded. However, WIA 
is certainly not lacking performance information as the WIASRD is a 
rich dataset.

                      INVESTMENT COMPARED TO NEED

    Question. A recent GAO report noted $18 billion was invested in 
Federal employment and training programs in fiscal year 2009, an 
increase of $5 billion since an analysis in 2003. The same report goes 
on to note that after adjusting for inflation, the increase in funds 
equals $2 billion, which is approximately the same amount Congress 
invested in these programs in the American Recovery and Reinvestment 
Act to help address the impact of the Great Recession. I've seen some 
reports that public financing for our workforce development programs 
has actually fallen by 90 percent since the 1970s while our workforce 
has grown by 50 percent.
    However, just looking at recent years, it's my understanding that 
the one-stop delivery system saw a marked increase in use over the last 
several years due to the downturn in the economy. In fact, it 
experienced nearly 234 percent increase in participants. Do you believe 
that Federal investments have matched the increasing need for services 
since 2003?
    Answer. In calendar year 2010, ETA programs served more than 39.1 
million people. The Wagner-Peyser Employment Services (ES) and 
Unemployment Insurance (UI) served 74.6 percent of this total, and 63 
percent of those receiving Unemployment Insurance also received Wagner-
Peyser funded Employment Services. ETA's other programs provided more 
comprehensive services to over 9.9 million people in 2010. The high 
level of participants reflects the continued demand for temporary 
income support, training and employment services including job search 
assistance, and the impact of the American Recovery Act and 
Reinvestment Act funding.
    While many of ETA's current workforce programs existed in 2003, we 
are not able to make a direct comparison between the number of 
individuals served in 2010 with those served in 2003 due to a changing 
number of workforce investment programs authorized and appropriated by 
the Congress. It also is important to note that the $18 billion 
invested in Federal employment and training cited by the Government 
Accountability Office includes the one-time $2 billion infusion of 
funding from the American Recovery and Reinvestment Act. Without these 
funds, there will be a significant decrease in individuals who receive 
WIA services.
    Adequate funding is important; there are many individuals eligible 
for WIA services that the system could serve with additional funding. 
In addition, increasing the number of participants who acquire 
industry-recognized credentials through longer-term training means 
higher cost services; and funding evaluations to assess the 
effectiveness of alternative approaches requires significant resources. 
However, these needs must be balanced with the current economic 
environment, and the acknowledgment that the Federal Government must 
live within its means. This requires that investments be strategic and 
focus on increasing efficiency and alignment with existing Federal 
resources. For example, the new Workforce Innovation Fund supports the 
identification and replication of innovative, evidence-based and cost-
saving workforce strategies.
    The range of such investments can build on technological advances 
(e.g., using online resources to reach more people), system flexibility 
measures such as waivers, partnerships, and guidance on aligning or 
leveraging resources to help State and local workforce investment 
programs deliver cost effective and high quality services to job 
seekers and worker and employers.

                       ADMINISTRATIVE STRUCTURES

    Question. Another claim we often hear about job training programs 
is multiple administrative structures and lack of strategic approach to 
planning at the State level. To help address this issue, we've heard 
about the value of unified planning and common performance measures as 
ways to reduce administrative burden while promoting a better 
understanding about the value of these programs. How does the 
Department propose to address these concerns?
    What value do you see in unified planning and the use of common 
measures?
    Answer. The Workforce Investment Act of 1998, Section 501 allows 
States to submit a single Unified Plan to satisfy the planning 
requirements of multiple employment and training programs. ETA 
currently is redesigning and streamlining the Unified State Plan 
requirements in order to improve strategy-focused planning and promote 
improved alignment and integration of workforce and other relevant 
programs. ETA is working with States to gather ideas and feedback on 
how the current State planning process could be improved without any 
changes in law. We hope that encouraging more strategic and joint 
planning among States will prepare the states for any reauthorized WIA 
that enhances planning provisions. ETA will encourage more States to 
engage in unified planning leading to improved outcomes across programs 
(as captured by the common measures) and resource utilization. Common 
measures and unified planning are complementary tools that can support 
State and Federal efforts to better align planning with performance 
measurement and make each process more effective and efficient.
    ETA anticipates sending revised planning guidance to States in 
December 2011 that will facilitate the inclusion of multiple partners 
in the planning process and in the State plan submitted to the 
Department.
    The goals of the effort to redesign State plans are to:
  --Focus State planning on strategy instead of operations and 
        compliance;
  --Better align and integrate workforce programs and strategies with 
        each other and other relevant programs (e.g., training 
        providers, education, and economic development);
  --Streamline various paperwork processes;
  --Encourage strategic thinking and creating workforce strategies that 
        focus on skills training and credential attainment; and
  --Use current labor market information and economic indicators to 
        place newly trained individuals into career pathway employment 
        opportunities and track retention through wage record 
        information.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. Your testimony this morning reflects the administration's 
commitment to keep annual domestic spending low by building on the 
recently enacted continuing resolution that defined spending levels for 
the remainder of fiscal year 2011 and to make the tough cuts necessary 
to achieve these savings. Can you identify the additional cuts that 
would be needed to make the fiscal year 2012 DOL budget request before 
us consistent with the deficit reduction framework President Obama 
announced last month?
    Answer. The President's fiscal year 2012 budget was transmitted 
before enactment of the final fiscal year 2011 appropriations bill. I 
am aware that there are ongoing bicameral, bipartisan discussions 
between the administration and congressional leadership on the Nation's 
long-term fiscal picture. These conversations, along with the enacted 
fiscal year 2011 appropriations, could impact eventual funding levels. 
The implications of both on the fiscal year 2012 request will be 
evaluated. Nonetheless, the fiscal year 2012 budget request reflects 
the administration's policy priorities and remains a good starting 
point for developing funding levels. We look forward to working closely 
with you as the process moves forward.
    But while the administration is committed to making the tough cuts 
necessary to achieve these savings--including to programs we care 
about--we will not sacrifice the core investments we need to grow and 
create jobs and protect our workforce. We still believe that the fiscal 
year 2012 budget request is a disciplined approach, representing 
responsible spending that supports the most critical investments 
necessary to keep our workforce system moving forward to assist our 
country's businesses and workers. The budget includes key investments 
that are an essential part of the President's commitment to out-
innovate, out-educate and out-build our global competitors, and to 
assure that our workplaces are safe and fair. In short, getting America 
back to work is a top administration priority. As you formulate your 
appropriations bill, I hope we can work together to ensure adequate 
funding for the programs that help us reach that goal.

                  VOLUNTARY PROTECTION PROGRAMS (VPP)

    Question. Currently, there are approximately 96 Voluntary 
Protection Programs (VPP) sites in the State of Louisiana that are 
actively pursuing VPP status in the State of Louisiana. Collectively, 
these sites employ approximately 28,871 workers. The fiscal year 2012 
budget request includes $4 million for Department of Labor's 
Occupational Safety and Health Administration (OSHA) to administer the 
VPP for 2012. How will President Obama's proposed deficit reduction 
framework impact the resources terms of their ability to administer the 
VPP?
    Answer. The fiscal year 2012 request level includes sufficient 
resources to maintain the VPP program, which is included in the Federal 
Compliance Assistance budget activity.
    Question. According to Government Accountability Office report on 
the VPP published in May 2009, approximately 80 percent of VPP 
worksites have fewer than 500 employees. Has OSHA studied and concluded 
separately on the impact on small businesses?
    Answer. The 80 percent figure does not accurately capture the true 
number of actual small businesses because GAO was looking at the size 
of the worksite and not the size of the company owning the worksite. 
For example, many participating U.S. Postal Service worksites have been 
classified as small businesses because they employ 250 or fewer 
employees.
    OSHA has not concluded a separate analysis of the impact of VPP on 
small business because only 99 out of the 1,644 Federal VPP sites (6 
percent) of the total number of VPP sites meet the small business 
definition (250 or fewer employees and are not part of a corporation/
organization with 500 or more employees.)
    Question. What are OSHA's plans to review the impact on small 
businesses that participate in the VPP?
    Answer. While at this time, there are no plans to review the impact 
on small businesses that participate in the VPP, OSHA has formed a VPP 
Workgroup to conduct a comprehensive evaluation of OSHA's VPP in 
response to the May 2009 GAO report. Comprised of Regional and National 
Office VPP personnel, the Workgroup will review such subject areas as 
consistency in VPP administration, response to fatalities and 
documentation following fatalities, effective use of limited resources, 
recertification of current VPP sites, and training, communication, and 
cost of administering the VPP. The review process will involve 
interviews of OSHA VPP staff (Region and National Office), VPP 
stakeholders (e.g., VPPPA, labor unions, VPP corporate participants, 
and congressional staff), and review of policy and procedure manuals. A 
first draft of the Workgroup's evaluation/report is to be completed by 
the end of September 2011. Small business participation in VPP will be 
addressed as part of this comprehensive VPP evaluation.
    Small businesses with exemplary safety and health management 
systems are more likely to be recognized under OSHA's Safety and Health 
Recognition Program (SHARP). These small employers have had a full On-
site Consultation visit and meet other requirements. Upon receiving 
SHARP recognition, OSHA exempts worksites from OSHA programmed 
inspections during the period that the SHARP certification is valid.
    Question. What is the current status of implementing the 
recommendations from the GAO report for assessing the performance of 
the VPP?
    Answer. OSHA is continuing to evaluate and develop ways to improve 
internal controls and measurement of program performance and 
effectiveness as part of the ongoing VPP continuous improvement 
process. The Assistant Secretary's series of VPP policy memoranda (five 
to date, the earliest signed August 3, 2009, and the most recent, April 
22, 2011) include instructions to strengthen nationwide consistency in 
OSHA's administration of VPP; improve the quality and documentation of 
OSHA actions following a fatality at a VPP site; strengthen internal 
controls, audit procedures, tracking, and proper documentation of OSHA 
actions; and improve annual data submissions required of all VPP 
participants and OSHA's review of the submissions and follow-up 
actions. And as mentioned above, in order to ensure successful 
implementation of these improvements, OSHA has formed a VPP Workgroup 
to conduct a comprehensive evaluation of OSHA's VPP.
    Question. Some of my constituents have contacted me regarding the 
Department of Labor's (DOL) proposed rule for expanding the definition 
of the term ``fiduciary'' to include Employee Stock Ownership Plan 
(ESOP) annual appraisers. See 75 Fed. Reg. 65263 (Oct. 22, 2011). 
According to testimony submitted by the American Society of Appraisers 
at a hearing on this proposed fiduciary rule held last month, the 
proposed rule would impose ``significant financial burdens'' on ESOP 
appraisers because it would require ESOP appraisers to purchase special 
high-cost fiduciary insurance in addition to the standard errors and 
omissions insurance required under current law. These increased 
insurance costs will result in increases to the cost of ESOP 
valuations--costs that would be then transferred to the ESOP and 
inevitably to the customer. Has the DOL made a determination as to 
whether it will exempt annual ESOP appraisals from the new fiduciary 
rules?
    Answer. Some stakeholders have asserted that the proposal would 
cause some appraisers to discontinue ESOP valuations and would 
significantly increase costs of appraisals for small businesses that 
sponsor ESOPs. The Department is carefully reviewing these and other 
comments with a view to avoiding unwarranted costs for ESOPs. In so 
doing, we must also keep in mind that ESOPs often use annual appraisals 
to calculate the dollar amount that participants who are leaving the 
employer will receive for their shares. Thus, such appraisals should be 
conducted in a prudent and impartial manner.
    Question. Some constituents have also raised questions as to how 
the above-referenced proposed fiduciary duty rule will impact broker-
dealers servicing individual retirement accounts. Constituents have 
expressed concern about the proposed rule having the effect of 
restricting affordable access to services for initiating and managing 
IRAs. Recent studies have illustrated that IRAs are the fastest growing 
accounts holding retirement savings. Specifically, IRAs are widely held 
by small investors. Small investors prefer brokerage relationships over 
advisory relationships. Ninety-eight percent of investor accounts with 
less than $25,000 are in brokerage relationships. The proposed rule 
would practically make every investment-related conversation with a 
client subject to fiduciary duty. Consequently, under this proposed 
rule firms and their associated representatives may not receive 
different levels of compensation based on the investment choices made 
by retail investors in protected IRA accounts. The current fee 
structure accommodates the needs of small investors by allowing firms 
to provide them with affordable investment services commensurate with 
their risk profile. Under the proposed rule, brokerage firms would be 
forced to offer investment services and guidance to IRA investors 
through fee based advisory accounts--which frequently require much 
higher fees. These higher fees make it uneconomical and unaffordable 
for the majority of IRA investors. What is DOL going to do to ensure 
small IRA accounts can continue to be served by broker-dealers in the 
same way they are being served now?
    Answer. Today, the advice provided to workers, employers, and 
retirees about their retirement plans is too often tainted by conflicts 
of interest and therefore potentially harmful. There is strong evidence 
that unmitigated conflicts of interest cause substantial harm, and 
therefore the Department is confident that amending the fiduciary 
regulation to combat such conflicts will deliver significant benefits 
to plan participants and IRA holders. This evidence is found in 
academic research, IRA underperformance, SEC examinations, and EBSA's 
own enforcement experience. Taken together, the available evidence more 
than establishes that such negative impacts are present and often times 
large. When the fiduciary proposal is finalized, plans, plan 
participants and IRA holders will be able to more readily access and 
benefit from impartial advice that puts their interests first.
    The Department has received comments that the proposed fiduciary 
regulation would force brokers to convert their existing commission-
based accounts into fee based advisory accounts, which would result in 
higher fees and widespread distributions from smaller account, as these 
advisory accounts would require higher minimum balances. The Department 
is carefully considering these comments. To be clear however, the 
proposal does not, by its terms, require brokers to restructure their 
compensation as wrap fees or to convert brokerage accounts to advisory 
accounts. Moreover, under already existing administrative exemptions 
broker-dealers that are fiduciaries can receive commissions for trading 
securities, insurance products, and mutual funds--which are the types 
of investments that make up the large majority of IRA assets today. 
These and other existing exemptions already create substantial space 
for brokers to provide fiduciary advice as fiduciaries under ERISA and 
the tax code while continuing to operate as brokers under the 1934 
Securities Exchange Act. In addition, we have ample authority to grant 
additional exemptions if there are legitimate concerns that beneficial 
practices would be needlessly prohibited. We will attempt to provide 
this clarification in a more formal manner as we proceed in this 
process.
    Further, the tax code itself treats IRAs differently from other 
retail accounts, bestowing favorable tax treatment, and prohibiting 
self-dealing by persons providing investment advice for a fee. In these 
respects, and in terms of societal purpose, IRAs are more like plans 
than like other retail accounts. Most IRA assets today are attributable 
to rollovers from plans.\3\ The statutory definition of fiduciary 
investment advice is the same for IRAs and plans. It therefore makes 
sense to establish a single consistent definition for both by 
regulation, and then deal with the practical differences between the 
two by tailoring exemptions accordingly. In addition, while IRA holders 
have more choice, they may nonetheless require more protection. Unlike 
plan participants, IRA holders do not have the benefit of a plan 
fiduciary to represent their interests in selecting or compensating 
investment advisers. Compared to those with plan accounts, IRA holders 
have larger account balances and are more likely to be elderly. For all 
of these reasons, combating conflicts among advisers to IRAs is at 
least as important as combating those among advisers to plans.
---------------------------------------------------------------------------
    \3\ Peter Brady, Sarah Holden, and Erin Shon, The U.S. Retirement 
Market, 2009, Investment Company Institute, Research Fundamentals, Vol. 
19, No. 3, May 2010, at http://www.ici.org/pdf/fm-v19n3.pdf.
---------------------------------------------------------------------------
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                               WORKSHARE

    Question. As you know, I introduced legislation last year to expand 
work sharing, which just over 20 States have adopted or implemented. I 
was pleased to see the administration include a work sharing proposal 
in its budget this year that builds off of my legislation. What can we 
do to encourage the remaining States to adopt work sharing and for more 
businesses to participate in work sharing as a means to avoid layoffs 
and help workers stay attached to the workforce?
    Answer. The Department currently is limited in what it can do to 
actively encourage the adoption of worksharing or short-time 
compensation (STC) programs. Current legislative authority for STC does 
not authorize certain State practices, such as making the payment of 
STC contingent on the employer entering into a plan with its employees 
and making such plan subject to approval by the State UC agency. 
Amending Federal law would address these issues and allow the 
Department to more actively promote STC. The Department's Unemployment 
Compensation Integrity Act of 2011 that was recently sent to the 
Congress includes language that would provide the necessary legislative 
authority for the Department to more actively promote STC. The 
Department welcomes the opportunity to work with the Congress to 
develop additional strategies to encourage more states to adopt STC and 
more businesses to participate.

                WORKFORCE INVESTMENT ACT REAUTHORIZATION

    Question. Public libraries are key access points in the workforce 
investment system. How can we strengthen these linkages in the 
Workforce Investment Act? Do you see the Innovation Fund that was 
included in the fiscal year 2011 CR as an avenue for supporting 
library-workforce partnerships?
    Answer. We agree that public libraries are an important access 
point for all jobseekers to access workforce services. Under current 
law, libraries may serve as affiliate One-Stop Career Centers and this 
feature should be preserved in a reauthorized Workforce Investment Act. 
The Department has an agreement with the Institute of Museum and 
Library Services (IMLS) to support strong linkages between public 
libraries and the workforce investment system. Under this agreement, 
the Department has provided technical assistance and guidance 
specifically targeted to library workers on how to use the workforce 
electronic tools such as career exploration, resume writer, job banks, 
etc. The Workforce Innovation Fund will test and support innovative 
practices and strategies in the workforce system and will contribute to 
the ongoing work of the Department to disseminate and replicate 
innovative, successful, and proven practices, which may include those 
supported by partnerships between the workforce system and other 
partners such as libraries. The Department has launched a broad 
consultation process regarding the WIF with the public workforce system 
and its stakeholders and partners, such as libraries, and this input 
will help shape the grant solicitation.
                                 ______
                                 
              Questions Submitted by Senator Sherrod Brown

                UNEMPLOYMENT RATE FOR AFRICAN AMERICANS

    Question. In 2010, the overall unemployment rate in the United 
States was 9.6 percent. However, the unemployment rate for African-
Americans was 16 percent, which is nearly twice as much as the 8.7 
percent unemployment rate for white Americans. We also know African-
Americans are among highest of the long-term unemployed.
    The numbers we use only include people who the Bureau of Labor 
Statistics considers officially unemployed; still more Americans want 
jobs and can't find one, yet they aren't considered unemployed. Many of 
these Americans, like discouraged workers, have likely been unemployed 
for a very long period of time as well.
    Please explain what DOL is doing to address the especially high 
long-term unemployment rates among African-Americans?
    Are there any programs geared specifically toward lowering the high 
unemployment rates among African-Americans?
    Answer. DOL recently released a comprehensive report looking at the 
labor market situation for African-Americans since the 2007-2009 
recession. Although most of the Department's programs are not 
specifically targeted to any one demographic, our programs are serving 
African-Americans who are unemployed and underemployed in significant 
numbers. The following provides an overview of how these programs have 
benefitted millions of African-Americans during these challenging 
economic times:
  --Ensuring that training and employment services are serving African 
        Americans and are providing a host of support services to hard-
        to-place workers.
    --Between October 2009 and September 2010, more than 4.3 million 
            participants served by the Department's Wagner-Peyser 
            program, employment services administered by the 
            Department, were African-American. This figure represents 
            over 19 percent of total participants served by this 
            program.
  --The Workforce Investment Act (WIA) served 570,000 self-indentified 
        African-American Adult and Dislocated Worker participants who 
        received staff-assisted services from July 2009 to June 2010. 
        For PY 2009 (July 2009-June 2010), after receiving counseling 
        or counseling and training services, over 330,000 Adult and 
        Dislocated African-American workers exited their respective 
        programs. In addition, of those being served by WIA, over 
        140,000 African-Americans found jobs during the corresponding 
        timeframe.
    --As of September 30, 2010, 28,392 African-Americans have been 
            served by the Department's Community Based Job Training 
            grants and 13,060 African-Americans have been served 
            through the Department's High Growth and Emerging Industry 
            grants.
    --Between October 2009 and September 2010, 11,835 African-American 
            workers impacted by trade were served by the Department's 
            Trade Adjustment Assistance program.
    --In January 2011, the Department of Labor announced the 
            availability of approximately $500 million for the first 
            round of Trade Adjustment Assistance Community College and 
            Career Training Grants. The program will enable eligible 
            institutions of higher education, including but not limited 
            to community colleges, to expand their capacity to provide 
            quality education and training services suitable for Trade 
            Adjustment Assistance program participants and other 
            individuals. The overarching goals of these grants are to 
            increase attainment of degrees, certificates, and other 
            industry-recognized credentials and better prepare workers, 
            for high-wage, high-skill employment.
  --The National Farm-Worker Jobs Program provides funding to 
        community-based organizations and public agencies to assist 
        migrant and seasonal farm-workers and their families attain 
        greater economic stability. Between October 2009 and September 
        2010, nearly 1,000 individuals who exited the program after 
        receiving core, intensive, and training services were African-
        American.
    --Since its inception in spring 2006, the Reintegration of Ex-
            Offenders programs have assisted over 26,000 participants. 
            Of these, 15,530 (60 percent) are African-Americans.
    --The Federal-State Unemployment Insurance system (UI) served over 
            2,377,000 African-Americans from October 2009 to September 
            2010.
  --Providing training opportunities for African-American workers to be 
        involved in the clean energy economy. In 2010, DOL funded the 
        following Recovery Act grant competitions designed to advance 
        training and employment in these industries.
  --``Pathways Out of Poverty'' grants provided $150 million to support 
        programs that help disadvantaged populations find ways out of 
        poverty and into economic self-sufficiency through employment 
        in energy efficiency and renewable energy industries.
    --Among the awardees was the East Harlem Employment Services, which 
            will work with foundations, unions, educational 
            institutions, and minority contractors to provide education 
            and training to 1,819 people and unsubsidized employment to 
            881 people in Flint, Michigan and Baltimore, Maryland.
    --MDC, Inc. was awarded funds to train more than 700 persons, 
            including 400 who will be placed into employment, in 
            Orangeburg, Calhoun and Bamberg Counties in South Carolina. 
            The Los Angeles Community College District will use funds 
            to provide training to more than 925 persons, including 667 
            who will receive on the job training.
  --``Energy Training Partnership'' grants provided $100 million for 
        job training in energy efficiency and clean energy industries, 
        of which approximately $50 million reached communities of 
        color. The grants support job training programs to help 
        dislocated workers and other target populations, including 
        communities of color, find jobs in expanding green industries 
        and related occupations.
    --Transitioning more African-American youth to employment through 
            programs targeting individuals affected by high poverty and 
            high unemployment.
Job Cops and Youthbuild
  --Programs such as Job Cops and YouthBuild provide job training and 
        educational opportunities for low-income or at-risk youth aged 
        16 to 24. As of September 2010, there are 8,380 African-
        American youth enrolled in YouthBuild, representing nearly 60 
        percent of the participants served in the program.
    --African-American youth represented approximately 50 percent of 
            Job Corps students. In addition, VETS and ETA recently 
            announced a pilot for 300 veterans to participate in Job 
            Corps.
``Skills for America's Future'' Initiative
  --Increasing college attendance and graduation rates among African-
        American youth and encouraging more African-American students 
        to pursue careers in science, engineering and technology. The 
        President's ``Skills for America's Future'' initiative seeks to 
        increase the number of college graduates in science, 
        technology, engineering, and mathematics (STEM), as well as 
        improve industry partnerships with community colleges and other 
        training providers by matching classroom curricula with 
        industry standards and employer needs.
  --Assisting workers interested in starting their own businesses. 
        Entrepreneurship training is available to dislocated workers 
        and other adults and youth through the public workforce system 
        overseen by DOL. DOL is also currently conducting an 
        experimental training program called Growing America Through 
        Entrepreneurship (GATE). Project GATE connects individuals with 
        entrepreneurship training and education to help them realize 
        their dreams of business ownership. Project GATE, which is now 
        in its second phase, has been shown to increase the number of 
        hours of business training participants receive, the speed of 
        business opening among participants, and the longevity of their 
        businesses.
    --In eight States--Delaware, Maine, Maryland, New Jersey, New York, 
            Oregon, Pennsylvania, and Washington--certain unemployed 
            workers who participate in entrepreneurship training or 
            business counseling but would otherwise be eligible for 
            unemployment insurance can obtain weekly benefits through a 
            program called Self Employment Assistance.
Supporting Family-Friendly Workplace Policies
  --Examples of such policies include flexible work schedules and on-
        site child care, along with the Department's Wage and Hour 
        Division's implementation of the break time for the nursing 
        mothers' law, which became effective when the Patient 
        Protection and Affordable Care Act was signed by the President 
        in March 2010. This new law requires employers to provide 
        reasonable break time and a place--other than a bathroom that 
        is shielded from view and free from intrusion by coworkers or 
        the public--to express breast milk while at work. The 
        Department's role in this effort will undoubtedly help nursing 
        moms achieve balance between their job and care for their 
        children.
  --Additionally, the Department has taken steps to ensure more workers 
        can take advantage of the Family and Medical Leave Act (FMLA) 
        by issuing an Administrator Interpretation clarifying that the 
        definition of son and daughter includes someone who stands or 
        stood ``in loco parentis'' to the child. This interpretation 
        ensures that an employee who assumes the role of caring for a 
        child receives parental rights to family leave regardless of 
        the legal or biological relationship.
  --Protecting workers through enhancing the Department's Wage and Hour 
        Division and Office of Federal Contract Compliance Programs 
        enforcement
    --The WHD is working to prevent employee misclassification. 
            Misclassification often results in the failure of employers 
            to pay employees the proper minimum wage or overtime pay. 
            Employers may also evade payroll taxes and often do not pay 
            for workers' compensation or other employment benefits. As 
            a result of misclassification, employees are denied the 
            protections and benefits of this Nation's most important 
            employment laws--protections to which they are legally 
            entitled. Misclassification tends to be a pervasive problem 
            in industries that employ a large number of vulnerable 
            workers, such as construction, janitorial, staffing firms, 
            restaurants, and trucking. The President requested funding 
            in fiscal year 2012 for DOL to lead a multi-agency 
            initiative to strengthen and coordinate Federal and State 
            efforts to enforce statutory protections, and identify and 
            deter employee misclassification. This initiative will help 
            provide employees with their rightful pay and benefits.
    --The Department recovered more than $176 million in African-
            American wages for nearly 210,000 workers in fiscal year 
            2010. Through the direct leadership of Secretary Solis, the 
            Wage and Hour Division hired more than 300 new 
            investigators--a staff increase of more than one-third. 
            These increased staffing levels will help improve complaint 
            investigations and more targeted enforcement.
    --In 2010, the Office of Federal Contract Compliance Programs 
            (OFCCP) completed 80 compliance evaluations where it 
            identified discriminatory practices under Executive Order 
            11246, which bars race, gender, religious, and national 
            origin discrimination by Federal contractors impacting 
            minorities, which included African-Americans. One case of 
            compensation discrimination against an African-American 
            male resulted in an award of $24,894 in back pay. Overall, 
            OFCCP also entered into more than 96 Conciliation 
            Agreements with discrimination findings on behalf of more 
            than 12,000 affected workers, resulting in back pay awards 
            of more than $9 million, and more than 1,400 potential job 
            offers to provide relief for affected workers who have been 
            discriminated against under the Executive Order. Of these, 
            14 discrimination cases impacted 1,414 African-Americans.

                     WORKFORCE TRAINING STRATEGIES

    Question. As we've discussed on several occasions, I've been 
working on sector partnership workforce training strategies for 4 
years, along with Senator Olympia Snowe. This is the strategy of 
bringing multiple industry players together, along with labor, 
community colleges, and WIBs, to design a training curriculum and 
pipeline for future workers within that industry. It's a proven 
strategy many Governors have taken up, and we're seeing success in 
Ohio, especially in biosciences and healthcare.
    I've introduced legislation--the SECTORS Act--that would amend WIA 
to create dedicated capacity for sector partnerships, and many States 
have used their 15 percent set-aside for statewide activities under WIA 
to support these strategies.
    The fiscal year 2011 CR created a new Workforce Innovation Fund 
that will be used to support demonstration and replication projects 
that test innovative workforce service delivery strategies, and the 
fiscal year 2012 budget request proposed $380 million for the Fund.
    Given the reduction in State-level funding under the recent CR, and 
while Congress continues to consider WIA reauthorization, can you 
assure me that new and existing sector partnerships will be eligible to 
receive support from the new Workforce Innovation Fund?
    Answer. Eligible applicants for these competitive grants are 
States, State agencies eligible for assistance under Title I and III of 
the Workforce Investment Act, consortia of States, or partnerships, 
including regional partnerships (which ETA interprets to include 
partnerships of local Workforce Investment Boards). Applications 
submitted by an eligible entity should demonstrate appropriate and 
engaged partnerships that support the proposed innovation that leads to 
better employment outcomes for individuals, meets the skill needs of 
employers, accelerates learning and credential attainment, and 
increases efficiencies in the delivery of services. Depending on the 
relationship and types of activity, sector partners may be eligible to 
receive funding in support of the overall goals of the proposed 
innovation.
    ETA is engaged in a consultation process with key stakeholders 
including the Federal partners, Congress, intergovernmental 
organizations, and the public workforce system in support of the SGA 
development. Your comment and others received through both formal and 
informal discussions will be taken under advisement as the Department 
refines the WIF.

                      PAYROLL FRAUD PREVENTION ACT

    Question. I recently introduced, with Senators Harkin, Blumenthal, 
and Franken, the Payroll Fraud Prevention Act (S. 770) which would 
protect workers from being misclassified as independent contractors, 
thereby ensuring access to fair labor standards, health and safety 
protections, and workers compensation. The President's budget includes 
$46 million to combat worker misclassification.
    What is DOL's plan for cracking down on worker misclassification 
and payroll fraud? How does making misclassification a violation of the 
Fair Labor Standards Act (FLSA) helpful to your efforts?
    Answer. The administration recognizes that misclassification is a 
serious problem--it often deprives workers of rights and benefits to 
which they are entitled under the law; it results in a loss to Federal 
and State revenue, and underfunded unemployment insurance and workers 
compensation funds; and it creates an uneven playing field for those 
employers who obey the law. This is why the Department is participating 
in a multi-agency Misclassification Initiative, headed by the Vice 
President's Middle Class Task Force, that aims to coordinate the 
administration's efforts to enforce statutory protections, identify and 
deter employee misclassification, and mitigate future violations.
    Internally, the Department's Initiative is headed by the Wage and 
Hour Division (WHD), which is working with the Department's Solicitor's 
Office to increase information sharing and coordination between DOL 
agencies, with other Federal agencies, and with State agencies that 
also enforce laws where employee misclassification is a significant 
issue. When WHD finds cases where misclassification has occurred, it 
will be referring those cases to the appropriate Federal and State 
agencies, such as the IRS and State agencies that oversee Unemployment 
Insurance and Workers Compensation programs.
    WHD is also focusing its enforcement and compliance assistance 
resources on those industries with large numbers of vulnerable and low 
wage workers where misclassification is particularly prevalent. WHD is 
working on ensuring that employers, employees, and the public fully 
understand that misclassification, whether deliberate or as an 
unintended consequence of a business practice that seeks to reduce 
labor costs, frequently leads to violations of the laws we enforce, and 
effectively communicating to employers the risks of being found in 
violation. As part of this effort, WHD is actively seeking to work with 
local and national businesses and trade associations to make sure that 
our compliance assistance reaches their members.
    Currently, misclassification is not a violation of any Federal 
labor or employment law, but the practice often leads to violations of 
those laws. We believe that, by making misclassification a violation of 
the FLSA, requiring notice to workers informing them whether they are 
classified as employees or not, and providing civil money penalties for 
violating the act's recordkeeping provision, the Payroll Fraud 
Prevention Act would provide employers with important additional 
incentives to make the correct call when determining whether a worker 
is an employee and keep accurate records of how they treat those 
employees, which could reduce the number of violations that occur 
without WHD having to get involved.
    Question. The administration is soon likely to submit to Congress 
the pending trade agreements with South Korea, Colombia, and Panama. 
The administration recently announced a ``labor action plan'' with 
Colombia.
    The Colombian government, however, continues to fail at effectively 
prosecuting those responsible for anti-union violence. The United 
Steelworkers claim the Colombian government has prosecuted only 4 to 
5.6 percent of the nearly 2,800 killings of trade unionists since 1986. 
And, it has not initiated investigations into more than two-thirds of 
these killings. What is your view of the labor action plan with 
Colombia? Has Colombia so far met obligations set forth in the labor 
action plan, including its April 22 commitments? How is the Bureau of 
International Labor Affairs at DOL involved in the implementation of 
the action plan?
    Answer. The Colombian Action Plan Related to Labor Rights (Action 
Plan) and our partnership with the new administration of President 
Santos provide a concrete way forward to address the problems of 
violence and impunity as a matter of urgency and to improve protections 
for internationally recognized labor rights in Colombia.
    Yes, Colombia has met the April 22 commitments and is on track to 
meet the additional commitments in the Action Plan. We are continuing 
to work with the Government of Colombia to ensure that Colombia 
continues to make the needed progress.
    For example, the Action Plan includes strong and specific steps to 
increase investigation and prosecution of the perpetrators of earlier 
violence against union activists because the Santos administration 
recognizes that ending impunity is a major factor in deterring future 
crimes. In accordance with the Action Plan, President Santos has issued 
a directive to the National Police, which has already assigned 100 
additional full-time judicial police investigators to support the 
investigation of violence against trade unionists. The Prosecutor 
General's office has issued directives, consistent with the Action 
Plan, to improve the investigation and prosecution of labor cases. It 
is also undertaking an analysis of past homicide cases of union members 
and activists, in order to extract lessons that can help improve the 
investigation and prosecution of future cases. Moreover, the Prosecutor 
General's office has analyzed its needs for additional investigators 
and prosecutors and submitted its plan and 2012 budget request to the 
Santos administration, which has committed to provide funding for the 
expanded staffing, including to strengthen capacity in regional 
offices. In addition, the Prosecutor General's office is working with 
the Colombian labor unions and the National Labor School (ENS) to 
reconcile the Government's and ENS' lists of union homicides since 1986 
with that of the unions.
    DOL's Bureau of International Labor Affairs (ILAB) has been closely 
involved in both the negotiation and implementation of the Action Plan. 
An interagency team comprised of DOL, the Office of the United States 
Trade Representative, and the Departments of State and Justice are 
working closely with the Colombian government to ensure that each 
commitment under the Action Plan is fulfilled.

                   NATIONAL LONGITUDINAL YOUTH SURVEY

    Question. For the past 32 years, the Center for Human Resource 
Research at the Ohio State University has been tasked with conducting 
the National Longitudinal Youth Survey. This survey measures an array 
of important issues ranging from how families handle their financial 
affairs, the impact of training and education programs for reentry into 
the workforce, and what Federal programs are most effective over 
multiple decades.
    As the Nation continues to recover from the 2008 economic downturn, 
this survey can help us better understand how long unemployment, high 
rates of youth unemployment term and foreclosure can impact youth in 
future decades.
    How does the Department of Labor plan to utilize the National 
Longitudinal Youth Survey to best gauge the impact of the current 
recession?
    Answer. The NLS records the labor force experiences of two cohorts 
of American men and women. The older cohort is the 1979 National 
Longitudinal Survey of Youth (NLSY79) that provides information on the 
``baby boomer'' generation. The younger 1997 cohort is composed of 
individuals currently in their late 20s and early 30s. The NLS captures 
long-run changes in individual labor force behavior by interviewing the 
same individuals over extended time periods. As a result, it is 
uniquely designed to enable researchers and policymakers to examine how 
changing economic conditions, such as a recession, affect labor force 
experiences.
    Policymakers can utilize information from past recessions to 
understand the effect of the recent recession. For example, a study 
using the NLSY79 measured the wage effects for people who graduated 
from college in a recession (Kahn, 2010). Another study used the NLSY79 
from the years 1978 to 2006 to examine how State and national 
unemployment rates affected the likelihood of divorce (Arkes and Shen, 
2010).
    Another use of these data can be to study the recent recession and 
recovery. As the recession began, the nearly 10,000 members of the 
NLSY79 were aged 43 to 51 and had been followed for almost 30 years. 
Analysts will be able to examine how the recession affected this 
generation's retirement plans, health, ability to pay for their 
children's college education, and many other aspects of their lives. 
The 9,000 members of the NLSY97 were 23 to 28 when the recent recession 
started and had been reporting about their lives for over 10 years. 
This survey includes many veterans of the wars in Iraq and Afghanistan, 
and the Department's Veterans' Employment and Training Service already 
has used the survey to examine the challenges these young veterans have 
faced as they transition back to civilian life. Analysts will continue 
to use the NLSY97 to examine how the recession affected the career 
trajectories, educational attainment, health, families, and other 
aspects of the lives of veterans and nonveterans, both in the short-
term and across the rest of their working lives.

                 INTERNATIONAL LABOR COMPARISONS (ILC)

    Question. I was pleased that Congress saw fit in the fiscal year 
2011 continuing resolution to maintain the International Labor 
Comparisons (ILC) office of the Bureau of Labor Statistics. I'm 
concerned, however, by the administration's proposal to eliminate this 
important office in its fiscal year 2012 budget.
    As you know, the ILC program provides the only systematic data 
comparing labor costs in the United States with major trading partners, 
including China. As the volume of trade expands, particularly with 
developing countries, having reliable information on the 
competitiveness of our workers with those overseas is more important 
than ever before. While other agencies produce international data, none 
has the mission and expertise like the ILC to compare data across key 
countries on labor costs, GDP, unemployment, wages, and inflation. 
Therefore, it is disturbing that the administration would seek to 
eliminate this source of information.
    If, as the President and you have stated, we are going to out-
educate, out-innovate, out-compete in the global economy, it is 
imperative we do not sacrifice this source for effective policy making 
and analysis. I request that you share with me your views on 
maintaining the ILC in the fiscal year 2012 budget, and beyond.
    Answer. The 2012 President's budget carries forward the proposal 
from the 2011 budget to eliminate the International Labor Comparisons 
(ILC) program. The BLS proposes to eliminate this program to fund 
other, more critical needs. In developing the 2012 budget, the 
administration committed to make tough choices that prioritize our 
Nation's most pressing needs during its economic recovery. As a result, 
programs that were funded in the 2011 budget were identified for 
reduction in the 2012 President's budget. The proposal to redirect ILC 
funding does not reflect on the quality and usefulness of the ILC data, 
but rather the administration's commitment to maintaining the quality 
and quantity of some of our Nation's most important economic 
indicators.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                          DOL FIDUCIARY RULES

    Question. The Department of Labor's recent proposal to amend its 
fiduciary duty rule has raised many questions about potential 
unintended consequences of the rule. For example, a recent study by 
Oliver Wyman found that ``the proposed rule will disproportionately 
negatively affect small balance IRA investors.'' What types of economic 
analyses does the Department intend to conduct to shed more light on 
how the proposal would affect small and large entities, including 
retirement plans, their sponsors and service providers, and individual 
retirement accountholders?
    Answer. The proposed regulation included a regulatory impact 
analysis (RIA) that assessed the potential costs and benefits 
associated with the proposal. The Department's RIA satisfied applicable 
requirements and provided an appropriate economic basis for the 
proposal. The Department acknowledged in the RIA that its assessment 
was subject to uncertainty and solicited public comment to help it 
address areas of uncertainty. As we move forward with finalizing the 
proposed rule and developing an expanded RIA, the Department will take 
into account input received from stakeholders and consultations with 
other Federal agencies. The economic impact of the final rule on both 
ERISA plans and IRAs will be carefully considered during this process.
    Some private studies--including several have been commissioned by 
organizations opposed to the proposal--purport to demonstrate that the 
Department's proposal will hurt the very investors and workers that the 
Department is seeking to help. However, these studies are predicated on 
several deeply flawed assumptions. For example, one widely cited study 
builds its entire cost analysis on the assumption that commission-based 
compensation for servicing IRA's would no longer be allowed even though 
there are exemptions already in place that allow broker-dealers acting 
as fiduciaries to receive commissions for the sale of securities, 
mutual funds and insurance products.
    The Department is always mindful of the impact its regulatory 
actions may have on the availability of investment products and 
services to employee benefit plans, IRAs, and to workers and retirees 
covered by those plans. For example, some commenter's have suggested 
that we consider the possible exercise of the Department's authority to 
issue additional administrative exemptions from certain prohibited 
transaction provisions of ERISA as a way of ensuring the continued 
availability of certain types of transactions that they say clearly 
benefit plan participants, beneficiaries, and IRA owners. Other 
commenter's urged that the effective date of the final regulation allow 
service providers transition time to adjust their business practices 
and systems for compliance. We will also be considering these comments 
and suggestions.

                                  CFTC

    Question. The CFTC has proposed rules under the Dodd-Frank Act 
that, when read together with the Department's proposed rule on 
fiduciary duty, may make it impossible for pension plans to find 
counterparties willing to engage in swap transactions with them. Does 
the Department of Labor plan to weigh in on the CFTC rulemaking or take 
steps in its own rules to ensure that pension plans are able to 
continue to use swaps in managing plan risks?
    Answer. The Department has recently weighed in with the CFTC on the 
interaction between the fiduciary proposal and the CFTC rules proposed 
under Dodd-Frank by sending a letter from EBSA Assistant Secretary 
Phyllis Borzi to CFTC Chair Gary Gensler. As this letter says, it is 
the Department's view that ``a swap dealer or major swap participant 
acting as a plan's counterparty in an arm's length bilateral 
transaction with a plan represented by a knowledgeable independent 
fiduciary would not fail to meet the terms of the proposed regulation's 
counterparty exceptions solely because it complied with the business 
conduct standards set forth in the CFTC's proposed regulation.'' The 
Department does not seek to impose ERISA fiduciary obligations on 
persons who are merely counterparties to plans in arm's length 
commercial transactions. Parties to such transactions routinely make 
representations to their counterparties about the value and benefits of 
proposed deals, without purporting to be impartial investment advisers 
or giving their counterparties a reasonable expectation of a 
relationship of trust. Accordingly, the Department's proposed 
regulation provides that a counterparty will not be treated as a 
fiduciary if it can demonstrate that the recipient of advice knows or 
should know that the counterparty is providing recommendations in its 
capacity as a purchaser or seller.
    As we evaluate the comments we have received, we will continue to 
evaluate the particular terms used to define the scope of any exception 
to ensure that the regulation is as clear and effective as possible, 
and to avoid any unintended consequences.
    Finally, the Department and the CFTC are actively consulting with 
each other and coordinating our efforts relating to the DOL fiduciary 
regulation and the CFTC business conduct standard. Our shared joint 
goal is to harmonize these initiatives to ensure that the regulated 
community has clear and sensible pathways to compliance. We are 
confident that this goal will be achieved.
    Question. The Department of Labor is considering issuing a 
transparency rule under ERISA that would require service providers to 
disclose detailed financial information to health plans. If so, 
pharmacy benefit managers (PBMs) may be required to provide detailed 
disclosure of their proprietary cost structures (e.g., pharmacy 
discounts and drug manufacturer rebates) to thousands of PBM clients 
without sufficient confidentiality protections to safeguard against the 
anti-competitive effects repeatedly pointed out by the Federal Trade 
Commission in the context of state PBM transparency laws. As the 
Department is undertaking rule promulgation to require the disclosure 
of proprietary data of service providers of ERISA plans, what has the 
Department done to reconcile its proposal with the FTC's seemingly 
contrary position? Has the Department had high level, in-depth 
discussions with the FTC's Bureau of Competition?
    Answer. Yes, the Department has met with senior policymakers at the 
FTC and had very productive and informative discussions. We will 
continue to work closely with our colleagues at the FTC on this 
regulatory initiative.
    In March, the FTC's decided in a 5-0 vote to write Mississippi 
lawmakers about the anticompetitive effects of competitors learning 
each other's pricing information:

    ``These provisions could result in sharing competitively sensitive 
cost information among competing pharmacies and pharmaceutical 
manufacturers. In particular, such information sharing could undermine 
competition between pharmacies to be included in PBM networks and 
between pharmaceutical manufacturers to offer discounts to PBMs. Both 
outcomes could raise prescription drug prices for consumers. We note, 
however, that if there are appropriate confidentiality safeguards in 
place, health plan sponsors (and their consultants) may find specific 
cost information helpful as they seek to select among PBMs, understand 
their enrollees' prescription drug use, and ensure that they are 
receiving appropriate rebates from PBMs.''

    Question. How has the Labor Department calculated the additional 
costs of service provider disclosure in the absence of confidentiality?
    Answer. The Department is aware of the FTC's March 2011 letter. We 
are still gathering information in advance of considering policy 
options for this rulemaking at this time and have not yet calculated 
the potential costs and benefits of service provider disclosure in the 
absence of confidentiality. The Department will take into account the 
FTC's concerns regarding competition, collusion, and appropriate 
confidentiality safeguards in developing the regulatory impact analysis 
for any rule that is promulgated in this area.
    The FTC's March, 2011, letter also noted how certain disclosure 
could increase collusion.

    ``In some circumstances, sharing information among competitors may 
increase the likelihood of collusion or coordination on matters such as 
price or output. The antitrust agencies have explained how coordinated 
interaction harms consumers: coordinated interaction `can blunt a 
firm's incentive to offer customers better deals by undercutting the 
extent to which such a move would win business away from rivals' and 
`also can enhance a firm's incentive to raise prices by assuaging the 
fear that such a move would lose customers to rivals.' ''

    Question. What action is the Labor Department pursuing to mitigate 
collusion or price coordination among corporations?
    Answer. The Department's objective in this area is to ensure that 
ERISA plan fiduciaries have sufficient information to fulfill their 
fiduciary responsibility of determining whether their contracts or 
arrangements with service providers, such as PBMs, are reasonable. We 
will consult closely with the FTC as we develop a regulatory framework 
that addresses concerns regarding collusion or price coordination.
     trade adjustment assistance community college training grants
    Question. Could you explain why the Trade Adjustment Assistance 
Community College Training Grants program (TAACCCT) calls for the 
development of Open Education Resources to meet the immediate training 
needs of students?
    The National Center for Academic Transformation indicates that 
``high-quality course materials [are already available] at a reasonable 
cost,'' ``reasonably priced software . . . is a non-problem,'' and that 
available software enables ``faculty to focus on pedagogy rather than 
materials creation.'' Therefore, why do you believe the Federal 
Government should spend develop materials that appear to already exist 
in the marketplace?
    Answer. The Department expects the Federal funding from the Trade 
Adjustment Assistance Community College and Career Training (TAACCCT) 
grant program to provide quality education and training services to 
Trade Adjustment Assistance (TAA) for Workers program participants as 
well as other individuals to improve their knowledge and skills, 
enabling them to obtain good, sustaining jobs. The program allows for 
development of materials, and it also can improve on existing courses 
that can be completed in 2 years or less. Ultimately, the goal of 
adoption and adaptation of courses is to increase industry-recognized 
credential or degree completion rates of participants through four key 
priorities and strategies including: (1) accelerating progress for low-
skilled and other workers, (2) improving retention and achievement 
rates to reduce time to completion, (3) building programs that meet 
industry needs including the development of career pathways, and, (4) 
strengthening online and technology-enabled learning.
    Across these strategies, DOL recognizes that grantees may use 
existing courses or programs when they are well suited to meet the 
project's objective. However, training and education needs vary by 
region and can change quickly. The marketplace does not support courses 
that meet every project need. In some cases courses may need to be 
tailored or augmented, and in other cases new materials altogether, not 
currently supported by the marketplace, may be developed.
    As one of four strategies, community colleges and other education 
organizations have an opportunity to harness technology in their 
classrooms and modernize their curriculum. These projects are 
encouraged to improve or develop online or technology-enabled learning 
programs and courses that can be taken to scale beyond a community 
level to reach a national audience of diverse students over a larger 
geographic area. The programs and courses developed with these funds, 
particularly those developed by consortia of eligible institutions, 
will be produced to maximize interoperability and exchange, and made 
freely available for reuse and improvement by others. Online and 
technology-enabled learning courses not only ensure widespread usage 
but encourage continuous improvement of courses and learning materials. 
Most importantly, online learning allows for rapid deployment and the 
ability to meet employers' skilled workforce needs as they arise.

                             BUDGET DEFICIT

    Question. Unemployment in our Nation is 8.8 percent. Madam 
Secretary, what is your Department doing to ensure that we are 
providing our workers with the type of assistance necessary to help our 
small businesses and entrepreneurs create well paying jobs?
    Answer. While the Department's resources do not directly create 
jobs, they can help ensure workers acquire the skills that employers 
need to successfully compete in the global economy. The public 
workforce system focuses workforce development resources on the 
expressed needs of employers, both small and large, in the following 
ways:
    Local and State workforce boards oversee WIA programs; they are 
required to be business-led and have majority business membership to 
connect the One-Stop service delivery system directly to the local 
employers to ensure workers and training providers are knowledgeable 
about what jobs/skills are needed in the regional or local economy.
    The Department has strengthened connections between the public 
workforce system and local employers through initiatives such as:
    Awarding $75,000,000 in competitive On-the-Job Training (OJT) where 
small businesses can be reimbursed up to 90 percent of the trainees' 
wages for up to 6 months to cover the extraordinary costs of training;
    Requiring many of ETA's competitive grants to focus on employers' 
skill needs or require a partnership with employers, for example, H-1B 
technical skills training grants that may be competitively awarded to 
partnerships of private and public sector entities that may include 
business-related nonprofit organizations, such as trade associations;
    Providing technical assistance such as training Business Service 
Representatives from the One-Stop Career Centers and Workforce 
Investment Boards to better address business needs and issuing guidance 
about Entrepreneurship (TEGL No.12-10).
    The Department worked closely with businesses and trade 
associations to develop 19 competency models in such industry sectors 
as energy, advanced manufacturing, allied health and long-term care and 
supports, and entrepreneurship. These competency models document the 
foundational and technical skills and competencies required for 
workplace success in economically important industries and are 
available at www.careeronestop.org/competencymodel. Industry competency 
models provide a resource for the development of curricula, 
certifications, and the tests that assess work-related competencies. 
Most importantly, competency models support worker progression along 
career pathways.

                        WORKFORCE INVESTMENT ACT

    Question. Under the Workforce Investment Act (WIA--pronounced WEE-
a), all WIA funded initiatives were to be evaluated in 2005. It is now 
2011 and we do not have any significant, concrete updates on WIA 
programs. Given the fiscal restraints in the fiscal year 2012 budget, 
unless we know that workforce programs are working, I do not think we 
should continue to fund them. It is my understanding the Department has 
started a comprehensive evaluation of WIA funded programs and interim 
results will be available in 2013. Secretary Solis, in the meantime, 
can you address ways this subcommittee can effectively evaluate these 
programs?
    Answer. The value of training is illustrated by the entered 
employment rate, or how many individuals found jobs. For the 12-month 
period ending June 30, 2010, individuals receiving WIA Dislocated 
Worker program training found employment 1.6 times faster than those 
who did not receive training. Adults at program exit who participated 
in On-the-Job Training (OJT) found employment at a rate of 86 percent, 
while dislocated workers receiving OJT found jobs at 90.3 percent 
rate.\4\ In the 6-month period after finding jobs, individuals who 
completed the WIA Adult program and Dislocated Worker program, and who 
were unemployed at program entry, helped stimulate the economy by 
earning just under $7.2 billion.\5\
---------------------------------------------------------------------------
    \4\ Workforce Investment Act Standardized Record Data (WIASRD) 
records from Program Year 2009 (July 1, 2009-June 30, 2010).
    \5\ Workforce Investment Act Standardized Record Data (WIASRD) 
records from April 1, 2008 to March 31, 2009.
---------------------------------------------------------------------------
    However, such outcome data do not take into account what 
participants could accomplish without WIA. To do so, in 2008 the 
Department released the WIA Non-Experimental Study.\6\ This study found 
that, although differences across States are substantial, participation 
in the WIA Adult program is associated with an increase in quarterly 
earnings of several hundred dollars. The analysis of participants who 
receive only core and intensive services suggests that their benefits 
may be as great as $100 or $200 per quarter over the period of study, 
which is substantial compared to the small costs of those services. The 
marginal benefits of training may exceed $400 in earnings each quarter.
---------------------------------------------------------------------------
    \6\ http://wdr.doleta.gov/research/FullText_Documents/
Workforce%20Investment%20Act% 
20Non%2DExperimental%20Net%20Impact%20Evaluation%20%2D% 
20Final%20Report%2Epdf.
---------------------------------------------------------------------------
    The study also found that following entry into WIA, Dislocated 
Workers experience several quarters for which earnings are depressed 
relative to comparison group workers. However, their earnings do 
ultimately overtake the comparison group. The return they experience 
from training appears to be smaller than that obtained by Adult program 
participants. The study further found that women appear to obtain 
greater benefits than men for participation in both the Adult and 
Dislocated Worker programs.
    The estimated effects for various subgroups examined--nonwhite non-
Hispanics, Hispanics, those under 26 years of age, those 50 years of 
age or above, and veterans--are similar to the estimated effects for 
all WIA participants. In other words, there is essentially no evidence 
that any of the subgroups considered have experiences that differ from 
the average in important ways.
    Because of serious concerns about the limitations of the 
methodology and data used in the non-experimental study, in 2008 the 
Department commissioned the WIA Gold Standard Evaluation (WGSE). This 
study will address the limitations of the 2008 study as shown in the 
table below and includes a cost-benefit component. The study's results 
will be available in 2016, although this schedule is dependent upon 
continued appropriations for the evaluation of WIA programs.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                 WIA Non-Experimental Impact Study (aka 2008 Impact Study)                   WIA gold standard evaluation
--------------------------------------------------------------------------------------------------------------------------------------------------------
Evaluation Methodology........  Quasi-experimental methods (propensity score matching).....  Random assignment
Sample........................  Consisted of 12 purposively selected States................  Will use a nationally representative sample of
                                                                                              approximately 30 randomly-selected local workforce
                                                                                              investment areas
Comparison Groups.............  Drawn from Unemployment Insurance claimants and Wagner-      Will randomly assign from WIA applicants
                                 Peyser participants.
Data Sources..................  Used administrative data (UI wage records) which limited     In addition to administrative data, will use survey data
                                 the outcomes looked at to quarterly earnings and             which will allow a full range of educational, employment,
                                 employment.                                                  earnings, and self-sufficiency outcomes to be examined
Services Examined.............  Looked at three levels of services: Core, Intensive, and     Will look only at Intensive and Training compared to Core
                                 Training compared to persons not receiving WIA services.
Study Dates...................  Looked at participants who entered WIA between July 2003     Will look at entrants between approximately September 2011
                                 and June 2005.                                               and December 2012
--------------------------------------------------------------------------------------------------------------------------------------------------------

                         PROGRAM EFFECTIVENESS

    Question. In March, GAO stated that the Employment and Training 
Administration's research and evaluation programs have ``failed to 
conduct research that can answer urgent workforce policy questions and 
lead to an understanding of what works and what does not.'' What are 
the Department of Labor's plans to improve the efficiency and 
effectiveness of programs administered by the Department?
    Answer. The Department of Labor is taking action in virtually all 
aspects of its operations to ensure that our programs will operate at 
the optimal levels of effectiveness and efficiency. We strongly believe 
in the importance of Federal fiscal responsibility and that part of 
this responsibility is identifying which programs and strategies 
efficiently provide the greatest benefit to participants.
    The Department recently undertook a significant strategic planning 
process, publishing the U.S. Department of Labor Strategic Plan Fiscal 
Years 2011-2016 on September 30, 2010. The strategic planning process 
was highly inclusive, including formal opportunities for public 
comment. Further, each agency, including ETA, has formal Operating 
Plans that are used to guide and monitor its performance. Together, 
these plans harness and direct the Department's resources toward 
achieving five goals, which include: (1) preparing workers for good 
jobs and fair compensation, and (2) for those not working, provide 
income security. These planning processes are designed to maximize the 
use of evidence and results.
    The Department relies on performance data and evaluations. In 
addition to our efforts to reassess performance measures to promote 
better outcomes for individuals of all skill and need levels, we 
believe that workers and employers should have easy access to 
information about program outcomes for past participants, so they can 
make informed decisions about which programs are most likely to meet 
their needs.
    The Department has worked diligently over the past 2 years to 
increase the rigor of its evaluations. I established the Chief 
Evaluation Office (CEO) to coordinate the Department's research and 
evaluation agenda and increase its capacity to conduct high quality, 
rigorous evaluations. The CEO is working closely with all Departmental 
agencies, including ETA, to ensure that Departmental evaluations are 
appropriately rigorous and designed to yield clear and actionable 
information for policymaking purposes.
    Since 2009, about half the evaluations the ETA has funded have been 
rigorous, random assignment impact evaluations. These include: (1) the 
Workforce Investment Act (WIA) Gold Standard Evaluation of the Adult 
and Dislocated Worker Programs (WGSE); (2) the YouthBuild Impact 
Evaluation; (3) the Reintegration of Ex-Offenders Random Assignment 
Evaluation; (4) the Impact Evaluation of Green Jobs, Health Care and 
High Growth Training Grants; and (5) the Transitional Jobs 
Demonstration Impact Evaluation. Each of these evaluations examines net 
impacts on employment, retention and earnings, and include benefit-cost 
analyses. ETA was able to fund these evaluations through an increase in 
fiscal year 2010 appropriations for evaluations and the funds made 
available to DOL by the American Recovery and Reinvestment Act of 2009. 
Random assignment evaluations are highly resource intensive and 
typically take a range of 3 to 7 years to implement. In addition, 
random assignment evaluations of our programs may not always be 
possible when the law requires that people receive services. Therefore, 
it is necessary at times to conduct other types of evaluations to gain 
as much information as possible with available resources.
    Another key investment that the Department will maximize is the 
Workforce Innovation Fund (Fund). The Full-Year Continuing 
Appropriations Act of 2011 provides $124.7 (post rescission) for the 
Workforce Innovation Fund that will support competitively awarded 
grants to States; State agencies that are eligible for assistance under 
any program authorized under WIA; consortia of States; or partnerships, 
including regional partnerships. This Fund represents a small but 
crucial investment in innovative, evidence-based and cost-saving 
workforce strategies. This Fund will significantly benefit WIA formula-
funded activities well into the future by obtaining results that can be 
replicated broadly throughout the workforce system. These results will 
inform administrative guidance issued by the Department and future 
workforce related legislative initiatives.
    In addition, the Department has developed effective partnerships 
with other Federal agencies that encourage State and local synergies to 
improve the delivery of quality, cost effective services across 
programs and evaluate their performance. Finally, we look forward to 
continuing to work with Congress in support of a WIA reauthorization 
bill that meets the administration goals of streamlined service 
delivery, better meeting the needs of employers and regional economies, 
improving accountability, and promoting innovation.

                          SUBCOMMITTEE RECESS

    Senator Harkin. The subcommittee will stand recessed.
    [Whereupon, at 11:03 a.m., Wednesday, May 4, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
